TABLE D.1                                                                                                                                                                                                                                                               210

 CPP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                               Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
 Purchase                                                                                                                      Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
 Date        Company                                               Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

12/23/2008   1st Constitution Bancorp, Cranbury, NJo               Preferred Stock w/ Warrants                  $12,000,000    10/27/2010         $12,000,000              —    11/18/2011      P         $326,576            $6.98                      $1,106,667
2/13/2009    1st Enterprise Bank, Los Angeles, CA2,49,c            Preferred Stock w/ Exercised Warrants          $4,400,000   9/1/2011             $4,400,000             —    9/1/2011        R         $220,000
                                                                                                                                                                                                                              $9.51                      $1,128,156
12/11/2009   1st Enterprise Bank, Los Angeles, CA2,10a,49,c        Preferred Stock                                $6,000,000   9/1/2011             $6,000,000             —
11/14/2008   1st FS Corporation, Hendersonville, NC                Preferred Stock w/ Warrants                  $16,369,000                                                                                                                              $1,229,949
1/23/2009    1st Source Corporation, South Bend, IN                Preferred Stock w/ Warrants                 $111,000,000    12/29/2010        $111,000,000              —    3/9/2011        R        $3,750,000         $25.33                      $10,730,000
3/13/2009    1st United Bancorp, Inc., Boca Raton, FL2             Preferred Stock w/ Exercised Warrants        $10,000,000    11/18/2009         $10,000,000              —    11/18/2009      R         $500,000            $5.55                        $370,903
1/23/2009    AB&T Financial Corporation, Gastonia, NC              Preferred Stock w/ Warrants                    $3,500,000                                                                                                  $0.80                        $360,694
1/30/2009    Adbanc, Inc, Ogallala, NE2,49                         Preferred Stock w/ Exercised Warrants        $12,720,000    7/21/2011          $12,720,000              —    7/21/2011       R         $636,000                                       $1,715,769
1/23/2009    Alarion Financial Services, Inc., Ocala, FL2          Preferred Stock w/ Exercised Warrants          $6,514,000                                                                                                                               $998,057
2/6/2009     Alaska Pacific Bancshares, Inc., Juneau, AK           Preferred Stock w/ Warrants                    $4,781,000                                                                                                  $6.10                        $665,080
6/26/2009    Alliance Bancshares, Inc., Dalton, GA2                Preferred Stock w/ Exercised Warrants          $2,986,000                                                                                                                               $388,244
12/19/2008   Alliance Financial Corporation, Syracuse, NY          Preferred Stock w/ Warrants                  $26,918,000    5/13/2009          $26,918,000              —    6/17/2009       R         $900,000          $30.88                         $538,360
                                                                   Subordinated Debentures w/ Exercised
6/26/2009    Alliance Financial Services Inc., Saint Paul, MN8                                                  $12,000,000                                                                                                                                $388,742
                                                                   Warrants
                                                    2
4/24/2009    Allied First Bancorp, Inc., Oswego, IL                Preferred Stock w/ Exercised Warrants          $3,652,000                                                                                                  $0.18                        $409,753
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




3/27/2009    Alpine Banks of Colorado, Glenwood Springs, CO2       Preferred Stock w/ Exercised Warrants        $70,000,000                                                                                                                              $6,231,166
1/30/2009    AMB Financial Corp., Munster, IN2,50                  Preferred Stock w/ Exercised Warrants          $3,674,000   9/22/2011            $3,674,000             —    9/22/2011       R         $184,000            $4.25                        $529,576
3/6/2009     AmeriBank Holding Company, Collinsville, OK2,49       Preferred Stock w/ Exercised Warrants          $2,492,000   9/15/2011            $2,492,000             —    9/15/2011       R         $125,000                                         $343,021
1/9/2009     American Express Company, New York, NY                Preferred Stock w/ Warrants                $3,388,890,000   6/17/2009        $3,388,890,000             —    7/29/2009       R      $340,000,000         $47.17                      $74,367,308
5/29/2009    American Premier Bancorp, Arcadia, CA2                Preferred Stock w/ Exercised Warrants          $1,800,000   1/26/2011            $1,800,000             —    1/26/2011       R          $90,000                                         $162,682
1/9/2009     American State Bancshares, Inc., Great Bend, KS2,d    Preferred Stock w/ Exercised Warrants          $6,000,000   11/2/2011            $6,000,000             —    11/2/2011       R         $300,000                                         $920,142
11/21/2008   Ameris Bancorp, Moultrie, GAe                         Preferred Stock w/ Warrants                  $52,000,000                                                                                                 $10.28       698,554         $7,756,667
12/19/2008   AmeriServ Financial, Inc, Johnstown, PA50             Preferred Stock w/ Warrants                  $21,000,000    8/11/2011          $21,000,000              —    11/2/2011       R         $825,000            $1.95                      $2,776,667

                                                               8   Subordinated Debentures w/ Exercised
8/21/2009    AmFirst Financial Services, Inc., McCook, NE                                                         $5,000,000                                                                                                                               $936,885
                                                                   Warrants
1/30/2009    Anchor BanCorp Wisconsin Inc., Madison, WI            Preferred Stock w/ Warrants                 $110,000,000                                                                                                   $0.34    7,399,103                   —
1/30/2009    Annapolis Bancorp, Inc., Annapolis, MD                Preferred Stock w/ Warrants                    $8,152,000                                                                                                  $3.89      299,706         $1,137,883
                                                                                                                               4/6/2011          $262,500,000    $262,500,000
11/21/2008   Associated Banc-Corp, Green Bay, WIf                  Preferred Stock w/ Warrants                 $525,000,000                                                     11/30/2011      A        $3,584,977         $11.17                      $68,104,167
                                                                                                                               9/14/2011         $262,500,000              —
                                                        2,10
12/29/2009   Atlantic Bancshares, Inc., Bluffton, SC               Preferred Stock w/ Exercised Warrants          $2,000,000                                                                                                  $1.10                        $122,725
2/27/2009    Avenue Financial Holdings, Inc., Nashville, TN2,49    Preferred Stock w/ Exercised Warrants          $7,400,000   9/15/2011            $7,400,000             —    9/15/2011       R         $370,000                                       $1,028,415
3/13/2009    BancIndependent, Inc., Sheffield, AL2,49              Preferred Stock w/ Exercised Warrants        $21,100,000    7/14/2011          $21,100,000              —    7/14/2011       R        $1,055,000                                      $2,686,411
7/10/2009    Bancorp Financial, Inc., Oak Brook, IL2,10,49         Preferred Stock w/ Exercised Warrants        $13,669,000    8/18/2011          $13,669,000              —    8/18/2011       R         $410,000                                       $1,516,737
12/19/2008   Bancorp Rhode Island, Inc., Providence, RI            Preferred Stock w/ Warrants                  $30,000,000    8/5/2009           $30,000,000              —    9/30/2009       R        $1,400,000         $39.70                         $941,667
2/20/2009    BancPlus Corporation, Ridgeland, MS2,30               Preferred Stock w/ Exercised Warrants        $48,000,000    9/29/2010          $48,000,000              —    9/29/2010       R        $2,400,000                                      $4,207,399
4/3/2009     BancStar, Inc., Festus, MO2                           Preferred Stock w/ Exercised Warrants          $8,600,000                                                                                                                             $1,226,432
12/19/2008   BancTrust Financial Group, Inc., Mobile, AL           Preferred Stock w/ Warrants                  $50,000,000                                                                                                   $1.24      730,994         $7,263,889
8/14/2009    Bank Financial Services, Inc., Eden Prairie, MN2      Preferred Stock w/ Exercised Warrants          $1,004,000                                                                                                                               $123,227

10/28/2008   Bank of America Corporation, Charlotte, NC1b,c        Preferred Stock w/ Warrants              $15,000,000,000    12/9/2009      $15,000,000,000              —    3/3/2010        A      $186,342,969                                   $458,333,333
                                                                                                                                                                                                                              $5.56
1/9/2009     Bank of America Corporation, Charlotte, NC1a,1b,c     Preferred Stock w/ Warrants              $10,000,000,000    12/9/2009      $10,000,000,000              —    3/3/2010        A      $124,228,646                                   $835,416,667
1/16/2009    Bank of Commerce, Charlotte, NC2,e                    Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $381,046
11/14/2008   Bank of Commerce Holdings, Redding, CA49              Preferred Stock w/ Warrants                  $17,000,000    9/27/2011          $17,000,000              —    10/26/2011      R         $125,000            $2.50                      $2,439,028
3/13/2009    Bank of George, Las Vegas, NV2                        Preferred Stock w/ Exercised Warrants          $2,672,000                                                                                                                               $279,991
12/5/2008    Bank of Marin Bancorp, Novato, CAi,n                  Preferred Stock w/ Warrants                  $28,000,000    3/31/2009          $28,000,000              —    11/18/2011      P        $1,703,984         $37.59                         $451,111
4/17/2009    Bank of the Carolinas Corporation, Mocksville, NC     Preferred Stock w/ Warrants                  $13,179,000                                                                                                   $0.28      475,204         $1,039,677
12/12/2008   Bank of the Ozarks, Inc., Little Rock, AR             Preferred Stock w/ Warrants                  $75,000,000    11/4/2009          $75,000,000              —    11/24/2009      R        $2,650,000         $29.63                       $3,354,167
             Bankers’ Bank of the West Bancorp, Inc.,
1/30/2009                                                          Preferred Stock w/ Exercised Warrants        $12,639,000                                                                                                                                $717,532
             Denver, CO2

                                                                                                                                                                                                                                              Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (CONTINUED)
                                                                                                                                 Capital                             Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

1/23/2009    BankFirst Capital Corporation, Macon, MS2,49            Preferred Stock w/ Exercised Warrants        $15,500,000    9/8/2011           $15,500,000              —    9/8/2011        R        $775,000                                       $2,217,469
2/13/2009    BankGreenville, Greenville, SC2                         Preferred Stock w/ Exercised Warrants          $1,000,000                                                                                                                              $150,178
11/21/2008   Banner Corporation, Walla Walla, WA                     Preferred Stock w/ Warrants                 $124,000,000                                                                                                $17.15       243,998        $18,496,667
2/6/2009     Banner County Ban Corporation, Harrisburg, NE2,49       Preferred Stock w/ Exercised Warrants           $795,000    7/28/2011             $795,000              —    7/28/2011       R         $40,000                                         $107,411
1/16/2009    Bar Harbor Bankshares, Bar Harbor, ME                   Preferred Stock w/ Warrants                  $18,751,000    2/24/2010          $18,751,000              —    7/28/2010       R        $250,000          $29.98                       $1,036,514
11/14/2008   BB&T Corp., Winston-Salem, NC                           Preferred Stock w/ Warrants                $3,133,640,000   6/17/2009        $3,133,640,000             —    7/22/2009       R      $67,010,402         $25.17                      $92,703,517
             BBCN Bancorp, Inc.
12/12/2008                                                           Preferred Stock w/ Warrants                  $55,000,000                                                                                                                             $8,158,333
             (Center Financial Corporation), Los Angeles, CA66,d,m
                                                                                                                                                                                                                               $9.45      337,480
             BBCN Bancorp, Inc.
11/21/2008                                                           Preferred Stock w/ Warrants                  $67,000,000                                                                                                                             $9,994,167
             (Nara Bancorp, Inc.), Los Angeles, CA66
4/3/2009     BCB Holding Company, Inc., Theodore, AL2                Preferred Stock w/ Exercised Warrants          $1,706,000                                                                                                                              $173,508
12/23/2008   BCSB Bancorp, Inc., Baltimore, MD                       Preferred Stock w/ Warrants                  $10,800,000    1/26/2011          $10,800,000              —                                               $10.75       183,465         $1,129,500
                                                                                                                                 7/6/2011             $1,500,000     $4,500,000
1/30/2009    Beach Business Bank, Manhattan Beach, CA2               Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                 $9.00                        $880,583
                                                                                                                                 10/19/2011           $1,500,000     $3,000,000
12/19/2008   Berkshire Hills Bancorp, Inc., Pittsfield, MA           Preferred Stock w/ Warrants                  $40,000,000    5/27/2009          $40,000,000              —    6/24/2009       R       $1,040,000         $22.19                         $877,778
2/13/2009    Bern Bancshares, Inc., Bern, KS2,49                     Preferred Stock w/ Exercised Warrants           $985,000    9/1/2011              $985,000              —    9/1/2011        R         $50,000                                         $137,063
             Birmingham Bloomfield Bancshares, Inc,
4/24/2009                                                            Preferred Stock w/ Exercised Warrants          $1,635,000   7/28/2011            $1,635,000             —    7/28/2011       R         $82,000
             Birmingham, MI2,49
                                                                                                                                                                                                                               $3.00                        $342,023
             Birmingham Bloomfield Bancshares, Inc,
12/18/2009                                                           Preferred Stock                                $1,744,000   7/28/2011            $1,744,000             —
             Birmingham, MI2,10a,49
                                                                     Subordinated Debentures w/ Exercised
6/19/2009    Biscayne Bancshares, Inc., Coconut Grove, FL8,10                                                       $6,400,000                                                                                                                            $1,255,795
                                                                     Warrants
                                                   2
3/13/2009    Blackhawk Bancorp, Inc., Beloit, WI                     Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                  $5.90                      $1,456,361
5/22/2009    Blackridge Financial, Inc., Fargo, ND2                  Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                              $675,951
3/6/2009     Blue Ridge Bancshares, Inc., Independence, MO2          Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                             $1,433,350
3/6/2009     Blue River Bancshares, Inc., Shelbyville, IN2           Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                 $0.11                        $529,105
12/5/2008    Blue Valley Ban Corp, Overland Park, KS                 Preferred Stock w/ Warrants                  $21,750,000                                                                                                  $4.10      111,083           $211,458
4/17/2009    BNB Financial Services Corporation, New York, NY2       Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                              $440,542
12/5/2008    BNC Bancorp, Thomasville, NC                            Preferred Stock w/ Warrants                  $31,260,000                                                                                                  $7.25      543,337         $4,602,167
2/27/2009    BNC Financial Group, Inc., New Canaan, CT2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   8/4/2011             $4,797,000             —    8/4/2011        R        $240,000          $13.00                         $636,921
1/16/2009    BNCCORP, Inc., Bismarck, ND2                            Preferred Stock w/ Exercised Warrants        $20,093,000                                                                                                  $2.75                        $909,542
3/6/2009     BOH Holdings, Inc., Houston, TX2,49                     Preferred Stock w/ Exercised Warrants        $10,000,000    7/14/2011          $10,000,000              —    7/14/2011       R        $500,000                                       $1,283,777
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Boscobel Bancorp, Inc, Boscobel, WI8                                                                   $5,586,000                                                                                                                              $468,624
                                                                     Warrants
                                                                                                                                 1/13/2010          $50,000,000    $104,000,000   2/1/2011        A       $6,352,500
11/21/2008   Boston Private Financial Holdings, Inc., Boston, MA     Preferred Stock w/ Warrants                 $154,000,000                                                                                                  $7.94                     $11,022,222
                                                                                                                                 6/16/2010         $104,000,000              —
                                                                                                                                 2/23/2011          $15,000,000      $8,864,000   4/20/2011       R       $1,395,000
12/23/2008   Bridge Capital Holdings, San Jose, CA                   Preferred Stock w/ Warrants                  $23,864,000                                                                                                $10.40                       $2,613,582
                                                                                                                                 3/16/2011            $8,864,000             —
12/19/2008   Bridgeview Bancorp, Inc., Bridgeview, IL2               Preferred Stock w/ Exercised Warrants        $38,000,000                                                                                                                             $2,393,156
             Broadway Financial Corporation,
11/14/2008                                                           Preferred Stock                                $9,000,000
             Los Angeles, CA3a,c
                                                                                                                                                                                                                               $1.56                        $810,417
             Broadway Financial Corporation,
12/4/2009                                                            Preferred Stock                                $6,000,000
             Los Angeles, CA3,10a,c
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Brogan Bankshares, Inc., Kaukauna, WI8                                                                 $2,400,000                                                                                                                              $402,720
                                                                     Warrants
                                                              2,49
7/17/2009    Brotherhood Bancshares, Inc., Kansas City, KS           Preferred Stock w/ Exercised Warrants        $11,000,000    9/15/2011          $11,000,000              —    9/15/2011       R        $550,000                                       $1,295,586
4/24/2009    Business Bancshares, Inc., Clayton, MO2                 Preferred Stock w/ Exercised Warrants        $15,000,000                                                                                                                             $2,091,438
3/13/2009    Butler Point, Inc., Catlin, IL2,d                       Preferred Stock w/ Exercised Warrants           $607,000    11/2/2011             $607,000              —    11/2/2011       R         $30,000                                          $87,124
1/9/2009     C&F Financial Corporation, West Point, VA               Preferred Stock w/ Warrants                  $20,000,000    7/27/2011          $10,000,000     $10,000,000                                              $26.60       167,504         $2,700,000
                                                                                                                                                                                                                                                                         TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




12/23/2008   Cache Valley Banking Company, Logan, UT2,49,c           Preferred Stock w/ Exercised Warrants          $4,767,000   7/14/2011            $4,767,000             —    7/14/2011       R        $238,000
                                                                                                                                                                                                                                                          $1,029,334
12/18/2009   Cache Valley Banking Company, Logan, UT2,10a,49,c       Preferred Stock                                $4,640,000   7/14/2011            $4,640,000             —
                                                             33
1/9/2009     Cadence Financial Corporation, Starkville, MS           Preferred Stock w/ Warrants                  $44,000,000    3/4/2011           $38,000,000              —                                                                            $3,984,063

                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                         211
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (CONTINUED)                                                                                                                                                               212
                                                                                                                                 Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

2/27/2009    California Bank of Commerce, Lafayette, CA2,49          Preferred Stock w/ Exercised Warrants          $4,000,000   9/15/2011            $4,000,000            —    9/15/2011       R         $200,000                                         $555,900
1/23/2009    California Oaks State Bank, Thousand Oaks, CA2          Preferred Stock w/ Exercised Warrants          $3,300,000   12/8/2010            $3,300,000            —    12/8/2010       R         $165,000                                         $337,219
1/23/2009    Calvert Financial Corporation, Ashland, MO2             Preferred Stock w/ Exercised Warrants          $1,037,000                                                                                                                              $158,913
1/23/2009    CalWest Bancorp, Rancho Santa Margarita, CA2            Preferred Stock w/ Exercised Warrants          $4,656,000                                                                                                 $0.29                        $396,164
12/23/2008   Capital Bancorp, Inc., Rockville, MD2                   Preferred Stock w/ Exercised Warrants          $4,700,000   12/30/2010           $4,700,000            —    12/30/2010      R         $235,000                                         $517,281
12/12/2008   Capital Bank Corporation, Raleigh, NC35                 Preferred Stock w/ Warrants                  $41,279,000    1/28/2011          $41,279,000             —                                                  $2.01      749,619         $3,973,104
4/10/2009    Capital Commerce Bancorp, Inc., Milwaukee, WI2          Preferred Stock w/ Exercised Warrants          $5,100,000                                                                                                                              $304,973
11/14/2008   Capital One Financial Corporation, McLean, VA           Preferred Stock w/ Warrants                $3,555,199,000   6/17/2009        $3,555,199,000            —    12/3/2009       A      $148,731,030         $42.29                    $105,174,638
12/23/2008   Capital Pacific Bancorp, Portland, OR2                  Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                              $630,989
                                                                     Subordinated Debentures w/ Exercised
10/23/2009   Cardinal Bancorp II, Inc., Washington, MO8,50                                                          $6,251,000   9/8/2011             $6,251,000            —    9/8/2011        R         $313,000                                         $983,480
                                                                     Warrants
1/9/2009     Carolina Bank Holdings, Inc., Greensboro, NC            Preferred Stock w/ Warrants                  $16,000,000                                                                                                  $2.45      357,675         $1,882,500
2/6/2009     Carolina Trust Bank, Lincolnton, NC                     Preferred Stock w/ Warrants                    $4,000,000                                                                                                 $2.33       86,957           $455,000
2/13/2009    Carrollton Bancorp, Baltimore, MD                       Preferred Stock w/ Warrants                    $9,201,000                                                                                                 $2.80      205,379           $922,656
1/16/2009    Carver Bancorp, Inc, New York, NY3,30                   Preferred Stock                              $18,980,000    8/27/2010          $18,980,000             —                                                  $8.29                      $1,531,581
11/21/2008   Cascade Financial Corporation, Everett, WA47            Preferred Stock w/ Warrants                  $38,970,000    6/30/2011          $16,250,000             —                                                                             $1,428,900
12/5/2008    Cathay General Bancorp, Los Angeles, CA                 Preferred Stock w/ Warrants                 $258,000,000                                                                                                $14.93     1,846,374        $37,983,333
                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




2/27/2009    Catskill Hudson Bancorp, Inc, Rock Hill, NY2,49,c       Preferred Stock w/ Exercised Warrants          $3,000,000   7/21/2011            $3,000,000            —    7/21/2011       R         $150,000
                                                                                                                                                                                                                             $17.75                         $685,071
12/22/2009   Catskill Hudson Bancorp, Inc, Rock Hill, NY2,10a,49,c   Preferred Stock w/ Exercised Warrants          $3,500,000   7/21/2011            $3,500,000            —    7/21/2011       R         $113,000
5/29/2009    CB Holding Corp., Aledo, IL2,63                         Preferred Stock w/ Exercised Warrants          $4,114,000                                                                                                                              $271,580
2/20/2009    CBB Bancorp, Cartersville, GA2                          Preferred Stock w/ Exercised Warrants          $2,644,000
                                                                                                                                                                                                                                                            $558,806
12/29/2009   CBB Bancorp, Cartersville, GA2,10a                      Preferred Stock                                $1,753,000
3/27/2009    CBS Banc-Corp., Russellville, AL2                       Preferred Stock w/ Exercised Warrants        $24,300,000                                                                                                             523,076         $3,554,874
12/23/2008   Cecil Bancorp, Inc., Elkton, MD                         Preferred Stock w/ Warrants                  $11,560,000                                                                                                  $0.55      261,538           $516,989
2/6/2009     CedarStone Bank, Lebanon, TN2                           Preferred Stock w/ Exercised Warrants          $3,564,000                                                                                                                              $538,961
1/9/2009     Center Bancorp, Inc., Union, NJ49                       Preferred Stock w/ Warrants                  $10,000,000    9/15/2011          $10,000,000             —    12/7/2011       R         $245,000            $9.77                      $1,341,667
5/1/2009     CenterBank, Milford, OH2                                Preferred Stock w/ Exercised Warrants          $2,250,000                                                                                                                              $311,446
11/21/2008   Centerstate Banks of Florida Inc., Davenport, FL        Preferred Stock w/ Warrants                  $27,875,000    9/30/2009          $27,875,000             —    10/28/2009      R         $212,000            $6.62                      $1,196,303
1/16/2009    Centra Financial Holdings, Inc., Morgantown, WV2        Preferred Stock w/ Exercised Warrants        $15,000,000    3/31/2009          $15,000,000             —    4/15/2009       R         $750,000                                         $172,938
12/5/2008    Central Bancorp, Inc., Somerville, MA50,e               Preferred Stock w/ Warrants                  $10,000,000    8/25/2011          $10,000,000             —    10/19/2011      R        $2,525,000         $17.05                       $1,361,111
2/27/2009    Central Bancorp, Inc., Garland, TX2                     Preferred Stock w/ Exercised Warrants        $22,500,000                                                                                                                             $2,411,625
1/30/2009    Central Bancshares, Inc., Houston, TX2                  Preferred Stock w/ Exercised Warrants          $5,800,000   7/6/2011             $5,800,000            —    7/6/2011        R         $290,000                                         $769,177
2/20/2009    Central Community Corporation, Temple, TX2              Preferred Stock w/ Exercised Warrants        $22,000,000                                                                                                                             $3,280,597
12/5/2008    Central Federal Corporation, Fairlawn, OH               Preferred Stock w/ Warrants                    $7,225,000                                                                                                            336,568           $612,118
12/23/2008   Central Jersey Bancorp, Oakhurst, NJ                    Preferred Stock w/ Warrants                  $11,300,000    11/24/2010         $11,300,000             —    12/1/2010       R         $319,659                                       $1,084,486
1/9/2009     Central Pacific Financial Corp., Honolulu, HI37,46      Common Stock w/ Warrants                    $135,000,000    6/17/2011          $35,883,281    $99,116,719                                                             79,288         $2,362,500
1/30/2009    Central Valley Community Bancorp, Fresno, CA50          Preferred Stock w/ Warrants                    $7,000,000   8/18/2011            $7,000,000            —    9/28/2011       R         $185,017            $5.43                        $892,500
1/30/2009    Central Virginia Bankshares, Inc., Powhatan, VA         Preferred Stock w/ Warrants                  $11,385,000                                                                                                  $0.38      263,542           $450,656
12/18/2009   Centric Financial Corporation, Harrisburg, PA2,10,49    Preferred Stock w/ Exercised Warrants          $6,056,000   7/14/2011            $6,056,000            —    7/14/2011       R         $182,000                                         $501,822
2/6/2009     Centrix Bank & Trust, Bedford, NH2,49                   Preferred Stock w/ Exercised Warrants          $7,500,000   7/28/2011            $7,500,000            —    7/28/2011       R         $375,000          $16.70                       $1,012,791
1/9/2009     Centrue Financial Corporation, St. Louis, MO            Preferred Stock w/ Warrants                  $32,668,000                                                                                                  $0.30      508,320           $571,690
             Century Financial Services Corporation, Santa           Subordinated Debentures w/
6/19/2009                                                                                                         $10,000,000                                                                                                                             $2,018,261
             Fe, NM8                                                 Exercised Warrants
                                                                     Subordinated Debentures w/
5/29/2009    Chambers Bancshares, Inc., Danville, AR8                                                             $19,817,000                                                                                                                             $4,092,008
                                                                     Exercised Warrants
7/31/2009    Chicago Shore Corporation, Chicago, IL2                 Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                                              $874,271
12/31/2008   CIT Group Inc., New York, NY16                          Contingent Value Rights                    $2,330,000,000   2/8/2010                                   —                                                $34.87                      $43,687,500
10/28/2008   Citigroup Inc., New York, NY11,23                       Common Stock w/ Warrants                 $25,000,000,000    **             $25,000,000,000             —    1/25/2011       A       $54,621,849         $26.31                    $932,291,667
1/16/2009    Citizens & Northern Corporation, Wellsboro, PA          Preferred Stock w/ Warrants                  $26,440,000    8/4/2010           $26,440,000             —    9/1/2010        R         $400,000          $18.47                       $2,049,100
12/23/2008   Citizens Bancorp, Nevada City, CA2,61                   Preferred Stock w/ Exercised Warrants        $10,400,000                                                                                                  $0.01                        $223,571

                                                                                                                                                                                                                                               Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (CONTINUED)
                                                                                                                                 Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

5/29/2009    Citizens Bancshares Co., Chillicothe, MO2               Preferred Stock w/ Exercised Warrants        $24,990,000                                                                                                                                $628,033
3/6/2009     Citizens Bancshares Corporation, Atlanta, GA3,30        Preferred Stock                                $7,462,000   8/13/2010            $7,462,000             —                                                  $3.51                        $535,813
3/20/2009    Citizens Bank & Trust Company, Covington, LA2           Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                               $183,483
             Citizens Commerce Bancshares, Inc.,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $6,300,000                                                                                                                               $180,259
             Versailles, KY2
                                                      2,49
12/23/2008   Citizens Community Bank, South Hill, VA                 Preferred Stock w/ Exercised Warrants          $3,000,000   7/28/2011            $3,000,000             —    7/28/2011       R         $150,000                                         $424,646
12/19/2008   Citizens First Corporation, Bowling Green, KY           Preferred Stock w/ Warrants                    $8,779,000   2/16/2011            $2,212,308     $6,566,692                                                 $6.99      254,218         $1,192,740
12/12/2008   Citizens Republic Bancorp, Inc., Flint, MI              Preferred Stock w/ Warrants                 $300,000,000                                                                                                 $11.40     1,757,813        $13,875,000
             Citizens South Banking Corporation,
12/12/2008                                                           Preferred Stock w/ Warrants                  $20,500,000    9/22/2011          $20,500,000              —    11/9/2011       R         $225,157            $3.50                      $2,847,222
             Gastonia, NC50,k
             City National Bancshares Corporation,
4/10/2009                                                            Preferred Stock                                $9,439,000                                                                                                                               $281,859
             Newark, NJ2,3
                                                                                                                                 12/30/2009        $200,000,000    $200,000,000
11/21/2008   City National Corporation, Beverly Hills, CA            Preferred Stock w/ Warrants                 $400,000,000                                                     4/7/2010        R       $18,500,000         $44.18                      $23,916,667
                                                                                                                                 3/3/2010          $200,000,000              —
                                                             2
3/27/2009    Clover Community Bankshares, Inc., Clover, SC           Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $267,050
             Coastal Banking Company, Inc.,
12/5/2008                                                            Preferred Stock w/ Warrants                    $9,950,000                                                                                                             205,579           $967,361
             Fernandina Beach, FL
             CoastalSouth Bancshares, Inc., Hilton Head
8/28/2009                                                            Preferred Stock w/ Exercised Warrants        $16,015,000                                                                                                                              $1,235,449
             Island, SC2,10
12/19/2008   CoBiz Financial Inc., Denver, CO50,l                    Preferred Stock w/ Warrants                  $64,450,000    9/8/2011           $64,450,000              —    11/18/2011      P         $143,677            $5.77                      $8,763,410
1/9/2009     Codorus Valley Bancorp, Inc., York, PA49                Preferred Stock w/ Warrants                  $16,500,000    8/18/2011          $16,500,000              —    9/28/2011       R         $526,604            $8.30                      $2,151,875
2/13/2009    ColoEast Bankshares, Inc., Lamar, CO2                   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                                              $1,229,278
3/27/2009    Colonial American Bank, West Conshohocken, PA2,d        Preferred Stock w/ Exercised Warrants           $574,000    10/26/2011            $574,000              —    10/26/2011      R          $29,000                                          $65,143
1/9/2009     Colony Bankcorp, Inc., Fitzgerald, GA                   Preferred Stock w/ Warrants                  $28,000,000                                                                                                   $2.24      500,000         $3,990,000
11/21/2008   Columbia Banking System, Inc., Tacoma, WA               Preferred Stock w/ Warrants                  $76,898,000    8/11/2010          $76,898,000              —    9/1/2010        R        $3,301,647         $19.27                       $6,621,772
2/27/2009    Columbine Capital Corp., Buena Vista, CO2,49            Preferred Stock w/ Exercised Warrants          $2,260,000   9/22/2011            $2,260,000             —    9/22/2011       R         $113,000                                         $316,479
11/14/2008   Comerica Inc., Dallas, TX                               Preferred Stock w/ Warrants                $2,250,000,000   3/17/2010        $2,250,000,000             —    5/6/2010        A      $183,673,472         $25.80                    $150,937,500
1/9/2009     Commerce National Bank, Newport Beach, CA               Preferred Stock w/ Warrants                    $5,000,000   10/7/2009            $5,000,000             —                                                  $6.75       87,209            $36,111
                                                                     Subordinated Debentures w/ Exercised
5/22/2009    Commonwealth Bancshares, Inc., Louisville, KY8                                                       $20,400,000                                                                                                   $0.00                      $4,245,625
                                                                     Warrants
1/23/2009    Commonwealth Business Bank, Los Angeles, CA2            Preferred Stock w/ Exercised Warrants          $7,701,000                                                                                                  $5.45                        $445,348
1/16/2009    Community 1st Bank, Roseville, CA2                      Preferred Stock w/ Exercised Warrants          $2,550,000                                                                                                  $7.00                        $139,020
3/6/2009     Community Bancshares of Kansas, Inc., Goff, KS2         Preferred Stock w/ Exercised Warrants           $500,000                                                                                                                                 $73,348
             Community Bancshares of Mississippi, Inc.,
9/11/2009                                                            Preferred Stock w/ Exercised Warrants        $52,000,000    9/29/2010          $52,000,000              —    9/29/2010       R        $2,600,000                                      $2,975,700
             Brandon, MS2,30
7/24/2009    Community Bancshares, Inc., Kingman, AZ2,10             Preferred Stock w/ Exercised Warrants          $3,872,000                                                                                                                               $470,992
1/16/2009    Community Bank of the Bay, Oakland, CA3,30              Preferred Stock                                $1,747,000   9/29/2010            $1,747,000             —                                                                                $76,189
             Community Bank Shares of Indiana, Inc.,
5/29/2009                                                            Preferred Stock w/ Warrants                  $19,468,000    9/15/2011          $19,468,000              —    10/19/2011      R        $1,100,870           $9.40                      $2,233,412
             New Albany, IN49,e
             Community Bankers Trust Corporation,
12/19/2008                                                           Preferred Stock w/ Warrants                  $17,680,000                                                                                                   $1.15      780,000         $1,242,511
             Glen Allen, VA
2/27/2009    Community Business Bank, West Sacramento, CA2           Preferred Stock w/ Exercised Warrants          $3,976,000                                                                                                  $4.35                        $588,729
12/19/2008   Community Financial Corporation, Staunton, VA           Preferred Stock w/ Warrants                  $12,643,000                                                                                                   $3.28      351,194         $1,836,747
5/15/2009    Community Financial Shares, Inc., Glen Ellyn, IL2       Preferred Stock w/ Exercised Warrants          $6,970,000                                                                                                  $2.00                        $569,865
3/20/2009    Community First Bancshares Inc., Union City, TN2,49     Preferred Stock w/ Exercised Warrants        $20,000,000    8/18/2011          $20,000,000              —    8/18/2011       R        $1,000,000                                      $2,628,111
4/3/2009     Community First Bancshares, Inc., Harrison, AR2         Preferred Stock w/ Exercised Warrants        $12,725,000                                                                                                                              $1,814,632
2/27/2009    Community First Inc., Columbia, TN2                     Preferred Stock w/ Exercised Warrants        $17,806,000                                                                                                                              $1,908,453
             Community Holding Company of Florida, Inc.,
2/6/2009                                                             Preferred Stock w/ Exercised Warrants          $1,050,000                                                                                                                               $158,176
             Miramar Beach, FL2
                                                                                                                                                                                                                                                                          TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                 2
12/23/2008   Community Investors Bancorp, Inc., Bucyrus, OH          Preferred Stock w/ Exercised Warrants          $2,600,000                                                                                                                               $410,143
1/30/2009    Community Partners Bancorp, Middletown, NJ49,j          Preferred Stock w/ Warrants                    $9,000,000   8/11/2011            $9,000,000             —    10/26/2011      R         $460,000            $4.75                      $1,138,750

                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          213
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (CONTINUED)                                                                                                                                                                214
                                                                                                                                  Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                          Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

             Community Pride Bank Corporation,                        Subordinated Debentures w/
11/13/2009                                                                                                           $4,400,000                                                                                                                              $448,253
             Ham Lake, MN8,10                                         Exercised Warrants
             Community Trust Financial Corporation,
1/9/2009                                                              Preferred Stock w/ Exercised Warrants        $24,000,000    7/6/2011           $24,000,000             —    7/6/2011        R        $1,200,000                                      $3,259,100
             Ruston, LA2,49
12/19/2008   Community West Bancshares, Goleta, CA                    Preferred Stock w/ Warrants                  $15,600,000                                                                                                  $1.49      521,158         $2,266,333
1/9/2009     Congaree Bancshares, Inc., Cayce, SC2                    Preferred Stock w/ Exercised Warrants          $3,285,000                                                                                                 $1.25                        $519,223
             Corning Savings and Loan Association,
2/13/2009                                                             Preferred Stock w/ Exercised Warrants           $638,000                                                                                                                                $95,838
             Corning, AR2
1/30/2009    Country Bank Shares, Inc., Milford, NE2                  Preferred Stock w/ Exercised Warrants          $7,525,000                                                                                                                            $1,144,835
6/5/2009     Covenant Financial Corporation, Clarksdale, MS2          Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                              $674,739
2/20/2009    Crazy Woman Creek Bancorp, Inc., Buffalo, WY2            Preferred Stock w/ Exercised Warrants          $3,100,000                                                                                                 $7.25                        $462,266
             Crescent Financial Bancshares, Inc.
1/9/2009                                                              Preferred Stock w/ Warrants                  $24,900,000                                                                                                  $3.44                      $2,303,250
             (Crescent Financial Corporation), Cary, NC65,d
1/23/2009    Crosstown Holding Company, Blaine, MN2                   Preferred Stock w/ Exercised Warrants        $10,650,000                                                                                                                             $1,631,766
3/27/2009    CSRA Bank Corp., Wrens, GA2                              Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                              $180,940
             Customers Bancorp, Inc.
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $2,892,000   12/28/2011           $2,892,000            —    12/28/2011      R         $145,000                                         $407,478
             (Berkshire Bancorp, Inc.), Phoenixville, PA2,60,d
                                                                                                                                  8/26/2009          $97,500,000    $32,500,000
12/5/2008    CVB Financial Corp, Ontario, CA                          Preferred Stock w/ Warrants                 $130,000,000                                                    10/28/2009      R        $1,307,000         $10.03                       $4,739,583
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                                  9/2/2009           $32,500,000             —
2/27/2009    D.L. Evans Bancorp, Burley, ID2,49                       Preferred Stock w/ Exercised Warrants        $19,891,000    9/27/2011          $19,891,000             —    9/27/2011       R         $995,000                                       $2,800,592
                                                                      Subordinated Debentures w/
5/15/2009    Deerfield Financial Corporation, Deerfield, WI8,49                                                      $2,639,000   9/8/2011             $2,639,000            —    9/8/2011        R         $132,000                                         $512,339
                                                                      Exercised Warrants
12/4/2009    Delmar Bancorp, Delmar, MD2                              Preferred Stock w/ Exercised Warrants          $9,000,000                                                                                                                              $832,488
2/13/2009    DeSoto County Bank, Horn Lake, MS2,c                     Preferred Stock w/ Exercised Warrants          $1,173,000
                                                                                                                                                                                                                                                             $317,829
12/29/2009   DeSoto County Bank, Horn Lake, MS2,10a,c                 Preferred Stock                                $1,508,000
                                                                      Subordinated Debentures w/
5/22/2009    Diamond Bancorp, Inc., Washington, MO8                                                                $20,445,000                                                                                                                             $4,254,904
                                                                      Exercised Warrants
                                                                  2
1/16/2009    Dickinson Financial Corporation II, Kansas City, MO      Preferred Stock w/ Exercised Warrants       $146,053,000                                                                                                                             $2,631,197
3/13/2009    Discover Financial Services, Riverwoods, IL              Preferred Stock w/ Warrants                $1,224,558,000   4/21/2010        $1,224,558,000            —    7/7/2010        R      $172,000,000         $24.00                      $67,690,844
1/30/2009    DNB Financial Corporation, Downingtown, PA49             Preferred Stock w/ Warrants                  $11,750,000    8/4/2011           $11,750,000             —    9/21/2011       R         $458,000          $10.68                       $1,475,278
                                                                      Subordinated Debentures w/
6/19/2009    Duke Financial Group, Inc., Minneapolis, MN8                                                          $12,000,000                                                                                                                             $2,572,773
                                                                      Exercised Warrants
                                                                                                                                  12/23/2009         $15,000,000    $23,235,000
12/5/2008    Eagle Bancorp, Inc., Bethesda, MD49,m                    Preferred Stock w/ Warrants                  $38,235,000                                                    11/18/2011      P        $2,794,422         $14.54                       $3,817,732
                                                                                                                                  7/14/2011          $23,235,000             —
12/5/2008    East West Bancorp, Pasadena, CA                          Preferred Stock w/ Warrants                 $306,546,000    12/29/2010        $306,546,000             —    1/26/2011       R       $14,500,000         $19.75                      $31,676,420
1/9/2009     Eastern Virginia Bankshares, Inc., Tappahannock, VA      Preferred Stock w/ Warrants                  $24,000,000                                                                                                  $2.01      373,832         $2,220,000
1/16/2009    ECB Bancorp, Inc., Engelhard, NC                         Preferred Stock w/ Warrants                  $17,949,000                                                                                                $10.55       144,984         $2,540,283
12/23/2008   Emclaire Financial Corp., Emlenton, PA49,e               Preferred Stock w/ Warrants                    $7,500,000   8/18/2011            $7,500,000            —    12/7/2011       R          $51,113          $15.95                         $994,792
12/5/2008    Encore Bancshares Inc., Houston, TX50,l                  Preferred Stock w/ Warrants                  $34,000,000    9/27/2011          $34,000,000             —    11/18/2011      P         $637,071          $13.52                       $4,778,889
12/19/2008   Enterprise Financial Services Corp., St. Louis, MO       Preferred Stock w/ Warrants                  $35,000,000                                                                                                $14.80       324,074         $5,084,722
             Enterprise Financial Services Group, Inc.,
6/12/2009                                                             Preferred Stock w/ Exercised Warrants          $4,000,000   8/25/2011            $4,000,000            —    8/25/2011       R         $200,000                                         $480,206
             Allison Park, PA2,49
1/30/2009    Equity Bancshares, Inc., Wichita, KS2,49                 Preferred Stock w/ Exercised Warrants          $8,750,000   8/11/2011            $8,750,000            —    8/11/2011       R         $438,000                                       $1,206,873
12/19/2008   Exchange Bank, Santa Rosa, CA2                           Preferred Stock w/ Exercised Warrants        $43,000,000                                                                                                $48.21                       $6,223,294

                                                8                     Subordinated Debentures w/
5/22/2009    F & C Bancorp, Inc., Holden, MO                                                                         $2,993,000                                                                                                                              $623,020
                                                                      Exercised Warrants
1/30/2009    F & M Bancshares, Inc., Trezevant, TN2,c                 Preferred Stock w/ Exercised Warrants          $4,609,000
                                                                                                                                                                                                                                                           $1,059,046
11/6/2009    F & M Bancshares, Inc., Trezevant, TN2,10a,c             Preferred Stock                                $3,535,000
                                                          2
2/6/2009     F & M Financial Corporation, Salisbury, NC               Preferred Stock w/ Exercised Warrants        $17,000,000                                                                                                                             $2,571,038
2/13/2009    F&M Financial Corporation, Clarksville, TN2              Preferred Stock w/ Exercised Warrants        $17,243,000                                                                                                                             $2,589,478
1/9/2009     F.N.B. Corporation, Hermitage, PAm                       Preferred Stock w/ Warrants                 $100,000,000    9/9/2009          $100,000,000             —    11/18/2011      P         $690,100          $11.31     2,207,143         $3,333,333
3/6/2009     Farmers & Merchants Bancshares, Inc., Houston, TX2       Preferred Stock w/ Exercised Warrants        $11,000,000                                                                                                                             $1,613,655

                                                                                                                                                                                                                                                Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                          (CONTINUED)
                                                                                                                                     Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                             Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                                 Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

             Farmers & Merchants Financial Corporation,
3/20/2009                                                                Preferred Stock w/ Exercised Warrants           $442,000                                                                                                                                $63,879
             Argonia, KS2
1/23/2009    Farmers Bank, Windsor, VA2                                  Preferred Stock w/ Exercised Warrants          $8,752,000                                                                                                                            $1,340,956
1/9/2009     Farmers Capital Bank Corporation, Frankfort, KY             Preferred Stock w/ Warrants                  $30,000,000                                                                                                  $4.49      223,992         $4,275,000
                                                                         Subordinated Debentures w/
6/19/2009    Farmers Enterprises, Inc., Great Bend, KS8                                                               $12,000,000                                                                                                                             $2,421,916
                                                                         Exercised Warrants
3/20/2009    Farmers State Bankshares, Inc., Holton, KS2,50              Preferred Stock w/ Exercised Warrants           $700,000    7/21/2011             $700,000             —    7/21/2011       R          $40,000                                          $90,174
                                                                         Subordinated Debentures w/
12/29/2009   FBHC Holding Company, Boulder, CO8,10,38                                                                   $3,035,000   3/9/2011              $650,000             —                                                                               $154,592
                                                                         Exercised Warrants
6/26/2009    FC Holdings, Inc., Houston, TX2                             Preferred Stock w/ Exercised Warrants        $21,042,000                                                                                                                               $156,090
12/19/2008   FCB Bancorp, Inc., Louisville, KY2,50                       Preferred Stock w/ Exercised Warrants          $9,294,000   9/22/2011            $9,294,000            —    9/22/2011       R         $465,000                                       $1,397,234
12/19/2008   FFW Corporation, Wabash, IN2                                Preferred Stock w/ Exercised Warrants          $7,289,000                                                                                                                            $1,154,116

                                                        8                Subordinated Debentures w/
5/29/2009    Fidelity Bancorp, Inc, Baton Rouge, LA                                                                     $3,942,000                                                                                                                              $813,940
                                                                         Exercised Warrants
12/12/2008   Fidelity Bancorp, Inc., Pittsburgh, PA                      Preferred Stock w/ Warrants                    $7,000,000                                                                                               $10.05       121,387         $1,023,750
11/13/2009   Fidelity Federal Bancorp, Evansville, IN2,10                Preferred Stock w/ Exercised Warrants          $6,657,000                                                                                                                                      —
12/19/2008   Fidelity Financial Corporation, Wichita, KS2                Preferred Stock w/ Exercised Warrants        $36,282,000                                                                                                                             $5,745,329
12/19/2008   Fidelity Southern Corporation, Atlanta, GA                  Preferred Stock w/ Warrants                  $48,200,000                                                                                                  $6.08    2,266,458         $7,002,389
12/31/2008   Fifth Third Bancorp, Cincinnati, OH                         Preferred Stock w/ Warrants                $3,408,000,000   2/2/2011         $3,408,000,000            —    3/16/2011       R      $280,025,936         $12.72                    $355,946,667
                                                                                                                                     2/23/2011          $12,505,000    $25,010,000
12/23/2008   Financial Institutions, Inc., Warsaw, NY                    Preferred Stock w/ Warrants                  $37,515,000                                                    5/11/2011       R        $2,079,963         $16.14                       $4,192,649
                                                                                                                                     3/30/2011          $25,010,000             —
2/13/2009    Financial Security Corporation, Basin, WY2,50               Preferred Stock w/ Exercised Warrants          $5,000,000   7/21/2011            $5,000,000            —    7/21/2011       R         $250,000                                         $664,597
                                                                         Subordinated Debentures w/ Exercised
7/31/2009    Financial Services of Winger, Inc., Winger, MN8,10,49                                                      $3,742,000   9/1/2011             $3,742,000            —    9/1/2011        R         $112,000                                         $633,322
                                                                         Warrants
                                                                     2
5/22/2009    First Advantage Bancshares Inc., Coon Rapids, MN            Preferred Stock w/ Exercised Warrants          $1,177,000                                                                                                                              $159,152
6/26/2009    First Alliance Bancshares, Inc., Cordova, TN2               Preferred Stock w/ Exercised Warrants          $3,422,000                                                                                                                              $444,986
             First American Bank Corporation,                            Subordinated Debentures w/ Exercised
7/24/2009                                                                                                             $50,000,000    12/21/2011         $15,000,000    $35,000,000                                                                            $9,798,975
             Elk Grove Village, IL8                                      Warrants
3/13/2009    First American International Corp., Brooklyn, NY3,30        Preferred Stock                              $17,000,000    8/13/2010          $17,000,000             —                                                                             $1,204,167
1/9/2009     First Bancorp, Troy, NC50,l                                 Preferred Stock w/ Warrants                  $65,000,000    9/1/2011           $65,000,000             —    11/18/2011      P         $924,462          $11.15       616,308         $8,594,444
1/16/2009    First BanCorp, San Juan, PR28,g                             Common Stock w/ Warrants                    $424,174,000                                                                                                $15.37       389,484        $32,999,386
2/20/2009    First BancTrust Corporation, Paris, IL2                     Preferred Stock w/ Exercised Warrants          $7,350,000                                                                                                 $8.40                      $1,096,141
2/6/2009     First Bank of Charleston, Inc., Charleston, WV2,50          Preferred Stock w/ Exercised Warrants          $3,345,000   7/21/2011            $3,345,000            —    7/21/2011       R         $167,000                                         $448,105
1/16/2009    First Bankers Trustshares, Inc., Quincy, IL2,50             Preferred Stock w/ Exercised Warrants        $10,000,000    9/8/2011           $10,000,000             —    9/8/2011        R         $500,000          $21.04                       $1,441,222
12/31/2008   First Banks, Inc., Clayton, MO2                             Preferred Stock w/ Exercised Warrants       $295,400,000                                                                                                                             $6,037,238
3/6/2009     First Busey Corporation, Urbana, IL50,m                     Preferred Stock w/ Warrants                 $100,000,000    8/25/2011         $100,000,000             —    11/18/2011      P          $63,677            $5.00                     $12,347,222
4/10/2009    First Business Bank, N.A., San Diego, CA2,c                 Preferred Stock w/ Exercised Warrants          $2,211,000
                                                                                                                                                                                                                                                                $508,931
12/11/2009   First Business Bank, N.A., San Diego, CA2,10a,c             Preferred Stock                                $2,032,000
             First California Financial Group, Inc,
12/19/2008                                                               Preferred Stock w/ Warrants                  $25,000,000    7/14/2011          $25,000,000             —    8/24/2011       R         $599,042            $3.26                      $3,211,806
             Westlake Village, CA50
4/3/2009     First Capital Bancorp, Inc., Glen Allen, VA                 Preferred Stock w/ Warrants                  $10,958,000                                                                                                  $2.43      250,947         $1,433,672
2/13/2009    First Choice Bank, Cerritos, CA2,30                         Preferred Stock w/ Exercised Warrants          $2,200,000   9/24/2010            $2,200,000            —    9/24/2010       R         $110,000
                                                                                                                                                                                                                                                                $300,643
12/22/2009   First Choice Bank, Cerritos, CA2,10a,30                     Preferred Stock                                $2,836,000   9/24/2010            $2,836,000            —
1/23/2009    First Citizens Banc Corp, Sandusky, OH                      Preferred Stock w/ Warrants                  $23,184,000                                                                                                  $6.99      469,312         $3,258,640
3/20/2009    First Colebrook Bancorp, Inc., Colebrook, NH2,49            Preferred Stock w/ Exercised Warrants          $4,500,000   9/22/2011            $4,500,000            —    9/22/2011       R         $225,000                                         $614,488
11/21/2008   First Community Bancshares Inc., Bluefield, VAm             Preferred Stock w/ Warrants                  $41,500,000    7/8/2009           $41,500,000             —    11/18/2011      P          $30,600                                       $1,308,403
             First Community Bancshares, Inc,
5/15/2009                                                                Preferred Stock w/ Exercised Warrants        $14,800,000                                                                                                                               $604,950
             Overland Park, KS2
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




             First Community Bank Corporation of America,
12/23/2008                                                               Preferred Stock w/ Warrants                  $10,685,000    5/31/2011            $7,754,267            —                                                                               $744,982
             Pinellas Park, FL39
11/21/2008   First Community Corporation, Lexington, SC                  Preferred Stock w/ Warrants                  $11,350,000                                                                                                  $6.19      195,915         $1,693,042
12/11/2009   First Community Financial Partners, Inc., Joliet, IL2       Preferred Stock w/ Exercised Warrants        $22,000,000                                                                                                                             $2,311,406

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             215
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (CONTINUED)                                                                                                                                                               216
                                                                                                                                  Capital                            Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                          Repayment               Capital      Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

12/5/2008    First Defiance Financial Corp., Defiance, OH             Preferred Stock w/ Warrants                  $37,000,000                                                                                               $14.59       550,595         $5,447,222
                                                                      Subordinated Debentures w/ Exercised
9/11/2009    First Eagle Bancshares, Inc., Hanover Park, IL8,30                                                      $7,500,000   9/17/2010            $7,500,000            —    9/17/2010       R        $375,000                                         $639,738
                                                                      Warrants
2/6/2009     First Express of Nebraska, Inc., Gering, NE2             Preferred Stock w/ Exercised Warrants          $5,000,000                                                                                                                             $756,188
             First Federal Bancshares of Arkansas, Inc.,
3/6/2009                                                              Preferred Stock w/ Warrants                  $16,500,000    5/3/2011             $6,000,000            —                                                 $4.32                        $570,625
             Harrison, AR42
12/23/2008   First Financial Bancorp, Cincinnati, OH                  Preferred Stock w/ Warrants                  $80,000,000    2/24/2010          $80,000,000             —    6/2/2010        A       $3,116,284         $16.64                       $4,677,778
                                                                      Subordinated Debentures w/ Exercised
6/12/2009    First Financial Bancshares, Inc., Lawrence, KS8,10,49                                                   $3,756,000   9/22/2011            $3,756,000            —    9/22/2011       R        $113,000                                         $694,280
                                                                      Warrants
12/5/2008    First Financial Holdings Inc., Charleston, SC            Preferred Stock w/ Warrants                  $65,000,000                                                                                                 $8.93      241,696         $9,569,444
1/9/2009     First Financial Service Corporation, Elizabethtown, KY   Preferred Stock w/ Warrants                  $20,000,000                                                                                                 $1.53      215,983         $1,600,000
12/22/2009   First Freedom Bancshares, Inc., Lebanon, TN2,10          Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                             $869,857
2/27/2009    First Gothenburg Bancshares, Inc., Gothenburg, NE2       Preferred Stock w/ Exercised Warrants          $7,570,000                                                                                                                           $1,121,168
8/28/2009    First Guaranty Bancshares, Inc., Hammond, LA2,49         Preferred Stock w/ Exercised Warrants        $20,699,000    9/22/2011          $20,699,000             —    9/22/2011       R       $1,030,000                                      $2,330,477
11/14/2008   First Horizon National Corporation, Memphis, TN          Preferred Stock w/ Warrants                 $866,540,000    12/22/2010        $866,540,000             —    3/9/2011        R      $79,700,000           $8.00                     $91,227,406
8/28/2009    First Independence Corporation, Detroit, MI2,3           Preferred Stock                                $3,223,000                                                                                                                             $356,768
3/13/2009    First Intercontinental Bank, Doraville, GA2              Preferred Stock w/ Exercised Warrants          $6,398,000                                                                                                                             $757,454
12/12/2008   First Litchfield Financial Corporation, Litchfield, CT   Preferred Stock w/ Warrants                  $10,000,000    4/7/2010           $10,000,000             —    4/7/2010        R       $1,488,046                                        $659,722
                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




2/27/2009    First M&F Corporation, Kosciusko, MS30                   Preferred Stock w/ Warrants                  $30,000,000    9/29/2010          $30,000,000             —                                                 $2.84      513,113         $2,383,333
1/16/2009    First Manitowoc Bancorp, Inc., Manitowoc, WI2            Preferred Stock w/ Exercised Warrants        $12,000,000    5/27/2009          $12,000,000             —    5/27/2009       R        $600,000          $14.00                         $237,983
2/13/2009    First Menasha Bancshares, Inc., Neenah, WI2,49           Preferred Stock w/ Exercised Warrants          $4,797,000   9/15/2011            $4,797,000            —    9/15/2011       R        $240,000                                         $676,865
                                                                      Preferred Stock w/ Warrants                  $69,600,000    9/22/2011          $69,600,000             —    11/18/2011      P                                                      $12,167,111
2/20/2009    First Merchants Corporation, Muncie, IN27,49,50,c,l                                                                                                                                           $367,500            $8.47
                                                                      Trust Preferred Securities                   $46,400,000    9/22/2011          $46,400,000             —                                                                            $2,848,444
                                                        e
12/5/2008    First Midwest Bancorp, Inc., Itasca, IL                  Preferred Stock w/ Warrants                 $193,000,000    11/23/2011        $193,000,000             —    12/21/2011      R        $900,000          $10.13                      $28,628,333
3/13/2009    First National Corporation, Strasburg, VA2               Preferred Stock w/ Exercised Warrants        $13,900,000                                                                                                                            $2,024,342
             First NBC Bank Holding Company, New Orleans,
3/20/2009                                                             Preferred Stock w/ Exercised Warrants        $17,836,000    8/4/2011           $17,836,000             —    8/4/2011        R        $892,000                                       $2,305,990
             LA2,49
11/21/2008   First Niagara Financial Group, Lockport, NY              Preferred Stock w/ Warrants                 $184,011,000    5/27/2009         $184,011,000             —    6/24/2009       R       $2,700,000           $8.63                      $4,753,618
3/13/2009    First Northern Community Bancorp, Dixon, CA49,e          Preferred Stock w/ Warrants                  $17,390,000    9/15/2011          $17,390,000             —    11/16/2011      R        $375,000            $4.60                      $2,178,580
11/21/2008   First PacTrust Bancorp, Inc., Chula Vista, CA            Preferred Stock w/ Warrants                  $19,300,000    12/15/2010         $19,300,000             —    1/5/2011        R       $1,003,227         $10.25                       $1,994,333
3/13/2009    First Place Financial Corp., Warren, OH                  Preferred Stock w/ Warrants                  $72,927,000                                                                                                 $0.52    3,670,822         $7,009,095
2/20/2009    First Priority Financial Corp., Malvern, PA2,c           Preferred Stock w/ Exercised Warrants          $4,579,000
                                                                                                                                                                                                                                                          $1,121,359
12/18/2009   First Priority Financial Corp., Malvern, PA2,10a,c       Preferred Stock                                $4,596,000
                                                              2
3/6/2009     First Reliance Bancshares, Inc., Florence, SC            Preferred Stock w/ Exercised Warrants        $15,349,000                                                                                                 $2.00                      $2,042,406
1/30/2009    First Resource Bank, Exton, PA2,50,c                     Preferred Stock w/ Exercised Warrants          $2,600,000   9/15/2011            $2,600,000            —    9/15/2011       R        $130,000
                                                                                                                                                                                                                                                            $584,794
12/11/2009   First Resource Bank, Exton, PA2,10a,49,c                 Preferred Stock                                $2,417,000   9/15/2011            $2,417,000            —
1/9/2009     First Security Group, Inc., Chattanooga, TN              Preferred Stock w/ Warrants                  $33,000,000                                                                                                 $2.35      823,627         $1,402,500
12/23/2008   First Sound Bank, Seattle, WA                            Preferred Stock w/ Warrants                    $7,400,000                                                                                                $0.01      114,080           $330,944
                                                                      Subordinated Debentures w/
7/17/2009    First South Bancorp, Inc., Lexington, TN8                                                             $50,000,000    9/28/2011          $13,125,000    $36,875,000                                                                           $9,633,085
                                                                      Exercised Warrants
1/30/2009    First Southern Bancorp, Inc., Boca Raton, FL2            Preferred Stock w/ Exercised Warrants        $10,900,000    6/16/2010          $10,900,000             —    6/16/2010       R        $545,000                                         $818,468
3/6/2009     First Southwest Bancorporation, Inc., Alamosa, CO2       Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                             $207,327
2/27/2009    First State Bank of Mobeetie, Mobeetie, TX2              Preferred Stock w/ Exercised Warrants           $731,000    4/14/2010             $731,000             —    4/14/2010       R         $37,000                                          $45,087
3/6/2009     First Texas BHC, Inc., Fort Worth, TX2,49                Preferred Stock w/ Exercised Warrants        $13,533,000    9/15/2011          $13,533,000             —    9/15/2011       R        $677,000                                       $1,862,389
                                                                      Subordinated Debentures w/
6/5/2009     First Trust Corporation, New Orleans, LA8                                                             $17,969,000                                                                                                                            $1,046,896
                                                                      Exercised Warrants
                                             2
1/23/2009    First ULB Corp., Oakland, CA                             Preferred Stock w/ Exercised Warrants          $4,900,000   4/22/2009            $4,900,000            —    4/22/2009       R        $245,000                                          $66,021
1/30/2009    First United Corporation, Oakland, MD                    Preferred Stock w/ Warrants                  $30,000,000                                                                                                 $3.16      326,323         $2,312,500
6/12/2009    First Vernon Bancshares, Inc., Vernon, AL2,10,30         Preferred Stock w/ Exercised Warrants          $6,000,000   9/29/2010            $6,000,000            —    9/29/2010       R        $245,000                                         $417,770
2/6/2009     First Western Financial, Inc., Denver, CO2               Preferred Stock w/ Exercised Warrants          $8,559,000
                                                                                                                                                                                                                                                          $2,439,650
12/11/2009   First Western Financial, Inc., Denver, CO2,10a           Preferred Stock                              $11,881,000

                                                                                                                                                                                                                                               Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                    (CONTINUED)
                                                                                                                               Capital                           Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                       Repayment               Capital     Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                           Investment Description                  Investment Amount   Date         Repayment Amount6      Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

1/30/2009    Firstbank Corporation, Alma, MI                       Preferred Stock w/ Warrants                  $33,000,000                                                                                                $5.13      578,947         $4,606,250
1/9/2009     FirstMerit Corporation, Akron, OH                     Preferred Stock w/ Warrants                 $125,000,000    4/22/2009         $125,000,000            —    5/27/2009       R       $5,025,000         $15.13                       $1,788,194
1/30/2009    Flagstar Bancorp, Inc., Troy, MI                      Preferred Stock w/ Warrants                 $266,657,000                                                                                                $0.51    6,451,379        $37,220,872
7/24/2009    Florida Bank Group, Inc., Tampa, FL2                  Preferred Stock w/ Exercised Warrants        $20,471,000                                                                                                                           $1,180,793
2/20/2009    Florida Business BancGroup, Inc., Tampa, FL2,49       Preferred Stock w/ Exercised Warrants          $9,495,000   9/22/2011            $9,495,000           —    9/22/2011       R        $475,000                                       $1,339,751
12/19/2008   Flushing Financial Corporation, Lake Success, NY      Preferred Stock w/ Warrants                  $70,000,000    10/28/2009         $70,000,000            —    12/30/2009      R        $900,000          $12.63                       $3,004,167
2/27/2009    FNB Bancorp, South San Francisco, CA2,50,d            Preferred Stock w/ Exercised Warrants        $12,000,000    9/15/2011          $12,000,000            —    9/15/2011       R        $600,000          $12.10                       $1,667,700
2/13/2009    FNB United Corp., Asheboro, NC58                      Common Stock w/ Warrants                     $51,500,000                                                                                                                           $2,589,305
5/15/2009    Foresight Financial Group, Inc., Rockford, IL2        Preferred Stock w/ Exercised Warrants        $15,000,000                                                                                              $12.10                       $2,043,750
5/22/2009    Fort Lee Federal Savings Bank, Fort Lee, NJ2          Preferred Stock w/ Exercised Warrants          $1,300,000                                                                                                                             $87,185
4/3/2009     Fortune Financial Corporation, Arnold, MO2,50         Preferred Stock w/ Exercised Warrants          $3,100,000   9/15/2011            $3,100,000           —    9/15/2011       R        $155,000                                         $413,928
12/5/2008    FPB Bancorp, Inc., Port St. Lucie, FL55               Preferred Stock w/ Warrants                    $5,800,000                                                                                               $0.01      183,158           $273,889
                                                                                                                               12/16/2009           $1,000,000   $2,240,000
1/23/2009    FPB Financial Corp., Hammond, LA2                     Preferred Stock w/ Exercised Warrants          $3,240,000                                                  6/16/2010       R        $162,000                                         $221,722
                                                                                                                               6/16/2010            $2,240,000           —
                                                       2
5/22/2009    Franklin Bancorp, Inc., Washington, MO                Preferred Stock w/ Exercised Warrants          $5,097,000                                                                                                                            $689,098
                                                                   Subordinated Debentures w/
5/8/2009     Freeport Bancshares, Inc., Freeport, IL8                                                             $3,000,000                                                                                                                            $634,143
                                                                   Exercised Warrants
                                                                   Subordinated Debentures w/
6/26/2009    Fremont Bancorporation, Fremont, CA8                                                               $35,000,000                                                                                                                           $7,006,830
                                                                   Exercised Warrants
1/23/2009    Fresno First Bank, Fresno, CA2                        Preferred Stock w/ Exercised Warrants          $1,968,000                                                                                                                            $268,050

                                                                   Subordinated Debentures w/                                  11/24/2009           $1,600,000   $1,400,000
4/24/2009    Frontier Bancshares, Inc., Austin, TX8                                                               $3,000,000                                                  10/6/2010       R        $150,000                                         $258,192
                                                                   Exercised Warrants                                          10/6/2010            $1,400,000           —
12/23/2008   Fulton Financial Corporation, Lancaster, PA           Preferred Stock w/ Warrants                 $376,500,000    7/14/2010         $376,500,000            —    9/8/2010        R      $10,800,000           $9.81                     $29,335,625
5/8/2009     Gateway Bancshares, Inc., Ringgold, GA2               Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                                            $742,108
2/6/2009     Georgia Commerce Bancshares, Inc., Atlanta, GA2       Preferred Stock w/ Exercised Warrants          $8,700,000   2/16/2011            $8,700,000           —    2/16/2011       R        $435,000                                         $961,471
5/1/2009     Georgia Primary Bank, Atlanta, GA2                    Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                                                    —
             Germantown Capital Corporation, Inc.,
3/6/2009                                                           Preferred Stock w/ Exercised Warrants          $4,967,000                                                                                                                            $728,724
             Germantown, TN2
6/26/2009    Gold Canyon Bank, Gold Canyon, AZ2,10                 Preferred Stock w/ Exercised Warrants          $1,607,000                                                                                                                             $53,860
1/30/2009    Goldwater Bank, N.A., Scottsdale, AZ2                 Preferred Stock w/ Exercised Warrants          $2,568,000                                                                                                                            $145,750
4/24/2009    Grand Capital Corporation, Tulsa, OK2,49              Preferred Stock w/ Exercised Warrants          $4,000,000   9/8/2011             $4,000,000           —    9/8/2011        R        $200,000                                         $517,145

                                                              8    Subordinated Debentures w/
9/25/2009    Grand Financial Corporation, Hattiesburg, MS                                                         $2,443,320                                                                                                                            $438,411
                                                                   Exercised Warrants
5/29/2009    Grand Mountain Bancshares, Inc., Granby, CO2          Preferred Stock w/ Exercised Warrants          $3,076,000                                                                                                                                    —
1/9/2009     GrandSouth Bancorporation, Greenville, SC2,50,c       Preferred Stock w/ Exercised Warrants          $9,000,000   9/8/2011             $9,000,000           —    9/8/2011        R        $450,000
                                                                                                                                                                                                                           $2.35                      $1,856,917
12/11/2009   GrandSouth Bancorporation, Greenville, SC2,10a,49,c   Preferred Stock                                $6,319,000   9/8/2011             $6,319,000           —
                                                                   Subordinated Debentures w/
7/17/2009    Great River Holding Company, Baxter, MN8                                                             $8,400,000                                                                                                                            $759,575
                                                                   Exercised Warrants
12/5/2008    Great Southern Bancorp, Springfield, MO50             Preferred Stock w/ Warrants                  $58,000,000    8/18/2011          $58,000,000            —    9/21/2011       R       $6,436,364         $23.59                       $7,838,056
12/23/2008   Green Bankshares, Inc., Greeneville, TN59             Preferred Stock w/ Warrants                  $72,278,000    9/7/2011           $68,700,000            —                                                                            $5,942,858
2/27/2009    Green Circle Investments, Inc., Clive, IA2            Preferred Stock w/ Exercised Warrants          $2,400,000                                                                                                                            $355,340
2/27/2009    Green City Bancshares, Inc., Green City, MO2          Preferred Stock w/ Exercised Warrants           $651,000    7/14/2010             $651,000            —    7/14/2010       R         $33,000                                          $49,037
1/30/2009    Greer Bancshares Incorporated, Greer, SC2             Preferred Stock w/ Exercised Warrants          $9,993,000                                                                                               $1.40                        $975,831
2/13/2009    Gregg Bancshares, Inc., Ozark, MO2                    Preferred Stock w/ Exercised Warrants           $825,000                                                                                                                              $45,190
2/20/2009    Guaranty Bancorp, Inc., Woodsville, NH2,50            Preferred Stock w/ Exercised Warrants          $6,920,000   9/15/2011            $6,920,000           —    9/15/2011       R        $346,000                                         $969,040
9/25/2009    Guaranty Capital Corporation, Belzoni, MS3,8,30       Subordinated Debentures                      $14,000,000    7/30/2010          $14,000,000            —                                                                              $913,299
1/30/2009    Guaranty Federal Bancshares, Inc., Springfield, MO    Preferred Stock w/ Warrants                  $17,000,000                                                                                                $5.70      459,459         $2,372,917
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




9/25/2009    GulfSouth Private Bank, Destin, FL10,21               Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                            $757,380
6/26/2009    Gulfstream Bancshares, Inc., Stuart, FL2,50           Preferred Stock w/ Exercised Warrants          $7,500,000   8/18/2011            $7,500,000           —    8/18/2011       R        $375,000                                         $876,542
2/20/2009    Hamilton State Bancshares, Hoschton, GA2              Preferred Stock w/ Exercised Warrants          $7,000,000   4/13/2011            $7,000,000           —    4/13/2011       R        $350,000                                         $819,166

                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                     217
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (CONTINUED)                                                                                                                                                                218
                                                                                                                                 Capital                            Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

12/31/2008   Hampton Roads Bankshares, Inc., Norfolk, VA31           Common Stock w/ Warrants                     $80,347,000                                                                                                  $2.74       53,034         $2,510,844
7/17/2009    Harbor Bankshares Corporation, Baltimore, MD2,3         Preferred Stock                                $6,800,000                                                                                                                              $282,744
6/26/2009    Hartford Financial Services Group, Inc., Hartford, CT   Preferred Stock w/ Warrants                $3,400,000,000   3/31/2010        $3,400,000,000            —    9/21/2010       A      $713,687,430         $16.25                    $129,861,111
3/13/2009    Haviland Bancshares, Inc., Haviland, KS2                Preferred Stock w/ Exercised Warrants           $425,000    12/29/2010            $425,000             —    12/29/2010      R          $21,000                                          $41,524
12/19/2008   Hawthorne Bancshares, Inc., Lee’s Summit, MO            Preferred Stock w/ Warrants                  $30,255,000                                                                                                  $6.05      276,090         $4,395,380
3/6/2009     HCSB Financial Corporation, Loris, SC                   Preferred Stock w/ Warrants                  $12,895,000                                                                                                  $0.51       91,714         $1,090,702
9/11/2009    Heartland Bancshares, Inc., Franklin, IN2,10            Preferred Stock w/ Exercised Warrants          $7,000,000                                                                                                 $3.85                        $823,189
12/19/2008   Heartland Financial USA, Inc., Dubuque, IA50            Preferred Stock w/ Warrants                  $81,698,000    9/15/2011          $81,698,000             —    9/28/2011       R        $1,800,000         $15.34                      $11,188,087
                                                                                                                                 3/16/2011            $2,606,000    $7,497,000
9/25/2009    Heritage Bankshares, Inc., Norfolk, VA2,10,50           Preferred Stock w/ Exercised Warrants        $10,103,000                                                    8/11/2011       R         $303,000          $11.11                         $947,284
                                                                                                                                 8/11/2011            $7,497,000            —
11/21/2008   Heritage Commerce Corp., San Jose, CA                   Preferred Stock w/ Warrants                  $40,000,000                                                                                                  $4.74      462,963         $6,139,045
11/21/2008   Heritage Financial Corporation, Olympia, WA             Preferred Stock w/ Warrants                  $24,000,000    12/22/2010         $24,000,000             —    8/17/2011       R         $450,000          $12.56                       $2,503,333
3/20/2009    Heritage Oaks Bancorp, Paso Robles, CA                  Preferred Stock w/ Warrants                  $21,000,000                                                                                                  $3.54      611,650           $947,916
11/21/2008   HF Financial Corp., Sioux Falls, SD                     Preferred Stock w/ Warrants                  $25,000,000    6/3/2009           $25,000,000             —    6/30/2009       R         $650,000          $17.15                         $666,667
             Highlands Bancorp, Inc. (Highlands State Bank),
5/8/2009                                                             Preferred Stock w/ Exercised Warrants          $3,091,000   9/22/2011            $3,091,000            —    9/22/2011       R         $155,000
             Vernon, NJ2,13,49,c
                                                                                                                                                                                                                               $3.11                        $547,251
             Highlands Bancorp, Inc.(Highlands State Bank),
12/22/2009                                                           Preferred Stock                                $2,359,000   9/22/2011            $2,359,000            —
                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




             Vernon, NJ2,10a,13,49,c
             Highlands Independent Bancshares, Inc.,
3/6/2009                                                             Preferred Stock w/ Exercised Warrants          $6,700,000
             Sebring, FL2
                                                                                                                                                                                                                               $4.30                        $617,712
             Highlands Independent Bancshares, Inc.,
1/30/2009                                                            Preferred Stock w/ Exercised Warrants          $4,000,000   4/21/2010            $4,000,000            —    4/21/2010       R         $200,000
             Sebring, FL2
12/23/2008   HMN Financial, Inc., Rochester, MN                      Preferred Stock w/ Warrants                  $26,000,000                                                                                                  $1.94      833,333         $2,462,778
1/16/2009    Home Bancshares, Inc., Conway, AR                       Preferred Stock w/ Warrants                  $50,000,000    7/6/2011           $50,000,000             —    7/27/2011       R        $1,300,000         $25.91                       $6,180,556
2/20/2009    Hometown Bancorp of Alabama, Inc., Oneonta, AL2         Preferred Stock w/ Exercised Warrants          $3,250,000                                                                                                                              $484,757
2/13/2009    Hometown Bancshares, Inc., Corbin, KY2                  Preferred Stock w/ Exercised Warrants          $1,900,000                                                                                                                              $285,338
9/18/2009    HomeTown Bankshares Corporation, Roanoke, VA2,10        Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                  $4.20                        $351,326
12/12/2008   HopFed Bancorp, Hopkinsville, KYh                       Preferred Stock w/ Warrants                  $18,400,000                                                                                                  $6.45      253,666         $2,691,000
                                                                                                                                 11/10/2010           $6,250,000   $18,750,000
12/19/2008   Horizon Bancorp, Michigan City, IN50,I,n                Preferred Stock w/ Warrants                  $25,000,000                                                    11/18/2011      P        $1,750,551         $17.33                       $3,106,771
                                                                                                                                 8/25/2011          $18,750,000             —
2/27/2009    Howard Bancorp, Inc., Ellicott City, MD2,49             Preferred Stock w/ Exercised Warrants          $5,983,000   9/22/2011            $5,983,000            —    9/22/2011       R         $299,000            $4.60                        $837,793
11/13/2009   HPK Financial Corporation, Chicago, IL2,10a,c           Preferred Stock w/ Exercised Warrants          $5,000,000
                                                                                                                                                                                                                                                          $1,080,859
5/1/2009     HPK Financial Corporation, Chicago, IL2,c               Preferred Stock w/ Exercised Warrants          $4,000,000
11/14/2008   Huntington Bancshares, Columbus, OH                     Preferred Stock w/ Warrants                $1,398,071,000   12/22/2010       $1,398,071,000            —    1/19/2011       R       $49,100,000           $5.49                   $147,185,809
2/6/2009     Hyperion Bank, Philadelphia, PA2                        Preferred Stock w/ Exercised Warrants          $1,552,000                                                                                                                              $234,821
9/18/2009    IA Bancorp, Inc., Iselin, NJ2,10                        Preferred Stock w/ Exercised Warrants          $5,976,000                                                                                                                              $680,045
5/15/2009    IBC Bancorp, Inc., Chicago, IL3,8,30                    Subordinated Debentures                        $4,205,000   9/10/2010            $4,205,000            —                                                                               $427,216
12/5/2008    Iberiabank Corporation, Lafayette, LA                   Preferred Stock w/ Warrants                  $90,000,000    3/31/2009          $90,000,000             —    5/20/2009       R        $1,200,000         $49.30                       $1,450,000
3/27/2009    IBT Bancorp, Inc., Irving, TX2                          Preferred Stock w/ Exercised Warrants          $2,295,000                                                                                                                              $329,430
3/13/2009    IBW Financial Corporation, Washington, DC2,3a           Preferred Stock                                $6,000,000   9/3/2010             $6,000,000            —                                                  $7.20                        $453,067
3/6/2009     ICB Financial, Ontario, CA2                             Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                                 $3.25                        $880,175
1/16/2009    Idaho Bancorp, Boise, ID2                               Preferred Stock w/ Exercised Warrants          $6,900,000                                                                                                 $0.02                        $124,306
5/22/2009    Illinois State Bancorp, Inc., Chicago, IL2,49,c         Preferred Stock w/ Exercised Warrants          $6,272,000   9/22/2011            $6,272,000            —    9/22/2011       R         $314,000
                                                                                                                                                                                                                                                          $1,158,113
12/29/2009   Illinois State Bancorp, Inc., Chicago, IL2,10a,49,c     Preferred Stock w/ Exercised Warrants          $4,000,000   9/22/2011            $4,000,000            —    9/22/2011       R          $92,000
                                                         2
1/9/2009     Independence Bank, East Greenwich, RI                   Preferred Stock w/ Exercised Warrants          $1,065,000                                                                                                                              $165,357
1/9/2009     Independent Bank Corp., Rockland, MA                    Preferred Stock w/ Warrants                  $78,158,000    4/22/2009          $78,158,000             —    5/27/2009       R        $2,200,000         $27.29                       $1,118,094
                                                                     Mandatorily Convertible Preferred
12/12/2008   Independent Bank Corporation, Ionia, MI22                                                            $74,426,000                                                                                                  $1.33      346,154         $2,430,000
                                                                     Stock w/ Warrants
                                              2
4/24/2009    Indiana Bank Corp., Dana, IN                            Preferred Stock w/ Exercised Warrants          $1,312,000                                                                                                                              $165,139
12/12/2008   Indiana Community Bancorp, Columbus, IN                 Preferred Stock w/ Warrants                  $21,500,000                                                                                                $14.63       188,707         $3,144,375
2/27/2009    Integra Bank Corporation, Evansville, IN14,57           Preferred Stock w/ Warrants                  $83,586,000                                                                                                  $0.01    7,418,876         $1,950,340

                                                                                                                                                                                                                                               Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                        (CONTINUED)
                                                                                                                                   Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                           Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                               Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

12/19/2008   Intermountain Community Bancorp, Sandpoint, ID            Preferred Stock w/ Warrants                  $27,000,000                                                                                                   $0.95      653,226         $1,222,500
12/23/2008   International Bancshares Corporation, Laredo, TX          Preferred Stock w/ Warrants                 $216,000,000                                                                                                 $18.34     1,326,238        $31,260,000
12/23/2008   Intervest Bancshares Corporation, New York, NY            Preferred Stock w/ Warrants                  $25,000,000                                                                                                   $2.65      691,882         $1,118,056
             Investors Financial Corporation of Pettis County, Inc.,   Subordinated Debentures w/
5/8/2009                                                                                                              $4,000,000                                                                                                                               $174,325
             Sedalia, MO8                                              Exercised Warrants
10/28/2008   JPMorgan Chase & Co., New York, NY                        Preferred Stock w/ Warrants              $25,000,000,000    6/17/2009      $25,000,000,000              —    12/10/2009      A      $950,318,243         $33.25                    $795,138,889
1/30/2009    Katahdin Bankshares Corp., Houlton, ME2,49                Preferred Stock w/ Exercised Warrants        $10,449,000    8/18/2011          $10,449,000              —    8/18/2011       R         $522,000          $11.75                       $1,452,047
11/14/2008   KeyCorp, Cleveland, OH                                    Preferred Stock w/ Warrants                $2,500,000,000   3/30/2011        $2,500,000,000             —    4/20/2011       R       $70,000,000           $7.69                   $297,222,222
3/20/2009    Kirksville Bancorp, Inc., Kirksville, MO2                 Preferred Stock w/ Exercised Warrants           $470,000                                                                                                                                 $68,070
8/21/2009    KS Bancorp, Inc., Smithfield, NC2                         Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                  $4.35                        $486,867
2/20/2009    Lafayette Bancorp, Inc., Oxford, MS2,30,c                 Preferred Stock w/ Exercised Warrants          $1,998,000   9/29/2010            $1,998,000             —    9/29/2010       R         $100,000
                                                                                                                                                                                                                                                               $267,134
12/29/2009   Lafayette Bancorp, Inc., Oxford, MS2,10a,30,c             Preferred Stock                                $2,453,000   9/29/2010            $2,453,000             —
                                                                                                                                   8/4/2010           $20,000,000     $39,000,000
2/6/2009     Lakeland Bancorp, Inc., Oak Ridge, NJh,m                  Preferred Stock w/ Warrants                  $59,000,000                                                                                                   $8.62      997,049         $6,241,806
                                                                                                                                   3/16/2011          $20,000,000     $19,000,000
2/27/2009    Lakeland Financial Corporation, Warsaw, IN                Preferred Stock w/ Warrants                  $56,044,000    6/9/2010           $56,044,000              —    11/18/2011      P         $877,557          $25.87                       $3,596,156
12/18/2009   Layton Park Financial Group, Milwaukee, WI2               Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $312,013
1/9/2009     LCNB Corp., Lebanon, OHl                                  Preferred Stock w/ Warrants                  $13,400,000    10/21/2009         $13,400,000              —    11/18/2011      P         $602,557          $12.95                         $524,833
12/23/2008   Leader Bancorp, Inc., Arlington, MA2                      Preferred Stock w/ Exercised Warrants          $5,830,000   11/24/2010           $5,830,000             —    11/24/2010      R         $292,000                                         $609,961
1/30/2009    Legacy Bancorp, Inc., Milwaukee, WI3,53                   Preferred Stock                                $5,498,000                                                                                                                               $355,079
1/23/2009    Liberty Bancshares, Inc., Jonesboro, AR2,50               Preferred Stock w/ Exercised Warrants        $57,500,000    7/21/2011          $57,500,000              —    7/21/2011       R        $2,875,000                                      $7,816,966
2/13/2009    Liberty Bancshares, Inc., Springfield, MO2,50             Preferred Stock w/ Exercised Warrants        $21,900,000    8/18/2011          $21,900,000              —    8/18/2011       R        $1,095,000                                      $3,000,452
12/4/2009    Liberty Bancshares, Inc., Fort Worth, TX2,10              Preferred Stock w/ Exercised Warrants          $6,500,000                                                                                                                               $667,196
2/6/2009     Liberty Financial Services, Inc., New Orleans, LA3,30     Preferred Stock                                $5,645,000   9/24/2010            $5,645,000             —                                                                               $461,009
2/20/2009    Liberty Shares, Inc., Hinesville, GA2                     Preferred Stock w/ Exercised Warrants        $17,280,000                                                                                                                              $1,399,560
7/10/2009    Lincoln National Corporation, Radnor, PA                  Preferred Stock w/ Warrants                 $950,000,000    6/30/2010         $950,000,000              —    9/16/2010       A      $216,620,887         $19.42                      $46,180,555
12/12/2008   LNB Bancorp Inc., Lorain, OH                              Preferred Stock w/ Warrants                  $25,223,000                                                                                                   $4.70      561,343         $3,688,864
2/6/2009     Lone Star Bank, Houston, TX2                              Preferred Stock w/ Exercised Warrants          $3,072,000                                                                                                                                       —
12/12/2008   LSB Corporation, North Andover, MA                        Preferred Stock w/ Warrants                  $15,000,000    11/18/2009         $15,000,000              —    12/16/2009      R         $560,000                                         $700,000
6/26/2009    M&F Bancorp, Inc., Durham, NC2,3,10,30                    Preferred Stock                              $11,735,000    8/20/2010          $11,735,000              —                                                                               $674,763
12/23/2008   M&T Bank Corporation, Buffalo, NY                         Preferred Stock w/ Warrants                 $600,000,000    5/18/2011         $370,000,000    $230,000,000                                               $76.34     1,218,522        $90,993,750
             M&T Bank Corporation (Provident Bancshares
11/14/2008                                                             Preferred Stock w/ Warrants                 $151,500,000                                                                                                              407,542         $9,489,792
             Corp.), Baltimore, MD
             M&T Bank Corporation (Wilmington Trust
12/12/2008                                                             Preferred Stock w/ Warrants                 $330,000,000    5/13/2011         $330,000,000              —                                                              95,383        $39,920,833
             Corporation), Wilmington, DE43
4/24/2009    Mackinac Financial Corporation, Manistique, MI            Preferred Stock w/ Warrants                  $11,000,000                                                                                                   $5.42      379,310         $1,407,083
3/13/2009    Madison Financial Corporation, Richmond, KY2              Preferred Stock w/ Exercised Warrants          $3,370,000                                                                                                                               $169,422
                                                                                                                                   11/24/2009           $3,455,000    $10,340,000
12/23/2008   Magna Bank, Memphis, TN2,49                               Preferred Stock w/ Exercised Warrants        $13,795,000    6/8/2011             $3,455,000     $6,885,000   8/18/2011       R         $690,000                                       $1,661,468
                                                                                                                                   8/18/2011            $6,885,000             —
12/29/2009   Mainline Bancorp, Inc., Ebensburg, PA2                    Preferred Stock w/ Exercised Warrants          $4,500,000                                                                                                $55.00                         $460,525
1/16/2009    MainSource Financial Group, Inc., Greensburg, IN          Preferred Stock w/ Warrants                  $57,000,000                                                                                                   $8.83      571,906         $8,067,083
12/5/2008    Manhattan Bancorp, El Segundo, CA                         Preferred Stock w/ Warrants                    $1,700,000   9/16/2009            $1,700,000             —    10/14/2009      R          $63,364            $2.90                         $66,347
                                                                       Subordinated Debentures w/
6/19/2009    Manhattan Bancshares, Inc., Manhattan, IL8                                                               $2,639,000                                                                                                                               $532,636
                                                                       Exercised Warrants
3/6/2009     Marine Bank & Trust Company, Vero Beach, FL2              Preferred Stock w/ Exercised Warrants          $3,000,000                                                                                                                               $235,713
2/20/2009    Market Bancorporation, Inc., New Market, MN2              Preferred Stock w/ Exercised Warrants          $2,060,000                                                                                                                               $138,778
                                                                       Subordinated Debentures w/
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




5/15/2009    Market Street Bancshares, Inc., Mt. Vernon, IL8                                                        $20,300,000                                                                                                                              $4,257,925
                                                                       Exercised Warrants
12/19/2008   Marquette National Corporation, Chicago, IL2              Preferred Stock w/ Exercised Warrants        $35,500,000                                                                                                $110.00                       $5,621,524
11/14/2008   Marshall & Ilsley Corporation, Milwaukee, WI44            Preferred Stock w/ Warrants                $1,715,000,000   7/5/2011         $1,715,000,000             —    7/5/2011        R        $3,250,000                                   $226,522,917

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            219
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                       (CONTINUED)                                                                                                                                                              220
                                                                                                                                  Capital                           Remaining   Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                          Repayment               Capital     Capital   Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                              Investment Description                  Investment Amount   Date         Repayment Amount6      Amount    Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

3/27/2009    Maryland Financial Bank, Towson, MD2                     Preferred Stock w/ Exercised Warrants          $1,700,000                                                                                                                            $151,328
12/5/2008    MB Financial Inc., Chicago, IL                           Preferred Stock w/ Warrants                 $196,000,000                                                                                              $17.10       506,024        $28,855,556
11/20/2009   McLeod Bancshares, Inc., Shorewood, MN2,50               Preferred Stock w/ Exercised Warrants          $6,000,000   8/18/2011            $6,000,000          —    8/18/2011       R         $300,000                                         $570,433
2/27/2009    Medallion Bank, Salt Lake City, UT2,49,c                 Preferred Stock w/ Exercised Warrants        $11,800,000    7/21/2011          $11,800,000           —    7/21/2011       R         $590,000
                                                                                                                                                                                                                                                         $2,317,675
12/22/2009   Medallion Bank, Salt Lake City, UT2,10a,49,c             Preferred Stock w/ Exercised Warrants          $9,698,000   7/21/2011            $9,698,000          —    7/21/2011       R          $55,000
5/15/2009    Mercantile Bank Corporation, Grand Rapids, MI            Preferred Stock w/ Warrants                  $21,000,000                                                                                                $9.75      616,438         $2,670,187
2/6/2009     Mercantile Capital Corp., Boston, MA2,49                 Preferred Stock w/ Exercised Warrants          $3,500,000   8/4/2011             $3,500,000          —    8/4/2011        R         $175,000                                         $475,815
             Merchants and Manufacturers Bank Corporation,
6/19/2009                                                             Preferred Stock w/ Exercised Warrants          $3,510,000   9/8/2011             $3,510,000          —    9/8/2011        R         $176,000                                         $424,668
             Joliet, IL2,49
             Merchants and Planters Bancshares, Inc.,
3/6/2009                                                              Preferred Stock w/ Exercised Warrants          $1,881,000   9/7/2011             $1,881,000          —    9/7/2011        R          $94,000                                         $256,560
             Toone, TN2,62
2/13/2009    Meridian Bank, Devon, PA2                                Preferred Stock w/ Exercised Warrants          $6,200,000
                                                                                                                                                                                                                                                         $1,541,726
12/11/2009   Meridian Bank, Devon, PA2,10a                            Preferred Stock                                $6,335,000
1/30/2009    Metro City Bank, Doraville, GA2                          Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                                          $1,171,523
1/16/2009    MetroCorp Bancshares, Inc., Houston, TX                  Preferred Stock w/ Warrants                  $45,000,000                                                                                                $6.35      771,429         $6,403,750
6/26/2009    Metropolitan Bank Group, Inc., Chicago, IL2,41           Preferred Stock w/ Exercised Warrants        $74,706,000                                                                                                                           $3,454,185
             Metropolitan Bank Group, Inc.
6/26/2009                                                             Preferred Stock w/ Exercised Warrants          $7,186,000                                                                                                                            $332,256
             (NC Bancorp, Inc.), Chicago, IL2,41
                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




4/10/2009    Metropolitan Capital Bancorp, Inc., Chicago, IL2         Preferred Stock w/ Exercised Warrants          $2,040,000
                                                                                                                                                                                                                                                           $521,929
11/20/2009   Metropolitan Capital Bancorp, Inc., Chicago, IL2,10a     Preferred Stock                                $2,348,000
12/19/2008   Mid Penn Bancorp, Inc., Millersburg, PA                  Preferred Stock w/ Warrants                  $10,000,000                                                                                                $7.54       73,099         $1,452,778
1/30/2009    Middleburg Financial Corporation, Middleburg, VAm        Preferred Stock w/ Warrants                  $22,000,000    12/23/2009         $22,000,000           —    11/18/2011      P         $301,001                                         $986,944
1/23/2009    Midland States Bancorp, Inc., Effingham, IL2             Preferred Stock w/ Exercised Warrants        $10,189,000    12/23/2009         $10,189,000           —    12/23/2009      R         $509,000                                         $508,989
1/9/2009     MidSouth Bancorp, Inc., Lafayette, LA49,m                Preferred Stock w/ Warrants                  $20,000,000    8/25/2011          $20,000,000           —    11/18/2011      P         $206,557                                       $2,627,778
2/27/2009    Midtown Bank & Trust Company, Atlanta, GA2               Preferred Stock w/ Exercised Warrants          $5,222,000                                                                                                                            $275,105

                                                              14,20   Mandatorily Convertible Preferred
12/5/2008    Midwest Banc Holdings, Inc., Melrose Park, IL                                                         $89,388,000                                                                                                         4,282,020           $824,289
                                                                      Stock w/ Warrants
2/13/2009    Midwest Regional Bancorp, Inc., Festus, MO2              Preferred Stock w/ Exercised Warrants           $700,000    11/10/2009            $700,000           —    11/10/2009      R          $35,000                                          $28,294
2/6/2009     MidWestOne Financial Group, Inc., Iowa City, IA          Preferred Stock w/ Warrants                  $16,000,000    7/6/2011           $16,000,000           —    7/27/2011       R        $1,000,000         $14.62                       $1,933,333
2/20/2009    Mid-Wisconsin Financial Services, Inc., Medford, WI2     Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                $4.75                      $1,082,431
4/3/2009     Millennium Bancorp, Inc., Edwards, CO2                   Preferred Stock w/ Exercised Warrants          $7,260,000                                                                                                                            $343,053
1/9/2009     Mission Community Bancorp, San Luis Obispo, CA3          Preferred Stock                                $5,116,000   12/28/2011           $5,116,000          —                                                  $3.35                        $759,584
12/23/2008   Mission Valley Bancorp, Sun Valley, CA3,30               Preferred Stock                                $5,500,000   8/20/2010            $5,500,000          —                                                                               $456,042
12/19/2008   Monadnock Bancorp, Inc., Peterborough, NH2               Preferred Stock w/ Exercised Warrants          $1,834,000                                                                                               $2.35                        $190,517
2/6/2009     Monarch Community Bancorp, Inc., Coldwater, MI           Preferred Stock w/ Warrants                    $6,785,000                                                                                               $1.09      260,962           $262,919
12/19/2008   Monarch Financial Holdings, Inc., Chesapeake, VA         Preferred Stock w/ Warrants                  $14,700,000    12/23/2009         $14,700,000           —    2/10/2010       R         $260,000            $7.69                        $743,167
3/13/2009    Moneytree Corporation, Lenoir City, TN2,50               Preferred Stock w/ Exercised Warrants          $9,516,000   9/15/2011            $9,516,000          —    9/15/2011       R         $476,000                                       $1,299,481
1/30/2009    Monument Bank, Bethesda, MD2,49                          Preferred Stock w/ Exercised Warrants          $4,734,000   8/11/2011            $4,734,000          —    8/11/2011       R         $237,000                                         $652,959
10/28/2008   Morgan Stanley, New York, NY                             Preferred Stock w/ Warrants              $10,000,000,000    6/17/2009      $10,000,000,000           —    8/12/2009       R      $950,000,000         $15.13                    $318,055,555
1/16/2009    Morrill Bancshares, Inc., Merriam, KS2                   Preferred Stock w/ Exercised Warrants        $13,000,000    7/20/2011          $13,000,000           —    7/20/2011       R         $650,000                                       $1,779,122
1/23/2009    Moscow Bancshares, Inc., Moscow, TN2                     Preferred Stock w/ Exercised Warrants          $6,216,000                                                                                                                            $952,377
9/25/2009    Mountain Valley Bancshares, Inc., Cleveland, GA2         Preferred Stock w/ Exercised Warrants          $3,300,000                                                                                                                            $384,679
3/27/2009    MS Financial, Inc., Kingwood, TX2,d                      Preferred Stock w/ Exercised Warrants          $7,723,000   10/19/2011           $7,723,000          —    10/19/2011      R         $386,000                                       $1,097,290
12/23/2008   MutualFirst Financial, Inc., Muncie, IN50                Preferred Stock w/ Warrants                  $32,382,000    8/25/2011          $32,382,000           —    9/28/2011       R         $900,194            $7.07                      $4,326,595
3/27/2009    Naples Bancorp, Inc., Naples, FL2                        Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                            $356,067
2/27/2009    National Bancshares, Inc., Bettendorf, IA2               Preferred Stock w/ Exercised Warrants        $24,664,000                                                                                                                           $2,307,492
12/12/2008   National Penn Bancshares, Inc., Boyertown, PA            Preferred Stock w/ Warrants                 $150,000,000    3/16/2011         $150,000,000           —    4/13/2011       R        $1,000,000                                     $16,958,333
                                                                      Subordinated Debentures w/
12/11/2009   Nationwide Bankshares, Inc., West Point, NE8                                                            $2,000,000   12/29/2010           $2,000,000          —    12/29/2010      R         $100,000            $8.44                        $176,190
                                                                      Exercised Warrants
12/19/2008   NCAL Bancorp, Los Angeles, CA2                           Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                $4.35                      $1,311,028

                                                                                                                                                                                                                                              Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                     (CONTINUED)
                                                                                                                                Capital                           Remaining   Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                        Repayment               Capital     Capital   Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                  Investment Amount   Date         Repayment Amount6      Amount    Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

                                                                    Subordinated Debentures w/
6/19/2009    NEMO Bancshares Inc., Madison, MO8                                                                    $2,330,000                                                                                                                           $470,421
                                                                    Exercised Warrants
             New Hampshire Thrift Bancshares, Inc.,
1/16/2009                                                           Preferred Stock w/ Warrants                  $10,000,000    8/25/2011          $10,000,000           —                                               $11.30       184,275         $1,304,167
             Newport, NH49
             New York Private Bank & Trust Corporation,
1/9/2009                                                            Preferred Stock w/ Exercised Warrants       $267,274,000                                                                                                                         $41,514,411
             New York, NY2
12/12/2008   NewBridge Bancorp, Greensboro, NC                      Preferred Stock w/ Warrants                  $52,372,000                                                                                               $3.87    2,567,255         $7,659,405
12/23/2008   Nicolet Bankshares, Inc., Green Bay, WI2,49            Preferred Stock w/ Exercised Warrants        $14,964,000    9/1/2011           $14,964,000           —    9/1/2011        R        $748,000                                       $2,192,843
1/9/2009     North Central Bancshares, Inc., Fort Dodge, IA         Preferred Stock w/ Warrants                  $10,200,000    12/14/2011         $10,200,000           —                                               $17.96        99,157         $1,494,583
12/12/2008   Northeast Bancorp, Lewiston, ME                        Preferred Stock w/ Warrants                    $4,227,000                                                                                            $12.60        67,958           $618,199
5/15/2009    Northern State Bank, Closter, NJ2                      Preferred Stock w/ Exercised Warrants          $1,341,000
                                                                                                                                                                                                                                                        $300,063
12/18/2009   Northern State Bank, Closter, NJ2,10a                  Preferred Stock                                $1,230,000
2/20/2009    Northern States Financial Corporation, Waukegan, IL    Preferred Stock w/ Warrants                  $17,211,000                                                                                               $0.90      584,084           $418,323
11/14/2008   Northern Trust Corporation, Chicago, IL                Preferred Stock w/ Warrants                $1,576,000,000   6/17/2009        $1,576,000,000          —    8/26/2009       R      $87,000,000         $39.66                      $46,623,333
1/30/2009    Northway Financial, Inc., Berlin, NH2,49               Preferred Stock w/ Exercised Warrants        $10,000,000    9/15/2011          $10,000,000           —    9/15/2011       R        $500,000            $8.92                      $1,430,625
2/13/2009    Northwest Bancorporation, Inc., Spokane, WA2           Preferred Stock w/ Exercised Warrants        $10,500,000                                                                                                                            $575,430
2/13/2009    Northwest Commercial Bank, Lakewood, WA2               Preferred Stock w/ Exercised Warrants          $1,992,000                                                                                                                           $272,103
1/30/2009    Oak Ridge Financial Services, Inc., Oak Ridge, NC      Preferred Stock w/ Warrants                    $7,700,000                                                                                              $2.47      163,830         $1,074,792
12/5/2008    Oak Valley Bancorp, Oakdale, CA50                      Preferred Stock w/ Warrants                  $13,500,000    8/11/2011          $13,500,000           —    9/28/2011       R        $560,000            $6.75                      $1,811,250
1/16/2009    OceanFirst Financial Corp., Toms River, NJ             Preferred Stock w/ Warrants                  $38,263,000    12/30/2009         $38,263,000           —    2/3/2010        R        $430,797                                       $1,828,122
1/30/2009    Ojai Community Bank, Ojai, CA2                         Preferred Stock w/ Exercised Warrants          $2,080,000                                                                                              $3.40                        $259,783
12/5/2008    Old Line Bancshares, Inc., Bowie, MD                   Preferred Stock w/ Warrants                    $7,000,000   7/15/2009            $7,000,000          —    9/2/2009        R        $225,000            $8.10                        $213,889
12/12/2008   Old National Bancorp, Evansville, IN                   Preferred Stock w/ Warrants                 $100,000,000    3/31/2009         $100,000,000           —    5/8/2009        R       $1,200,000         $11.65                       $1,513,889
1/16/2009    Old Second Bancorp, Inc., Aurora, IL                   Preferred Stock w/ Warrants                  $73,000,000                                                                                               $1.30      815,339         $5,769,028
4/17/2009    Omega Capital Corp., Lakewood, CO2                     Preferred Stock w/ Exercised Warrants          $2,816,000                                                                                                                            $50,311
5/8/2009     One Georgia Bank, Atlanta, GA2,56                      Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                                                   —
                                                                    Subordinated Debentures w/
6/5/2009     OneFinancial Corporation, Little Rock, AR8,10                                                       $17,300,000                                                                                                                          $3,431,991
                                                                    Exercised Warrants
12/19/2008   OneUnited Bank, Boston, MA2,3                          Preferred Stock                              $12,063,000                                                                                                                             $93,823
4/24/2009    Oregon Bancorp, Inc., Salem, OR2                       Preferred Stock w/ Exercised Warrants          $3,216,000                                                                                              $6.30                        $448,450
                                                                    Subordinated Debentures w/
5/1/2009     OSB Financial Services, Inc., Orange, TX8,d                                                           $6,100,000   10/5/2011            $6,100,000          —    10/5/2011       R        $305,000                                       $1,257,315
                                                                    Exercised Warrants
11/21/2008   Pacific Capital Bancorp, Santa Barbara, CA29           Common Stock w/ Warrants                    $195,045,000                                                                                             $28.24        15,120         $2,107,397
12/19/2008   Pacific City Financial Corporation, Los Angeles, CA2   Preferred Stock w/ Exercised Warrants        $16,200,000                                                                                                                            $358,065
             Pacific Coast Bankers’ Bancshares,
12/23/2008                                                          Preferred Stock w/ Exercised Warrants        $11,600,000    7/28/2011          $11,600,000           —    7/28/2011       R        $580,000                                       $1,641,964
             San Francisco, CA2,50
1/16/2009    Pacific Coast National Bancorp, San Clemente, CA2,19   Preferred Stock w/ Exercised Warrants          $4,120,000   2/11/2010                                —                                                 $0.01                         $18,088
12/23/2008   Pacific Commerce Bank, Los Angeles, CA2                Preferred Stock w/ Exercised Warrants          $4,060,000                                                                                              $2.90                        $387,223
12/12/2008   Pacific International Bancorp, Seattle, WA             Preferred Stock w/ Warrants                    $6,500,000                                                                                              $3.00                        $463,125
3/6/2009     Park Bancorporation, Inc., Madison, WI2                Preferred Stock w/ Exercised Warrants        $23,200,000                                                                                                                          $3,403,343
12/23/2008   Park National Corporation, Newark, OH                  Preferred Stock w/ Warrants                 $100,000,000                                                                                             $65.06       227,376        $14,472,222
1/30/2009    Parke Bancorp, Inc., Sewell, NJ                        Preferred Stock w/ Warrants                  $16,288,000                                                                                               $5.46      362,733         $2,273,533
12/23/2008   Parkvale Financial Corporation, Monroeville, PA67      Preferred Stock w/ Warrants                  $31,762,000                                                                                             $24.57       376,327         $4,596,667
             Pascack Bancorp, Inc.(Pascack Community Bank),
2/6/2009                                                            Preferred Stock w/ Exercised Warrants          $3,756,000   10/19/2011           $3,756,000          —    10/19/2011      R        $188,000                                         $553,313
             Westwood, NJ2,13,d
                                                     2
12/19/2008   Patapsco Bancorp, Inc., Dundalk, MD                    Preferred Stock w/ Exercised Warrants          $6,000,000                                                                                              $0.90                        $377,867
9/11/2009    Pathfinder Bancorp, Inc., Oswego, NY49                 Preferred Stock w/ Warrants                    $6,771,000   9/1/2011             $6,771,000          —                                                 $8.91      154,354           $667,696
3/27/2009    Pathway Bancorp, Cairo, NE2                            Preferred Stock w/ Exercised Warrants          $3,727,000                                                                                                                            $77,852
                                                                                                                                                                                                                                                                     TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




12/19/2008   Patriot Bancshares, Inc., Houston, TX2                 Preferred Stock w/ Exercised Warrants        $26,038,000                                                                                                                          $2,704,136
4/17/2009    Patterson Bancshares, Inc, Patterson, LA2              Preferred Stock w/ Exercised Warrants          $3,690,000                                                                                                                           $537,630

                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                     221
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                     (CONTINUED)                                                                                                                                                               222
                                                                                                                                 Capital                            Remaining    Final                        Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition            Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                            Investment Description                   Investment Amount   Date         Repayment Amount6       Amount     Date          Note15    Proceeds     12/30/2011       Warrants            Treasury

             Peapack-Gladstone Financial Corporation,                                                                            1/6/2010             $7,172,000   $21,513,000
1/9/2009                                                            Preferred Stock w/ Warrants                   $28,685,000                                                                                              $10.75       150,296         $3,169,199
             Gladstone, NJ                                                                                                       3/2/2011             $7,172,000   $14,341,000
1/30/2009    Peninsula Bank Holding Co., Palo Alto, CA              Preferred Stock w/ Warrants                     $6,000,000                                                                                                           81,670           $858,943
4/17/2009    Penn Liberty Financial Corp., Wayne, PA2,49            Preferred Stock w/ Exercised Warrants           $9,960,000   9/1/2011             $9,960,000            —    9/1/2011        R       $498,000                                       $1,287,689
2/13/2009    Peoples Bancorp, Lynden, WA2,62                        Preferred Stock w/ Exercised Warrants         $18,000,000    8/3/2011           $18,000,000             —    8/3/2011        R       $900,000                                       $2,425,250
                                                                                                                                 2/2/2011           $21,000,000    $18,000,000
1/30/2009    Peoples Bancorp Inc., Marietta, OH                     Preferred Stock w/ Warrants                   $39,000,000                                                                                              $14.81       313,505         $4,725,833
                                                                                                                                 12/28/2011         $18,000,000             —
12/23/2008   Peoples Bancorp of North Carolina, Inc., Newton, NC    Preferred Stock w/ Warrants                   $25,054,000                                                                                                $5.49      357,234         $3,625,871
4/24/2009    Peoples Bancorporation, Inc., Easley, SC2              Preferred Stock w/ Exercised Warrants         $12,660,000                                                                                                                           $1,765,173
3/20/2009    Peoples Bancshares of TN, Inc, Madisonville, TN2       Preferred Stock w/ Exercised Warrants           $3,900,000                                                                                                                            $563,848
3/6/2009     PeoplesSouth Bancshares, Inc., Colquitt, GA2           Preferred Stock w/ Exercised Warrants         $12,325,000                                                                                                                           $1,807,966
9/11/2009    PFSB Bancorporation, Inc., Pigeon Falls, WI2,10,50     Preferred Stock w/ Exercised Warrants           $1,500,000   8/25/2011            $1,500,000            —    8/25/2011       R        $71,000                                         $159,163
2/6/2009     PGB Holdings, Inc., Chicago, IL3,30                    Preferred Stock                                 $3,000,000   8/13/2010            $3,000,000            —                                                                             $227,917
1/23/2009    Pierce County Bancorp, Tacoma, WA2,51                  Preferred Stock w/ Exercised Warrants           $6,800,000                                                                                                                            $207,948
             Pinnacle Bank Holding Company, Inc.,
3/6/2009                                                            Preferred Stock w/ Exercised Warrants           $4,389,000                                                                                                          267,455           $284,999
             Orange City, FL2
12/12/2008   Pinnacle Financial Partners, Inc., Nashville, TN       Preferred Stock w/ Warrants                   $95,000,000    12/28/2011         $23,750,000    $71,250,000                                             $16.15                      $14,035,590
                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




12/19/2008   Plains Capital Corporation, Dallas, TX2,49             Preferred Stock w/ Exercised Warrants         $87,631,000    9/27/2011          $87,631,000             —    9/27/2011       R      $4,382,000                                     $13,239,940
                                                                    Subordinated Debentures w/
7/17/2009    Plato Holdings Inc., Saint Paul, MN8,10                                                                $2,500,000                                                                                                                            $482,469
                                                                    Exercised Warrants
1/30/2009    Plumas Bancorp, Quincy, CA                             Preferred Stock w/ Warrants                   $11,949,000                                                                                                $2.38      237,712           $622,344
12/5/2008    Popular, Inc., San Juan, PR12                          Trust Preferred Securities w/ Warrants       $935,000,000                                                                                                $1.39   20,932,836      $124,796,528
11/21/2008   Porter Bancorp Inc., Louisville, KY                    Preferred Stock w/ Warrants                   $35,000,000                                                                                                $2.90      330,561         $4,783,333
4/3/2009     Prairie Star Bancshares, Inc., Olathe, KS2             Preferred Stock w/ Exercised Warrants           $2,800,000                                                                                                                            $132,253
5/8/2009     Premier Bancorp, Inc., Wilmette, IL3,8,30              Subordinated Debentures                         $6,784,000   8/13/2010            $6,784,000            —                                                                             $660,215
3/20/2009    Premier Bank Holding Company, Tallahassee, FL2         Preferred Stock w/ Exercised Warrants           $9,500,000                                                                                                                            $467,413
10/2/2009    Premier Financial Bancorp, Inc., Huntington, WV        Preferred Stock w/ Warrants                   $22,252,000                                                                                                $4.40      628,588         $2,368,568
                                                                    Subordinated Debentures w/
5/22/2009    Premier Financial Corp, Dubuque, IA8                                                                   $6,349,000                                                                                                                            $522,263
                                                                    Exercised Warrants
                                                    2
2/20/2009    Premier Service Bank, Riverside, CA                    Preferred Stock w/ Exercised Warrants           $4,000,000                                                                                               $0.56                         $54,500
2/13/2009    PremierWest Bancorp, Medford, OR                       Preferred Stock w/ Warrants                   $41,400,000                                                                                                $0.80      109,039         $1,046,500
11/20/2009   Presidio Bank, San Francisco, CA2,10                   Preferred Stock w/ Exercised Warrants         $10,800,000                                                                                                $6.60                      $1,130,594
1/23/2009    Princeton National Bancorp, Inc., Princeton, IL        Preferred Stock w/ Warrants                   $25,083,000                                                                                                $1.51      155,025         $2,271,405
2/27/2009    Private Bancorporation, Inc., Minneapolis, MN2,c       Preferred Stock w/ Exercised Warrants           $4,960,000
                                                                                                                                                                                                                                                          $498,860
12/29/2009   Private Bancorporation, Inc., Minneapolis, MN2,10a,c   Preferred Stock                                 $3,262,000
1/30/2009    PrivateBancorp, Inc., Chicago, IL                      Preferred Stock w/ Warrants                  $243,815,000                                                                                              $10.98       645,013        $34,032,510
10/2/2009    Providence Bank, Rocky Mount, NC2,10,49                Preferred Stock w/ Exercised Warrants           $4,000,000   9/15/2011            $4,000,000            —    9/15/2011       R       $175,000                                         $421,312
             Provident Community Bancshares, Inc., Rock
3/13/2009                                                           Preferred Stock w/ Warrants                     $9,266,000                                                                                               $0.12      178,880           $543,091
             Hill, SC
2/27/2009    PSB Financial Corporation, Many, LA2,30                Preferred Stock w/ Exercised Warrants           $9,270,000   9/29/2010            $9,270,000            —    9/29/2010       R       $464,000                                         $802,802
1/16/2009    Puget Sound Bank, Bellevue, WA2,49                     Preferred Stock w/ Exercised Warrants           $4,500,000   8/11/2011            $4,500,000            —    8/11/2011       R       $225,000            $8.60                        $630,157
1/16/2009    Pulaski Financial Corp, Creve Coeur, MO                Preferred Stock w/ Warrants                   $32,538,000                                                                                                $7.06      778,421         $4,605,031
2/13/2009    QCR Holdings, Inc., Moline, IL49,e                     Preferred Stock w/ Warrants                   $38,237,000    9/15/2011          $38,237,000             —    11/16/2011      R      $1,100,000           $9.10                      $4,949,567
10/30/2009   Randolph Bank & Trust Company, Asheboro, NC2           Preferred Stock w/ Exercised Warrants           $6,229,000                                                                                                                            $523,303
6/19/2009    RCB Financial Corporation, Rome, GA2,10                Preferred Stock w/ Exercised Warrants           $8,900,000                                                                                                                            $893,934
1/16/2009    Redwood Capital Bancorp, Eureka, CA2,49                Preferred Stock w/ Exercised Warrants           $3,800,000   7/21/2011            $3,800,000            —    7/21/2011       R       $190,000            $5.80                        $520,626
1/9/2009     Redwood Financial Inc., Redwood Falls, MN2,49          Preferred Stock w/ Exercised Warrants           $2,995,000   8/18/2011            $2,995,000            —    8/18/2011       R       $150,000          $11.60                         $425,811
3/6/2009     Regent Bancorp, Inc., Davie, FL2                       Preferred Stock w/ Exercised Warrants           $9,982,000                                                                                                                            $784,282
2/27/2009    Regent Capital Corporation, Nowata, OK2,49             Preferred Stock w/ Exercised Warrants           $2,655,000   7/21/2011            $2,655,000            —    7/21/2011       R       $133,000                                         $347,328

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (CONTINUED)
                                                                                                                                 Capital                            Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

10/23/2009   Regents Bancshares, Inc., Vancouver, WA2,10             Preferred Stock w/ Exercised Warrants        $12,700,000                                                                                                                            $1,379,481
2/13/2009    Regional Bankshares, Inc., Hartsville, SC2              Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                             $225,267
11/14/2008   Regions Financial Corporation, Birmingham, AL           Preferred Stock w/ Warrants                $3,500,000,000                                                                                                $4.30   48,253,677      $525,486,111
2/13/2009    Reliance Bancshares, Inc., Frontenac, MO2               Preferred Stock w/ Exercised Warrants        $40,000,000                                                                                                 $0.77                      $3,827,111
2/27/2009    Ridgestone Financial Services, Inc., Brookfield, WI2    Preferred Stock w/ Exercised Warrants        $10,900,000                                                                                                                              $277,224
1/9/2009     Rising Sun Bancorp, Rising Sun, MD2                     Preferred Stock w/ Exercised Warrants          $5,983,000                                                                                                                             $195,637
                                                                     Subordinated Debentures w/ Exercised
6/12/2009    River Valley Bancorporation, Inc., Wausau, WI8                                                       $15,000,000                                                                                               $15.50                       $3,051,863
                                                                     Warrants
                                                                     Subordinated Debentures w/ Exercised
5/15/2009    Riverside Bancshares, Inc., Little Rock, AR8                                                           $1,100,000                                                                                                                             $230,725
                                                                     Warrants
1/30/2009    Rogers Bancshares, Inc., Little Rock, AR2               Preferred Stock w/ Exercised Warrants        $25,000,000                                                                                                                              $738,021
             Royal Bancshares of Pennsylvania, Inc., Narberth,
2/20/2009                                                            Preferred Stock w/ Warrants                  $30,407,000                                                                                                 $1.25    1,104,370           $358,971
             PA
1/16/2009    S&T Bancorp, Indiana, PA                                Preferred Stock w/ Warrants                 $108,676,000    12/7/2011         $108,676,000             —                                               $19.55       517,012        $15,712,738
12/23/2008   Saigon National Bank, Westminster, CA2                  Preferred Stock w/ Exercised Warrants          $1,549,000                                                                                                $0.02                                —
3/13/2009    Salisbury Bancorp, Inc., Lakeville, CT49,e              Preferred Stock w/ Warrants                    $8,816,000   8/25/2011            $8,816,000            —    11/2/2011       R        $205,000          $23.35                       $1,079,960
                                                                                                                                 7/21/2010          $41,547,000    $41,547,000
12/5/2008    Sandy Spring Bancorp, Inc., Olney, MD                   Preferred Stock w/ Warrants                  $83,094,000                                                    2/23/2011       R       $4,450,000         $17.55                       $7,593,868
                                                                                                                                 12/15/2010         $41,547,000             —
                                                                 2
2/13/2009    Santa Clara Valley Bank, N.A., Santa Paula, CA          Preferred Stock w/ Exercised Warrants          $2,900,000                                                                                                $4.00                        $158,928
12/19/2008   Santa Lucia Bancorp, Atascadero, CA64,j                 Preferred Stock w/ Warrants                    $4,000,000   10/21/2011           $2,800,000            —                                                 $0.34                        $331,111
3/27/2009    SBT Bancorp, Inc., Simsbury, CT2,49                     Preferred Stock w/ Exercised Warrants          $4,000,000   8/11/2011            $4,000,000            —    8/11/2011       R        $200,000                                         $517,145
1/16/2009    SCBT Financial Corporation, Columbia, SC                Preferred Stock w/ Warrants                  $64,779,000    5/20/2009          $64,779,000             —    6/24/2009       R       $1,400,000         $29.01                       $1,115,639
12/19/2008   Seacoast Banking Corporation of Florida, Stuart, FL     Preferred Stock w/ Warrants                  $50,000,000                                                                                                 $1.52      589,623         $7,627,430
12/23/2008   Seacoast Commerce Bank, Chula Vista, CA2,49             Preferred Stock w/ Exercised Warrants          $1,800,000   9/1/2011             $1,800,000            —    9/1/2011        R         $90,000            $4.50                        $263,780
             Security Bancshares of Pulaski County, Inc.,
2/13/2009                                                            Preferred Stock w/ Exercised Warrants          $2,152,000                                                                                                                             $323,282
             Waynesville, MO2
                                                          2,49
1/9/2009     Security Business Bancorp, San Diego, CA                Preferred Stock w/ Exercised Warrants          $5,803,000   7/14/2011            $5,803,000            —    7/14/2011       R        $290,000                                         $795,018
1/9/2009     Security California Bancorp, Riverside, CA2,49          Preferred Stock w/ Exercised Warrants          $6,815,000   9/15/2011            $6,815,000            —    9/15/2011       R        $341,000            $8.20                        $996,698
6/26/2009    Security Capital Corporation, Batesville, MS2,10,30     Preferred Stock w/ Exercised Warrants        $17,388,000    9/29/2010          $17,388,000             —    9/29/2010       R        $522,000                                       $1,153,111
12/19/2008   Security Federal Corporation, Aiken, SC30               Preferred Stock w/ Warrants                  $18,000,000    9/29/2010          $18,000,000             —                                                 $8.00      137,966         $1,600,000
2/20/2009    Security State Bancshares, Inc., Charleston, MO2,49     Preferred Stock w/ Exercised Warrants        $12,500,000    9/22/2011          $12,500,000             —    9/22/2011       R        $625,000                                       $1,763,680
             Security State Bank Holding-Company,                    Subordinated Debentures w/
5/1/2009                                                                                                          $10,750,000                                                                                                                            $1,414,005
             Jamestown, ND8                                          Exercised Warrants
11/21/2008   Severn Bancorp, Inc., Annapolis, MD                     Preferred Stock w/ Warrants                  $23,393,000                                                                                                 $2.46      556,976         $3,489,456
1/9/2009     Shore Bancshares, Inc., Easton, MDe                     Preferred Stock w/ Warrants                  $25,000,000    4/15/2009          $25,000,000             —    11/16/2011      R         $25,000            $5.15      172,970           $333,333

                                                     8               Subordinated Debentures w/
6/26/2009    Signature Bancshares, Inc., Dallas, TX                                                                 $1,700,000   12/15/2010           $1,700,000            —    12/15/2010      R         $85,000                                         $209,588
                                                                     Exercised Warrants
12/12/2008   Signature Bank, New York, NY                            Preferred Stock w/ Warrants                 $120,000,000    3/31/2009         $120,000,000             —    3/10/2010       A      $11,320,751         $59.99                       $1,816,667
1/16/2009    Somerset Hills Bancorp, Bernardsville, NJ               Preferred Stock w/ Warrants                    $7,414,000   5/20/2009            $7,414,000            —    6/24/2009       R        $275,000            $7.50                        $127,686
2/20/2009    Sonoma Valley Bancorp, Sonoma, CA2,25                   Preferred Stock w/ Exercised Warrants          $8,653,000                                                                                                                             $347,164
1/9/2009     Sound Banking Company, Morehead City, NC2               Preferred Stock w/ Exercised Warrants          $3,070,000                                                                                                $3.05                        $476,976
12/5/2008    South Financial Group, Inc., Greenville, SC26           Preferred Stock w/ Warrants                 $347,000,000    9/30/2010         $130,179,219             —    9/30/2010       R        $400,000                                      $16,386,111
7/17/2009    SouthCrest Financial Group, Inc., Fayetteville, GA2     Preferred Stock w/ Exercised Warrants        $12,900,000                                                                                                 $4.00                        $933,494
1/16/2009    Southern Bancorp, Inc., Arkadelphia, AR3,30             Preferred Stock                              $11,000,000    8/6/2010           $11,000,000             —                                                                              $855,556
             Southern Community Financial Corp.,
12/5/2008                                                            Preferred Stock w/ Warrants                  $42,750,000                                                                                                 $1.19    1,623,418         $4,156,250
             Winston-Salem, NC
2/27/2009    Southern First Bancshares, Inc., Greenville, SC         Preferred Stock w/ Warrants                  $17,299,000                                                                                                 $7.15      363,609         $2,349,781
5/15/2009    Southern Heritage Bancshares, Inc., Cleveland, TN2,50   Preferred Stock w/ Exercised Warrants          $4,862,000   9/8/2011             $4,862,000            —    9/8/2011        R        $243,000                                         $613,111
                                                                                                                                                                                                                                                                        TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




1/23/2009    Southern Illinois Bancorp, Inc., Carmi, IL2,49          Preferred Stock w/ Exercised Warrants          $5,000,000   8/25/2011            $5,000,000            —    8/25/2011       R        $250,000                                         $705,472
12/5/2008    Southern Missouri Bancorp, Inc., Poplar Bluff, MO49     Preferred Stock w/ Warrants                    $9,550,000   7/21/2011            $9,550,000            —                                               $22.47       114,326         $1,254,764
6/12/2009    SouthFirst Bancshares, Inc., Sylacauga, AL2             Preferred Stock w/ Exercised Warrants          $2,760,000                                                                                                $2.00                        $364,796

                                                                                                                                                                                                                                              Continued on next page.
                                                                                                                                                                                                                                                                        223
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)                                                                                                                                                                 224
                                                                                                                               Capital                             Remaining    Final                         Final    Stock Price       Current         Dividends/
Purchase                                                                                                                       Repayment               Capital       Capital    Disposition             Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                          Investment Description                   Investment Amount   Date         Repayment Amount6        Amount     Date          Note15     Proceeds     12/30/2011       Warrants            Treasury

12/5/2008    Southwest Bancorp, Inc., Stillwater, OK              Preferred Stock w/ Warrants                   $70,000,000                                                                                                  $5.96      703,753         $8,555,556
3/13/2009    Sovereign Bancshares, Inc., Dallas, TX2,49           Preferred Stock w/ Exercised Warrants         $18,215,000    9/22/2011          $18,215,000              —    9/22/2011       R        $911,000                                       $2,506,669
3/27/2009    Spirit BankCorp, Inc., Bristow, OK2                  Preferred Stock w/ Exercised Warrants         $30,000,000                                                                                                                             $2,261,750
3/13/2009    St. Johns Bancshares, Inc., St. Louis, MO2           Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                              $436,908
4/24/2009    Standard Bancshares, Inc., Hickory Hills, IL2        Preferred Stock w/ Exercised Warrants         $60,000,000                                                                                                                             $6,730,750
12/5/2008    State Bancorp, Inc., Jericho, NY                     Preferred Stock w/ Warrants                   $36,842,000    12/14/2011         $36,842,000              —                                               $12.20       465,569         $5,572,353
                                                                                                                               8/12/2009          $12,500,000     $37,500,000
1/16/2009    State Bankshares, Inc., Fargo, ND2                   Preferred Stock w/ Exercised Warrants         $50,000,000                                                     6/29/2011       R       $2,500,000                                      $5,508,472
                                                                                                                               6/29/2011          $37,500,000              —
                                                           2,30
2/13/2009    State Capital Corporation, Greenwood, MS             Preferred Stock w/ Exercised Warrants         $15,000,000    9/29/2010          $15,000,000              —    9/29/2010       R        $750,000                                       $1,330,709
10/28/2008   State Street Corporation, Boston, MA                 Preferred Stock w/ Warrants                 $2,000,000,000   6/17/2009        $2,000,000,000             —    7/8/2009        R      $60,000,000         $40.31                      $63,611,111
                                                                  Subordinated Debentures w/
6/26/2009    Stearns Financial Services, Inc., St. Cloud, MN8                                                   $24,900,000                                                                                                                             $4,984,848
                                                                  Exercised Warrants
                                                                  Subordinated Debentures w/
9/25/2009    Steele Street Bank Corporation, Denver, CO8,10,50                                                  $11,019,000    9/1/2011           $11,019,000              —    9/1/2011        R        $331,000                                       $1,728,673
                                                                  Exercised Warrants
                                                                                                                               4/13/2011            $7,500,000    $22,500,000
12/19/2008   StellarOne Corporation, Charlottesville, VA          Preferred Stock w/ Warrants                   $30,000,000                                                                                                             302,623         $4,271,875
                                                                                                                               12/28/2011         $22,500,000              —
12/23/2008   Sterling Bancorp, New York, NY                       Preferred Stock w/ Warrants                   $42,000,000    4/27/2011          $42,000,000              —    5/18/2011       R        $945,775            $8.64                      $4,923,333
                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




12/12/2008   Sterling Bancshares, Inc., Houston, TX               Preferred Stock w/ Warrants                  $125,198,000    5/5/2009          $125,198,000              —    6/9/2010        A       $3,007,891                                      $2,486,571
12/5/2008    Sterling Financial Corporation, Spokane, WA24        Common Stock w/ Warrants                     $303,000,000                                                                                                $16.70        97,541         $6,733,333
             Stewardship Financial Corporation,
1/30/2009                                                         Preferred Stock w/ Warrants                   $10,000,000    9/1/2011           $10,000,000              —    10/26/2011      R        $107,398            $5.30                      $1,293,055
             Midland Park, NJ49,j
                                                                                                                               1/14/2011            $4,000,000    $11,568,000   3/16/2011       R        $778,000                                       $1,755,554
2/6/2009     Stockmens Financial Corporation, Rapid City, SD2     Preferred Stock w/ Exercised Warrants         $15,568,000
                                                                                                                               3/16/2011          $11,568,000              —                                                                                      —
1/23/2009    Stonebridge Financial Corp., West Chester, PA2       Preferred Stock w/ Exercised Warrants         $10,973,000                                                                                                                               $634,609
                                                                  Subordinated Debentures w/ Exercised
6/19/2009    Suburban Illinois Bancorp, Inc., Elmhurst, IL8                                                     $15,000,000                                                                                                                             $2,083,520
                                                                  Warrants
12/19/2008   Summit State Bank, Santa Rosa, CA49                  Preferred Stock w/ Warrants                     $8,500,000   8/4/2011             $8,500,000             —    9/14/2011       R        $315,000            $5.20                      $1,115,625
1/9/2009     Sun Bancorp, Inc., Vineland, NJ                      Preferred Stock w/ Warrants                   $89,310,000    4/8/2009           $89,310,000              —    5/27/2009       R       $2,100,000           $2.42                      $1,103,971
11/14/2008   SunTrust Banks, Inc., Atlanta, GA                    Preferred Stock w/ Warrants                 $3,500,000,000   3/30/2011        $3,500,000,000             —    9/22/2011       A      $14,269,536
                                                                                                                                                                                                                           $17.70                    $567,986,111
12/31/2008   SunTrust Banks, Inc., Atlanta, Gac                   Preferred Stock w/ Warrants                 $1,350,000,000   3/30/2011        $1,350,000,000             —    9/22/2011       A      $16,224,035
12/5/2008    Superior Bancorp Inc., Birmingham, AL17,54           Trust Preferred Securities w/ Warrants        $69,000,000                                                                                                           1,923,792         $4,983,333
1/9/2009     Surrey Bancorp, Mount Airy, NC2                      Preferred Stock w/ Exercised Warrants           $2,000,000   12/29/2010           $2,000,000             —    12/29/2010      R        $100,000            $9.25                        $214,972
                                                                                                                               4/21/2010         $200,000,000    $100,000,000
12/12/2008   Susquehanna Bancshares, Inc, Lititz, PA              Preferred Stock w/ Warrants                  $300,000,000                                                     1/19/2011       R       $5,269,179           $8.38                     $23,722,222
                                                                                                                               12/22/2010        $100,000,000              —
4/10/2009    SV Financial, Inc., Sterling, IL2                    Preferred Stock w/ Exercised Warrants           $4,000,000   8/31/2011            $4,000,000             —    8/31/2011       R        $200,000                                         $521,383
12/12/2008   SVB Financial Group, Santa Clara, CA                 Preferred Stock w/ Warrants                  $235,000,000    12/23/2009        $235,000,000              —    6/16/2010       R       $6,820,000         $47.69                      $12,109,028
                                                                  Subordinated Debentures w/
5/8/2009     Sword Financial Corporation, Horicon, WI8,49                                                       $13,644,000    9/15/2011          $13,644,000              —    9/15/2011       R        $682,000                                       $2,693,234
                                                                  Exercised Warrants
12/19/2008   Synovus Financial Corp., Columbus, GA                Preferred Stock w/ Warrants                  $967,870,000                                                                                                  $1.41   15,510,737      $140,610,003
1/16/2009    Syringa Bancorp, Boise, ID2                          Preferred Stock w/ Exercised Warrants           $8,000,000                                                                                                 $0.06                        $253,122
11/21/2008   Taylor Capital Group, Rosemont, IL                   Preferred Stock w/ Warrants                  $104,823,000                                                                                                  $9.72    1,462,647        $15,636,098
                                                                  Subordinated Debentures w/
8/28/2009    TCB Corporation, Greenwood, SC8,10,50                                                                $9,720,000   9/8/2011             $9,720,000             —    9/8/2011        R        $292,000                                       $1,599,381
                                                                  Exercised Warrants
             TCB Holding Company, Texas Community Bank,
1/16/2009                                                         Preferred Stock w/ Exercised Warrants         $11,730,000                                                                                                                               $690,832
             The Woodlands, TX2
11/14/2008   TCF Financial Corporation, Wayzata, MN               Preferred Stock w/ Warrants                  $361,172,000    4/22/2009         $361,172,000              —    12/15/2009      A       $9,599,964         $10.32                       $7,925,719
12/23/2008   TCNB Financial Corp., Dayton, OH2                    Preferred Stock w/ Exercised Warrants           $2,000,000   8/3/2011             $2,000,000             —    8/3/2011        R        $100,000                                         $284,611
12/19/2008   Tennessee Commerce Bancorp, Inc., Franklin, TN       Preferred Stock w/ Warrants                   $30,000,000                                                                                                  $0.08      461,538         $3,233,333
             Tennessee Valley Financial Holdings, Inc.,
12/23/2008                                                        Preferred Stock w/ Exercised Warrants           $3,000,000                                                                                                                              $146,242
             Oak Ridge, TN2
1/16/2009    Texas Capital Bancshares, Inc., Dallas, TX           Preferred Stock w/ Warrants                   $75,000,000    5/13/2009          $75,000,000              —    3/11/2010       A       $6,709,061         $30.61                       $1,218,750
1/9/2009     Texas National Bancorporation, Jacksonville, TX2     Preferred Stock w/ Exercised Warrants           $3,981,000   5/19/2010            $3,981,000             —    5/19/2010       R        $199,000                                         $295,308

                                                                                                                                                                                                                                             Continued on next page.
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (CONTINUED)
                                                                                                                                 Capital                            Remaining    Final                            Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital      Capital    Disposition                Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6       Amount     Date          Note15        Proceeds     12/30/2011       Warrants            Treasury

8/7/2009     The ANB Corporation, Terrell, TX2,49                    Preferred Stock w/ Exercised Warrants        $20,000,000    8/25/2011          $20,000,000             —    8/25/2011       R         $1,000,000                                       $2,234,500
12/12/2008   The Bancorp, Inc., Wilmington, DE                       Preferred Stock w/ Warrants                  $45,220,000    3/10/2010          $45,220,000             —    9/8/2010        R         $4,753,985            $7.23                      $2,813,689
2/6/2009     The Bank of Currituck, Moyock, NC2,34                   Preferred Stock w/ Exercised Warrants          $4,021,000   12/3/2010            $1,742,850            —                                                                                 $169,834

             The Bank of Kentucky Financial Corporation,                                                                         12/22/2010         $17,000,000    $17,000,000
2/13/2009                                                            Preferred Stock w/ Warrants                  $34,000,000                                                                                                  $20.05       274,784         $3,940,694
             Crestview Hills, KY                                                                                                 11/23/2011         $17,000,000             —
             The Bank of New York Mellon Corporation,
10/28/2008                                                           Preferred Stock w/ Warrants                $3,000,000,000   6/17/2009        $3,000,000,000            —    8/5/2009        R       $136,000,000          $19.91                      $95,416,667
             New York, NY
                                                            2
1/16/2009    The Baraboo Bancorporation, Baraboo, WI                 Preferred Stock w/ Exercised Warrants        $20,749,000                                                                                                    $5.00                      $3,200,737
             The Connecticut Bank and Trust Company,
12/19/2008                                                           Preferred Stock w/ Warrants                    $5,448,000                                                                                                   $8.00      175,742           $612,900
             Hartford, CT
12/19/2008   The Elmira Savings Bank, FSB, Elmira, NY49              Preferred Stock w/ Warrants                    $9,090,000   8/25/2011            $9,090,000            —                                                  $16.38       116,538         $1,219,575
1/9/2009     The First Bancorp, Inc., Damariscotta, ME               Preferred Stock w/ Warrants                  $25,000,000    8/24/2011          $12,500,000    $12,500,000                                                 $15.37       225,904         $3,421,875
2/6/2009     The First Bancshares, Inc., Hattiesburg, MS30           Preferred Stock w/ Warrants                    $5,000,000   9/29/2010            $5,000,000            —                                                    $7.26       54,705           $411,806
2/6/2009     The Freeport State Bank, Harper, KS2                    Preferred Stock w/ Exercised Warrants           $301,000                                                                                                                                   $8,610
10/28/2008   The Goldman Sachs Group, Inc., New York, NY             Preferred Stock w/ Warrants              $10,000,000,000    6/17/2009      $10,000,000,000             —    7/22/2009       R      $1,100,000,000         $90.43                    $318,055,555
5/22/2009    The Landrum Company, Columbia, MO2,49                   Preferred Stock w/ Exercised Warrants        $15,000,000    8/18/2011          $15,000,000             —    8/18/2011       R           $750,000                                       $1,830,292
12/23/2008   The Little Bank, Incorporated, Kinston, NC2             Preferred Stock w/ Exercised Warrants          $7,500,000                                                                                                                              $1,183,105
12/31/2008   The PNC Financial Services Group Inc., Pittsburgh, PA   Preferred Stock w/ Warrants                $7,579,200,000   2/10/2010        $7,579,200,000            —    4/29/2010       A       $324,195,686          $57.67                    $421,066,667
2/20/2009    The Private Bank of California, Los Angeles, CA2,49     Preferred Stock w/ Exercised Warrants          $5,450,000   9/1/2011             $5,450,000            —    9/1/2011        R           $273,000                                         $751,752
1/9/2009     The Queensborough Company, Louisville, GA2              Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                                 $882,900
                                                                     Subordinated Debentures w/
9/4/2009     The State Bank of Bartley, Bartley, NE8,10,49                                                          $1,697,000   9/22/2011            $1,697,000            —    9/22/2011       R            $51,000                                         $282,299
                                                                     Exercised Warrants
                                                        2,10a,49
12/11/2009   The Victory Bancorp, Inc., Limerick, PA                 Preferred Stock w/ Exercised Warrants          $1,505,000   9/22/2011            $1,505,000            —    9/22/2011       R            $34,000                                         $215,183
             The Victory Bancorp, Inc. (The Victory Bank),
2/27/2009                                                            Preferred Stock w/ Exercised Warrants           $541,000    9/22/2011             $541,000             —    9/22/2011       R            $27,000                                                 —
             Limerick, PA2,13
             Three Shores Bancorporation, Inc. (Seaside
1/23/2009                                                            Preferred Stock w/ Exercised Warrants          $5,677,000                                                                                                                                $869,786
             National Bank & Trust), Orlando, FL2,13
12/5/2008    TIB Financial Corp, Naples, FL32                        Preferred Stock w/ Warrants                  $37,000,000    9/30/2010          $12,119,637             —    9/30/2010       R            $40,000            $9.00                      $1,284,722
12/19/2008   Tidelands Bancshares, Inc, Mount Pleasant, SC           Preferred Stock w/ Warrants                  $14,448,000                                                                                                    $0.08      571,821         $1,195,973
4/17/2009    Tifton Banking Company, Tifton, GA2,52                  Preferred Stock w/ Exercised Warrants          $3,800,000                                                                                                                                $223,208
12/23/2008   Timberland Bancorp, Inc., Hoquiam, WA                   Preferred Stock w/ Warrants                  $16,641,000                                                                                                    $3.95                        $952,236
4/3/2009     Titonka Bancshares, Inc, Titonka, IA2                   Preferred Stock w/ Exercised Warrants          $2,117,000                                                                                                                                $301,937
2/6/2009     Todd Bancshares, Inc., Hopkinsville, KY2                Preferred Stock w/ Exercised Warrants          $4,000,000                                                                                                                                $604,950
12/12/2008   TowneBank, Portsmouth, VA50                             Preferred Stock w/ Warrants                  $76,458,000    9/22/2011          $76,458,000             —                                                  $12.24                      $10,619,167
1/16/2009    Treaty Oak Bancorp, Inc., Austin, TX2,36                Warrants                                       $3,268,000   2/15/2011             $500,000             —                                                    $0.23    3,098,341           $192,415
3/27/2009    Triad Bancorp, Inc., Frontenac, MO2,49                  Preferred Stock w/ Exercised Warrants          $3,700,000   9/22/2011            $3,700,000            —    9/22/2011       R           $185,000                                         $501,325
12/19/2008   Tri-County Financial Corporation, Waldorf, MD2,49       Preferred Stock w/ Exercised Warrants        $15,540,000    9/22/2011          $15,540,000             —    9/22/2011       R           $777,000                                       $2,336,116
3/27/2009    Trinity Capital Corporation, Los Alamos, NM2            Preferred Stock w/ Exercised Warrants        $35,539,000                                                                                                                               $5,139,526
4/3/2009     Tri-State Bank of Memphis, Memphis, TN2,3,30            Preferred Stock                                $2,795,000   8/13/2010            $2,795,000            —                                                                                 $190,215
2/27/2009    TriState Capital Holdings, Inc., Pittsburgh, PA2        Preferred Stock w/ Exercised Warrants        $23,000,000                                                                                                                               $3,409,518
4/3/2009     TriSummit Bank, Kingsport, TN2,c                        Preferred Stock w/ Exercised Warrants          $2,765,000
                                                                                                                                                                                                                                                              $796,180
12/22/2009   TriSummit Bank, Kingsport, TN2,10a,c                    Preferred Stock                                $4,237,000
11/21/2008   Trustmark Corporation, Jackson, MS                      Preferred Stock w/ Warrants                 $215,000,000    12/9/2009         $215,000,000             —    12/30/2009      R        $10,000,000          $24.29                      $11,287,500
5/29/2009    Two Rivers Financial Group, Burlington, IA2,49          Preferred Stock w/ Exercised Warrants        $12,000,000    9/1/2011           $12,000,000             —    9/1/2011        R           $600,000          $15.00                       $1,475,133
11/14/2008   U.S. Bancorp, Minneapolis, MN                           Preferred Stock w/ Warrants                $6,599,000,000   6/17/2009        $6,599,000,000            —    7/15/2009       R       $139,000,000          $27.05                    $195,220,417
8/7/2009     U.S. Century Bank, Miami, FL2                           Preferred Stock w/ Exercised Warrants        $50,236,000                                                                                                                                 $745,312
1/30/2009    UBT Bancshares, Inc., Marysville, KS2,49                Preferred Stock w/ Exercised Warrants          $8,950,000   8/11/2011            $8,950,000            —    8/11/2011       R           $450,000                                       $1,234,912
                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




11/14/2008   UCBH Holdings, Inc., San Francisco, CA14                Preferred Stock w/ Warrants                 $298,737,000                                                                                                             7,847,732         $7,509,920
11/14/2008   Umpqua Holdings Corp., Portland, OR                     Preferred Stock w/ Warrants                 $214,181,000    2/17/2010         $214,181,000             —    3/31/2010       R         $4,500,000          $12.39                      $13,475,555

                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                           225
CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                      (CONTINUED)                                                                                                                                                                 226
                                                                                                                                 Capital                             Remaining    Final                          Final    Stock Price       Current         Dividends/
Purchase                                                                                                                         Repayment               Capital       Capital    Disposition              Disposition          as of   Outstanding    Interest Paid to
Date         Institution                                             Investment Description                  Investment Amount   Date         Repayment Amount6        Amount     Date          Note15      Proceeds     12/30/2011       Warrants            Treasury

5/1/2009     Union Bank & Trust Company, Oxford, NC2,50,c            Preferred Stock w/ Exercised Warrants          $3,194,000   9/22/2011            $3,194,000             —    9/22/2011       R         $160,000
                                                                                                                                                                                                                                                             $680,292
12/18/2009   Union Bank & Trust Company, Oxford, NC2,10a,49,c        Preferred Stock                                $2,997,000   9/22/2011            $2,997,000             —
                                                              2,10
12/29/2009   Union Financial Corporation, Albuquerque, NM            Preferred Stock w/ Exercised Warrants          $2,179,000                                                                                                                               $215,569
             Union First Market Bankshares Corporation
2/6/2009                                                             Preferred Stock                              $33,900,000    12/7/2011          $35,595,000              —                                                $13.29                       $1,821,889
             (First Market Bank, FSB), Bowling Green, VA18
             Union First Market Bankshares Corporation (Union
12/19/2008                                                           Preferred Stock w/ Warrants                  $59,000,000    11/18/2009         $59,000,000              —    12/23/2009      R         $450,000                                       $3,417,970
             Bankshares Corporation), Bowling Green, VA18
2/20/2009    United American Bank, San Mateo, CA2                    Preferred Stock w/ Exercised Warrants          $8,700,000                                                                                                                                       —
1/16/2009    United Bancorp, Inc., Tecumseh, MI                      Preferred Stock w/ Warrants                  $20,600,000                                                                                                   $8.46      311,492         $2,915,472
12/23/2008   United Bancorporation of Alabama, Inc., Atmore, AL30    Preferred Stock w/ Warrants                  $10,300,000    9/3/2010           $10,300,000              —                                                             108,264           $872,639
                                                                     Subordinated Debentures w/
5/22/2009    United Bank Corporation, Barnesville, GA8                                                            $14,400,000                                                                                                                              $2,996,911
                                                                     Exercised Warrants
12/5/2008    United Community Banks, Inc., Blairsville, GA           Preferred Stock w/ Warrants                 $180,000,000                                                                                                   $6.99      219,908        $26,518,750

             United Financial Banking Companies, Inc.,                                                                           12/15/2010           $3,000,000     $2,658,000
1/16/2009                                                            Preferred Stock w/ Exercised Warrants          $5,658,000                                                    9/15/2011       R         $283,000          $13.51                         $708,964
             Vienna, VA2,49                                                                                                      9/15/2011            $2,658,000             —
12/5/2008    Unity Bancorp, Inc., Clinton, NJ                        Preferred Stock w/ Warrants                  $20,649,000                                                                                                   $6.40                      $3,039,992
5/22/2009    Universal Bancorp, Bloomfield, IN2                      Preferred Stock w/ Exercised Warrants          $9,900,000                                                                                                                             $1,338,384
6/19/2009    University Financial Corp, Inc., St. Paul, MN3,8,30     Subordinated Debentures                      $11,926,000    7/30/2010          $11,926,000              —                                                                             $1,022,886
                                                                                                                                                                                                                                                                          APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




2/6/2009     US Metro Bank, Garden Grove, CA2                        Preferred Stock w/ Exercised Warrants          $2,861,000                                                                                                  $2.60                        $432,678
12/23/2008   Uwharrie Capital Corp, Albemarle, NC2                   Preferred Stock w/ Exercised Warrants        $10,000,000                                                                                                   $3.00                      $1,577,472
1/30/2009    Valley Commerce Bancorp, Visalia, CA2                   Preferred Stock w/ Exercised Warrants          $7,700,000                                                                                                  $7.00                      $1,171,523
1/9/2009     Valley Community Bank, Pleasanton, CA2                  Preferred Stock w/ Exercised Warrants          $5,500,000                                                                                                  $1.65                        $629,476
12/12/2008   Valley Financial Corporation, Roanoke, VA               Preferred Stock w/ Warrants                  $16,019,000                                                                                                              344,742         $2,380,955
             Valley Financial Group, Ltd., 1st State Bank,
12/18/2009                                                           Preferred Stock w/ Exercised Warrants          $1,300,000   9/22/2011            $1,300,000             —    9/22/2011       R          $65,000                                         $124,775
             Saginaw, MI2,49
                                                                                                                                 6/3/2009           $75,000,000    $225,000,000
11/14/2008   Valley National Bancorp, Wayne, NJ                      Preferred Stock w/ Warrants                 $300,000,000    9/23/2009         $125,000,000    $100,000,000   5/18/2010       A        $5,571,592         $12.37                      $12,979,167
                                                                                                                                 12/23/2009        $100,000,000              —
             Veritex Holdings, Inc.
6/26/2009                                                            Preferred Stock w/ Exercised Warrants          $3,000,000   8/25/2011            $3,000,000             —    8/25/2011       R         $150,000                                         $353,796
             (Fidelity Resources Company), Dallas, TX2, 40
5/1/2009     Village Bank and Trust Financial Corp, Midlothian, VA   Preferred Stock w/ Warrants                  $14,738,000                                                                                                   $1.25      499,029         $1,318,232
12/12/2008   Virginia Commerce Bancorp, Arlington, VA                Preferred Stock w/ Warrants                  $71,000,000                                                                                                   $7.73    2,696,203        $10,383,750
6/12/2009    Virginia Company Bank, Newport News, VA2,10             Preferred Stock w/ Exercised Warrants          $4,700,000                                                                                                                               $601,085
4/24/2009    Vision Bank - Texas, Richardson, TX2                    Preferred Stock w/ Exercised Warrants          $1,500,000                                                                                                                               $209,144
12/19/2008   VIST Financial Corp., Wyomissing, PA                    Preferred Stock w/ Warrants                  $25,000,000                                                                                                   $6.05                      $3,631,944
1/30/2009    W.T.B. Financial Corporation, Spokane, WA2,50           Preferred Stock w/ Exercised Warrants       $110,000,000    9/15/2011         $110,000,000              —    9/15/2011       R        $5,500,000                                     $15,736,874
12/11/2009   Wachusett Financial Services, Inc., Clinton, MA2,10     Preferred Stock w/ Exercised Warrants        $12,000,000                                                                                                                              $1,239,600
12/19/2008   Wainwright Bank & Trust Company, Boston, MA             Preferred Stock w/ Warrants                  $22,000,000    11/24/2009         $22,000,000              —    12/16/2009      R         $568,700                                       $1,023,611
1/16/2009    Washington Banking Company, Oak Harbor, WA              Preferred Stock w/ Warrants                  $26,380,000    1/12/2011          $26,380,000              —    3/2/2011        R        $1,625,000         $11.91                       $2,623,344
11/14/2008   Washington Federal, Inc., Seattle, WA                   Preferred Stock w/ Warrants                 $200,000,000    5/27/2009         $200,000,000              —    3/9/2010        A       $15,623,222         $13.99                       $5,361,111
10/30/2009   WashingtonFirst Bankshares, Inc., Reston, VA2,10a,49    Preferred Stock                                $6,842,000   8/4/2011             $6,842,000             —                                                                             $1,510,318
             WashingtonFirst Bankshares, Inc. (WashingtonFirst
1/30/2009                                                            Preferred Stock w/ Exercised Warrants          $6,633,000   8/4/2011             $6,633,000             —    8/4/2011        R         $332,000                                                 —
             Bank), Reston, VA2,13
6/26/2009    Waukesha Bankshares, Inc., Waukesha, WI2,10             Preferred Stock w/ Exercised Warrants          $5,625,000                                                                                                                               $707,386
                                                                                                                                 3/3/2010          $100,000,000    $300,000,000
11/21/2008   Webster Financial Corporation, Waterbury, CT            Preferred Stock w/ Warrants                 $400,000,000    10/13/2010        $100,000,000    $200,000,000   6/2/2011        A       $20,678,339         $20.39                      $36,944,444
                                                                                                                                 12/29/2010        $200,000,000              —
10/28/2008   Wells Fargo & Company, San Francisco, CA                Preferred Stock w/ Warrants              $25,000,000,000    12/23/2009     $25,000,000,000              —    5/20/2010       A      $849,014,998         $27.56                  $1,440,972,222
12/5/2008    WesBanco, Inc., Wheeling, WV                            Preferred Stock w/ Warrants                  $75,000,000    9/9/2009           $75,000,000              —    12/23/2009      R         $950,000          $19.47                       $2,854,167
12/31/2008   West Bancorporation, Inc., West Des Moines, IA          Preferred Stock w/ Warrants                  $36,000,000    6/29/2011          $36,000,000              —    8/31/2011       R         $700,000            $9.58                      $4,495,000
                                                                                                                                 9/2/2009           $41,863,000     $41,863,000
2/13/2009    Westamerica Bancorporation, San Rafael, Cai,n           Preferred Stock w/ Warrants                  $83,726,000                                                     11/18/2011      P         $878,256          $43.90       246,698         $2,755,981
                                                                                                                                 11/18/2009         $41,863,000              —

                                                                                                                                                                                                                                                Continued on next page.
     CPP TRANSACTION DETAIL, AS OF 12/31/2011                                                         (CONTINUED)
                                                                                                                                                  Capital                                           Remaining       Final                                      Final       Stock Price          Current            Dividends/
     Purchase                                                                                                                                     Repayment                       Capital             Capital       Disposition                          Disposition             as of      Outstanding       Interest Paid to
     Date            Institution                                             Investment Description                      Investment Amount        Date                 Repayment Amount6              Amount        Date               Note15             Proceeds        12/30/2011          Warrants               Treasury

 11/21/2008         Western Alliance Bancorporation, Las Vegas, NV49,m      Preferred Stock w/ Warrants                        $140,000,000       9/27/2011                   $140,000,000                    —    11/18/2011            P                 $415,000               $6.23                          $19,950,000
                    Western Community Bancshares, Inc.,
 12/23/2008                                                                 Preferred Stock w/ Exercised Warrants                 $7,290,000                                                                                                                                                                         $554,083
                    Palm Desert, CA2
                                                                      2,c
 12/23/2008         Western Illinois Bancshares Inc., Monmouth, IL          Preferred Stock w/ Exercised Warrants                 $6,855,000
                                                                                                                                                                                                                                                                                                                   $1,510,214
 12/29/2009         Western Illinois Bancshares Inc., Monmouth, IL2,10a,c   Preferred Stock                                       $4,567,000
                                                                2
 5/15/2009          Western Reserve Bancorp, Inc, Medina, OH                Preferred Stock w/ Exercised Warrants                 $4,700,000                                                                                                                                     $13.25                              $640,375
 2/20/2009          White River Bancshares Company, Fayetteville, AR2       Preferred Stock w/ Exercised Warrants               $16,800,000                                                                                                                                                                        $1,589,583
 12/19/2008         Whitney Holding Corporation, New Orleans, LA45          Preferred Stock w/ Warrants                        $300,000,000       6/3/2011                    $300,000,000                    —    6/3/2011              R               $6,900,000                                              $36,833,333
 12/12/2008         Wilshire Bancorp, Inc., Los Angeles, CA                 Preferred Stock w/ Warrants                         $62,158,000                                                                                                                                       $3.63          949,460           $9,090,608
 12/19/2008         Wintrust Financial Corporation, Lake Forest, IL         Preferred Stock w/ Warrants                        $250,000,000       12/22/2010                  $250,000,000                    —    2/8/2011              A             $25,964,061               $28.05                          $25,104,167
 5/15/2009          Worthington Financial Holdings, Inc., Huntsville, AL2   Preferred Stock w/ Exercised Warrants                 $2,720,000                                                                                                                                                                         $370,600
 1/23/2009          WSFS Financial Corporation, Wilmington, DE              Preferred Stock w/ Warrants                         $52,625,000                                                                                                                                      $35.96          175,105           $7,396,737
 1/16/2009          Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                         $36,000,000                                                                                                                                                      273,534
                                                                                                                                                                                                                                                                                  $1.61                            $4,782,227
 7/24/2009          Yadkin Valley Financial Corporation, Elkin, NC          Preferred Stock w/ Warrants                         $13,312,000                                                                                                                                                      385,990
                                                   2,50
 4/24/2009          York Traditions Bank, York, PA                          Preferred Stock w/ Exercised Warrants                 $4,871,000      7/14/2011                      $4,871,000                   —    7/14/2011             R                 $244,000                                                  $590,022
 11/14/2008         Zions Bancorporation, Salt Lake City, UT                Preferred Stock w/ Warrants                      $1,400,000,000                                                                                                                                      $16.28        5,789,909        $210,194,444
                                                                                                                                                  Total Capital
                                                                                                                                                  Repayment                                                        Total Warrant
                                                                            Total Purchase Amount *                    $204,943,827,320           Amount**             $185,452,229,563                            Proceeds****                  $7,665,834,408




                                                                            Total Treasury CPP Investment Outstanding                                                    $19,491,597,757



Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numeric notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 12/31/2011.					
* Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, 28 and 29.											
** Total repaid includes (i) the amount of $25 billion applied as repayment under the Capital Purchase Program from the total proceeds of $31.85 billion received pursuant to the sales of Citigroup, Inc. common stock as of December 6, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common
   Stock Disposition” on following pages) and (ii) the amount of $355,724,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).		
*** Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26, 32 and 34), but excludes investment amounts
     for institutions that have pending receivership or bankruptcy proceedings (see Notes 14 and 25).											
**** Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).								

1a
   	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on
      1/1/2009, and this transaction under the CPP was funded on 1/9/2009.											
1b
   	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and
      $124,228,646. Proceeds from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report. 											
2	
      Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.									
3	
      To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.						
3a	
      Treasury cancelled the warrants received from this institution due to its designation as a CDFI.											
4	
      Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.											
5	
      Redemption pursuant to a qualified equity offering.
6	
      This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7	
      The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8	
      Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.		
9	
      In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10
   	 This institution participated in the expansion of CPP for small banks.											
10a
    	 This institution received an additional investment through the expansion of CPP for small banks.											
11	
      Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in
      Fixed Rate Cumulative Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to
      purchase shares of Series M. On 9/11/2009, Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.						
12
   	 On 8/24/2009, Treasury exchanged its series C preferred stock issued by Popular, Inc. for a like amount of non tax-deductible trust preferred securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction. 	
13
   	 This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.		
14
   	 As of the date of this report, this institution is in bankruptcy proceedings. 											
15 
   	 For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution in a negotiated sale pursuant to the terms of the related securities purchase agreement, “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by
      Treasury in a registered public offering of the warrants issued by the financial institution, and “P” represents the proceeds to Treasury, before placement expenses, from a sale by Treasury in a private auction principally involving qualified institutional buyers.			
16 
   	 On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by contingent value rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of
      common shares to holders of CVRs were not met. 											
17
   	 On 12/11/2009, Treasury exchanged its series A preferred stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.				
18 
   	 On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended
      dividend rate equivalent to those of Treasury’s original investment.											
19
   	 On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.								
20 
                                                                                                                                                                                                                                                                                                                                   TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




   	 On 3/8/2010, Treasury exchanged its $84,784,000 of preferred stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and
      unpaid dividends. Subject to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21
   	On 3/30/2010, Treasury exchanged its $7,500,000 of subordinated debentures in GulfSouth Private Bank for an equivalent amount of preferred stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial
      institutions.
22
   	On 4/16/2010, Treasury exchanged its $72,000,000 of preferred stock in Independent Bank Corporation (Independent) for $74,426,000 of mandatory convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued
      and unpaid dividends. Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.								
                                                                                                                                                                                                                                                                                                                                   227
                                                                                                                                                                                                                                                                                                                            228
23
  	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see
    note 11). On April 26, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion
    of the sale). Completion of the sale under this authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period
    ending on June 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common
    stock from time to time during the period ending on September 30, 2010 (or on completion of the sale). Completion of the sale under this authority occurred on September 30, 2010. On October 19, 2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its
    sales agent, to sell subject to certain parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on December 31, 2010 (or upon completion of the sale), which plan was terminated on December 6, 2010. All such sales were generally made at the market price.
    On December 6, 2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average price per share
    and the total proceeds to Treasury from all such sales during those periods.											
24 
  	 On 8/26/2010, Treasury completed the exchange of its $303,000,000 of preferred stock in Sterling Financial Corporation (Sterling) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on
    4/29/2010. Since Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently, as of 8/26/2010, converted into 378,750,000 shares of common stock.
25
  	 On 8/20/2010, Sonoma Valley Bank, Sonoma, CA, the banking subsidiary of Sonoma Valley Bancorp, was closed by the California Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.			
26
  	On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the preferred stock and $400,000 for the warrants, pursuant to the terms of the agreement between
    Treasury and TD entered into on 5/18/2010.											
27
  	 On 6/30/2010, Treasury exchanged $46,400,000 of its series A preferred stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.						
28 
  	 On 7/20/2010, Treasury completed the exchange of its $400,000,000 of preferred stock in First BanCorp for $424,174,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and
    unpaid dividends. On 10/07/2011, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 32,941,797 shares of common stock of First BanCorp. Treasury received all accrued and previously unpaid dividends on
    the MCP at the time of the conversion. First BanCorp has agreed to have a Treasury observer attend board of directors meetings.											
29
  	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of preferred stock in Pacific Capital for $195,045,000 of mandatorily convertible preferred Stock (MCP), which is equivalent to the initial
    investment amount of $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of
    common stock of Pacific Capital. Pacific Capital has agreed to have Treasury observers attend board of directors meetings.											
30
  	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below. 	
30a
    At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.	
31 
  	 On 9/30/2010, Treasury completed the exchange of its $80,347,000 of preferred stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of mandatorily convertible preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on
    8/12/2010. Since Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock. 				
32 
  	 On 9/30/2010, Treasury completed the sale of all preferred stock and warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the preferred stock and $40,000 for the warrants, pursuant to the terms of the agreement
    between Treasury and NAFH entered into on 9/24/2010.											
33
  	On 3/4/2011, Treasury completed the sale to Community Bancorp LLC (“CBC”) of all preferred stock and warrants issued by Cadence Financial Corporation (“Cadence”) to Treasury for an aggregate purchase price of $39,014,062.50, pursuant to the terms of the agreement between Treasury and CBC
    entered into on 10/29/2010.				
34
  	On 12/3/2010, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by The Bank of Currituck (“Currituck”) to Treasury for an aggregate purchase price of $1,742,850, pursuant to the terms of the agreement between Treasury and
    Currituck entered into on 11/5/2010.											
35 
  	 Treasury entered into an agreement on 1/28/2011 with North American Financial Holdings, Inc. for the sale of all preferred stock and warrants issued by Capital Bank Corporation to Treasury for an aggregate purchase price of $41,279,000. Since the conditions to closing of the sale were satisfied, the
    closing of the sale also occurred on 1/28/2011.											
36
  	On 2/15/2011, Treasury completed the sale of all preferred stock (including the preferred stock received upon the exercise of warrants) issued by Treaty Oak Bancorp (“Treaty Oak”) to Treasury for (i) a cash payment of $500,000, (ii) the right to receive up to $150,000 in principal payments on a note
    payable by Carlile Bancshares, Inc. in favor of Treaty Oak, and (iii) a newly issued warrant to purchase 3,098,341 shares of Treaty Oak common stock, pursuant to the terms of the agreement between Treasury and Treaty Oak entered into on 2/15/2011.			
                                                                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




37
  	 On 2/18/11, Treasury completed the exchange of its $135,000,000 of preferred stock (including accrued and unpaid dividends thereon) in Central Pacific Financial Corp. for not less than 5,620,117 shares of common stock, pursuant to an exchange agreement dated 2/17/2011.		
38 
  	 On 3/9/2011, Treasury completed the sale of all subordinated debentures (including the subordinated debentures received upon the exercise of warrants) issued by FBHC Holding Company (“FBHC”) to Treasury for an aggregate purchase price of $650,000, pursuant to the terms of the agreement between
    Treasury and FBHC entered into on 3/9/2011.											
39 
  	 On 5/31/2011, Treasury completed the sale of all preferred stock and warrants issued by First Community Bank Corporation of America (FCBCA) for an aggregate purchase price of (i) $7.20 million plus (ii) 72% of the remaining cash assets after giving effect to the payment of defined acquisition expenses,
    debts, liabilities and distributions to other classes of security holders, pursuant to the terms of the agreement between Treasury and FCBCA entered into on 3/11/2011.								
    	
40
  	 40/ exchanged for a like amount of securities of the acquiror, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 3/23/2011.						
41 
  	 As a result of the acquisition of NC Bancorp, Inc. (the acquired company) by Metropolitan Bank Group, Inc. (the acquiror), Treasury exchanged $6,880,000 of its preferred stock in NC Bancorp, Inc. and $71,526,000 of its preferred stock in Metropolitan Bank Group, Inc. for $81,892,000 of a new series of
    preferred stock in Metropolitan Bank Group, Inc., which is equivalent to the combined initial investment amount of $78,406,000 plus $3,486,000 of capitalized previously accrued and unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered
    into on 3/30/2011. Exercised warrants were also exchanged at the time of the agreement.											
42
  	On 5/3/2011, Treasury completed the sale of all First Federal Bancshares of Arkansas, Inc. preferred stock and warrants held by Treasury to Bear State Financial Holdings, LLC (“Bear State”) for an aggregate purchase price of $6,000,000.00, pursuant to the terms of the agreement between Treasury and
    Bear State entered into on 05/03/2011.											
43
  	On 5/13/2011, Treasury completed the sale of all Wilmington Trust Corporation preferred stock held by Treasury to M&T Bank Corporation (“M&T”) for an aggregate purchase price of $330,000,000.00 plus accrued dividends and exchanged its Wilmington Trust Corporation warrant for an equivalent
    warrant issued by M&T Bank Corporation, pursuant to the terms of the agreement between Treasury and M&T entered into on 5/13/2011.										
    	
44 
  	 On 7/5/2011, Treasury completed a transaction with Harris Financial Corp., a wholly-owned subsidiary of Bank of Montreal (“BMO”), for the sale of (i) all Marshall & Ilsley Corporation (“M&I”) Preferred Stock held by Treasury for a purchase price of $1,715,000,000 plus accrued dividends and (ii) the Treasury-
    held M&I Warrant for an amount equal to $3,250,000, pursuant to the terms of the agreement between Treasury and BMO entered into on 05/16/2011.									
45 
  	 On 6/3/2011, Treasury completed the sale of all Whitney Holding Corporation preferred stock and the related warrant held by Treasury to Hancock Holding Company (“HHC”) for an aggregate purchase price equal to (i) the par amount of the preferred stock ($300,000,000) plus accrued and unpaid
    dividends thereon and (ii) $6,900,000 for the warrant, pursuant to the terms of the agreement between Treasury and HHC entered into on 6/3/2011.										
46
  	 On 06/22/2011, Treasury completed the sale of 2,850,000 shares of common stock at $12.590625 per share (which represents the $12.75 public offering price less underwriting discounts) for net proceeds of $35,883,281.25 pursuant to an underwriting agreement executed on 06/17/2011.
47
  	On 6/30/2011, Treasury completed the sale of all Cascade Financial Corporation preferred stock held by Treasury and the related warrant to Opus Acquisition, Inc. (“Opus”) for an aggregate purchase price of $16,250,000.00, pursuant to the terms of the agreement between Treasury and Opus entered into
    on 06/28/2011.											
49
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 using proceeds received in connection with the institution’s participation in the Small Business Lending Fund.							
50
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 - part of the repayment amount obtained from proceeds received in connection with the institution’s participation in the Small Business Lending Fund. 				
51
  	 On 11/5/2010, Pierce Commercial Bank, Tacoma, WA, the banking subsidiary of Pierce County Bancorp, was closed by the Washington Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.					
52
  	 On 11/12/2010, Tifton Banking Company, Tifton, GA, was closed by the Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
53
  	 On 3/11/2011, Legacy Bank, Milwaukee, WI, the banking subsidiary of Legacy Bancorp, Inc., was closed by the State of Wisconsin Department of Financial Institutions, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.					
54
  	 54/ On 4/15/2011, Superior Bank, Birmingham, AL, the banking subsidiary of Superior Bancorp Inc., was closed by the Office of Thrift Supervision, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.						
55
  	 On 7/15/2011, First Peoples Bank, Port Saint Lucie, Florida, the banking subsidiary of FPB Bancorp, Inc., was closed by the Florida Office of Financial Regulation, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.
56
  	 56/ On 7/15/2011, One Georgia Bank, Atlanta, GA was closed by the State of Georgia Department of Banking & Finance, and the Federal Deposit Insurance Corporation (FDIC) was named Receiver.							
57
  	 On 7/29/2011, Integra Bank, National Association, Evansville, Indiana, the banking subsidiary of Integra Bank Corporation, was closed by the Office of the Comptroller of the Currency, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.		
58
  	On 10/21/2011, Treasury completed the exchange of all FNB United Corp. (“FNB United”) preferred stock and warrants held by Treasury for 108,555,303 shares of FNB United common stock and an amended and restated warrant, pursuant to the terms of the agreement between Treasury and FNB United
    entered into on 08/12/2011.											
59
  	On 9/7/2011, Treasury completed the sale of all Green Bankshares, Inc. preferred stock held by Treasury and the related Warrant to North American Financial Holdings, Inc. (“NAFH”) for an aggregate purchase price of $68,700,000.00, pursuant to the terms of the agreement between Treasury and NAFH
    entered into on 9/6/2011.											
60
  	As a result of the acquisition of Berkshire Bancorp, Inc. (the acquired company) by Customers Bancorp, Inc. (the acquiror), the preferred stock and exercised warrants issued by the acquired company on 6/12/2009 were exchanged for a like amount of securities of the acquiror plus accrued and previously
    unpaid dividends, pursuant to the terms of an agreement among Treasury, the acquired company and the acquiror entered into on 9/16/2011.										
61
  	 On 9/23/2011, Citizens Bank of Northern California, Nevada City, California, the banking subsidiary of Citizens Bancorp, was closed by the California Department of Financial Institutions, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.				
62
  	 Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009 in connection with the institution’s participation in the Small Business Lending Fund, which occurred at a later date.						
63
  	 On 10/14/2011, Country Bank, Aledo, Illinois, the banking subsidiary of CB Holding Corp., was closed by the Illinois Department of Financial and Professional Regulation - Division of Banking, which appointed the Federal Deposit Insurance Corporation (FDIC) as receiver.		
64
  	On 10/21/2011, Treasury completed the sale of all Santa Lucia Bancorp preferred stock and warrants held by Treasury to CCI One Acquisition Corporation (“CCI”) for an aggregate purchase price of $2,800,000.00, pursuant to the terms of the agreement between Treasury and CCI entered into on
    10/20/2011.											
65 
  	 As a result of a reincorporation transaction whereby Crescent Financial Corporation (CFC) was merged into Crescent Financial Bancshares, Inc. (CFB), the preferred stock and warrant issued by CFC on 1/9/2009 were exchanged for a like amount of securities of CFB, pursuant to the terms of an agreement
    among Treasury, CFC and CFB entered into on 11/15/2011.											
66
  	As a result of the acquisition of Center Financial Corporation by BBCN Bancorp, Inc. (formerly Nara Bancorp, Inc.), the preferred stock and warrant issued by Center Financial Corporation were exchanged for a like amount of securities of BBCN Bancorp, Inc., pursuant to the terms of an agreement among
    Treasury, Center Financial Corporation, and BBCN Bancorp, Inc. entered into on 11/30/2011.											
67
  	In connection with the merger of Parkvale Financial Corporation (“Parkvale”) and F.N.B. Corporation (“F.N.B.”) effective 01/01/2012, Treasury entered into an agreement with F.N.B. on 12/29/2011 to (i) sell to F.N.B. all of the preferred stock that had been issued by Parkvale to Treasury for a purchase price
    of $31,762,000 plus accrued dividends and (ii) exchange the Parkvale warrant held by Treasury for a like F.N.B. warrant. The sale and exchange is subject to the fulfillment by F.N.B. of certain closing conditions.						

a
   ccording to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” It appears that
  A
  Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 6/30/2011.						
b
  According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”										
c
  Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.				
d
  Warrants Sold to 3rd Party in QFI Sale.										
e
  Warrants Sold back to Original QFI.										
f
  Warrants sold into marketplace via Auction.
g
  Decrease Shares due to 1 for 15 Reverse Stock Split.
h
  Warrants increased via Stock Dividend.
i
  Warrants increased via Cash Dividend.
j
  Warrants Sold to 3rd Party in QFI Sale, QFI had Stock Dividends.
k
  Warrants Sold back to Original QFI, QFI had Stock Dividend Adjustments.
l
  Warrants sold to winning bidder in a Private Auction.
m
  Warrants sold to winning bidder in a Private Auction, QFI had QEO.
n
  Warrants sold to winning bidder in a Private Auction, QFI had Cash Dividend Adjustments.
o
  Warrants sold to winning bidder in a Private Auction, QFI had Stock Dividends.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, responses to SIGTARP data call, 1/11/2012; Bloomberg, LP accessed 1/12/2012.


TABLE D.2

        CPP — CITIGROUP, INC. COMMON STOCK DISPOSITION, AS OF 12/31/2011
        Note   Date                                       Pricing Mechanism6                 Number of Shares                                              Proceeds7
        1      4/26/2010 – 5/26/2010                                       $4.12                  1,500,000,000                                      $6,182,493,158
        2      5/26/2010 – 6/30/2010                                       $3.90                  1,108,971,857                                      $4,322,726,825
        3      7/23/2010 – 9/30/2010                                       $3.91                  1,500,000,000                                      $5,863,489,587
        4      10/19/2010 – 12/6/2010                                      $4.26                  1,165,928,228                                      $4,967,921,811
        5      12/6/10                                                     $4.35                  2,417,407,607                                    $10,515,723,090
                                                                                                 Total Proceeds                                   $31,852,354,471
    Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes taken verbatim from 1/4/2012 Transactions Report.

    1
       n 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
      O
      parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale).
      Completion of the sale under this authority occurred on 5/26/2010.
    2
      On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
       shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this
       authority occurred on 6/30/2010.
    3
       On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
        parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale).
        Completion of the sale under this authority occurred on 9/30/2010.
    4
        On 10/19/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain
         parameters up to 1,500,000,000 shares of common stock from time to time during the period ending on 12/31/2010 (or upon completion of the sale),
         which plan was terminated on 12/6/2010.
    5
         On 12/6/2010, Treasury commenced an underwritten public offering of its remaining 2,417,407,607 shares. Closing of the offering is subject to the
          fulfillment of certain closing conditions.
    6
          The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
    7
          Amount represents the gross proceeds to Treasury.

    Source: Treasury, Transactions Report, 1/4/2012.
                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                               229
TABLE D.3                                                                                                                                                                                                                              230

CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011
                                                  Seller                                                           Purchase Details                                                    Disposition Details

                                                                                                                                        Additional    Investment      Pricing                    Remaining        Dividend/Interest
Note   Purchase Date   Name of Institution                                       Investment Description    Amount from CPP             Investment        Amount    Mechanism    Date     Investment Amount        Paid to Treasurya

       9/24/2010       Alternatives Federal Credit Union, Ithaca, NY             Subordinated Debentures                —                      —      $2,234,000          Par                                              $51,010
       9/17/2010       American Bancorp of Illinois, Inc., Oak Brook, IL         Subordinated Debentures                —                      —      $5,457,000          Par                                             $196,422
       9/24/2010       Atlantic City Federal Credit Union, Lander, WY            Subordinated Debentures                —                      —      $2,500,000          Par                                              $57,083
       9/24/2010       Bainbridge Bancshares, Inc., Bainbridge GA                Preferred Stock                        —                      —      $3,372,000          Par                                              $76,994
       9/29/2010       Bancorp of Okolona, Inc., Okolona, MS                     Subordinated Debentures                —                      —      $3,297,000          Par                                             $115,267
1, 2   9/29/2010       BancPlus Corporation, Ridgeland MS                        Preferred Stock               $50,400,000            $30,514,000    $80,914,000          Par                                           $1,825,060
       9/29/2010       BankAsiana, Palisades Park, NJ                            Preferred Stock                        —                      —      $5,250,000          Par                                             $118,417
       9/29/2010       Bethex Federal Credit Union, Bronx, NY                    Subordinated Debentures                —                      —       $502,000           Par                                              $11,323
       9/29/2010       Border Federal Credit Union, Del Rio, TX                  Subordinated Debentures                —                      —      $3,260,000          Par                                              $73,531
       9/24/2010       Brewery Credit Union, Milwaukee, WI                       Subordinated Debentures                —                      —      $1,096,000          Par                                              $25,025
       9/30/2010       Brooklyn Cooperative Federal Credit Union, Brooklyn, NY   Subordinated Debentures                —                      —       $300,000           Par                                               $6,750
       9/24/2010       Buffalo Cooperative Federal Credit Union, Buffalo, NY     Subordinated Debentures                —                      —       $145,000           Par                                               $3,311
       9/24/2010       Butte Federal Credit Union, Biggs, CA                     Subordinated Debentures                —                      —      $1,000,000          Par                                              $22,833
       9/29/2010       Carter Federal Credit Union, Springhill, LA               Subordinated Debentures                —                      —      $6,300,000          Par                                             $142,100
                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




1, 3   8/27/2010       Carver Bancorp, Inc, New York, NY                         Preferred Stock               $18,980,000                     —     $18,980,000          Par                                             $446,507
       9/17/2010       CFBanc Corporation, Washington, DC                        Preferred Stock                        —                      —      $5,781,000          Par                                             $134,248
1      8/13/2010                                                                 Preferred Stock                $7,462,000                     —                          Par
                       Citizens Bancshares Corporation, Atlanta, GA                                                                                  $11,841,000                                                          $289,069
2a     9/17/2010                                                                 Preferred Stock                        —              $4,379,000                         Par
1      9/29/2010       Community Bancshares of Mississippi, Inc., Brandon, MS    Preferred Stock               $54,600,000                     —     $54,600,000          Par                                           $1,231,533
1, 2   9/29/2010       Community Bank of the Bay, Oakland, CA                    Preferred Stock                $1,747,000             $2,313,000     $4,060,000          Par                                              $91,576
                       Community First Guam Federal Credit Union, Hagatna,
       9/24/2010                                                                 Subordinated Debentures                —                      —      $2,650,000          Par                                              $60,508
                       GU
       9/29/2010       Community Plus Federal Credit Union, Rantoul, IL          Subordinated Debentures                —                      —       $450,000           Par                                              $10,150
       9/24/2010       Cooperative Center Federal Credit Union, Berkeley, CA     Subordinated Debentures                —                      —      $2,799,000          Par                                              $63,911
       9/29/2010       D.C. Federal Credit Union, Washington, DC                 Subordinated Debentures                —                      —      $1,522,000          Par                                              $34,330
                       East End Baptist Tabernacle Federal Credit Union,
       9/29/2010                                                                 Subordinated Debentures                —                      —         $7,000           Par                                                 $158
                       Bridgeport, CT
                       Episcopal Community Federal Credit Union,
       9/29/2010                                                                 Subordinated Debentures                —                      —       $100,000           Par                                               $2,256
                       Los Angeles, CA
       9/24/2010       Fairfax County Federal Credit Union, Fairfax, VA          Subordinated Debentures                —                      —      $8,044,000          Par                                             $183,671
       9/29/2010       Faith Based Federal Credit Union, Vernon, CA              Subordinated Debentures                —                      —        $30,000           Par                                                 $677
       9/29/2010       Fidelis Federal Credit Union, Fairfax, VA                 Subordinated Debentures                —                      —        $14,000           Par                                                 $316
1      8/13/2010       First American International Corp., Brooklyn, NY          Preferred Stock               $17,000,000                     —     $17,000,000          Par                                             $171,889
1      9/24/2010       First Choice Bank, Cerritos, CA                           Preferred Stock                $5,146,000                     —      $5,146,000          Par                                             $117,500
1      9/17/2010       First Eagle Bancshares, Inc., Hanover Park, IL            Subordinated Debentures        $7,875,000                     —      $7,875,000          Par                                             $283,456
       9/29/2010       First Legacy Community Credit Union, Charlotte, NC        Subordinated Debentures                —                      —      $1,000,000          Par                                              $22,556
1      9/29/2010       First M&F Corporation, Kosciusko, MS                      Preferred Stock               $30,000,000                     —     $30,000,000          Par                                             $676,667
1      9/29/2010       First Vernon Bancshares, Inc., Vernon, AL                 Preferred Stock                $6,245,000                     —      $6,245,000          Par                                              $15,959
       9/29/2010       Freedom First Federal Credit Union, Roanoke, VA           Subordinated Debentures                —                      —      $9,278,000          Par                                             $209,270
       9/24/2010       Gateway Community Federal Credit Union, Missoula, MT      Subordinated Debentures                —                      —      $1,657,000          Par                                              $37,835
       9/17/2010       Genesee Co-op Federal Credit Union, Rochester, NY         Subordinated Debentures                —                      —       $300,000           Par                                               $6,967
       9/29/2010       Greater Kinston Credit Union, Kinston, NC                 Subordinated Debentures                —                      —       $350,000           Par                                               $7,894
1      7/30/2010       Guaranty Capital Corporation, Belzoni, MS                 Subordinated Debentures       $14,000,000                     —     $14,000,000          Par                                             $560,583
       9/29/2010       Hill District Federal Credit Union, Pittsburgh, PA        Subordinated Debentures                —                      —       $100,000           Par                                               $2,256
       9/17/2010       Hope Federal Credit Union, Jackson, MS                    Subordinated Debentures                —                      —      $4,520,000          Par                                             $104,964

                                                                                                                                                                                                             Continued on next page.
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011                                                            (CONTINUED)

                                                 Seller                                                                 Purchase Details                                                      Disposition Details

                                                                                                                                             Additional    Investment      Pricing                  Remaining            Dividend/Interest
Note   Purchase Date   Name of Institution                                         Investment Description       Amount from CPP             Investment        Amount    Mechanism    Date   Investment Amount            Paid to Treasurya

1, 2   9/10/2010       IBC Bancorp, Inc., Chicago, IL                              Subordinated Debentures           $4,205,000             $3,881,000     $8,086,000          Par                                               $295,925
1      9/3/2010        IBW Financial Corporation, Washington, DC                   Preferred Stock                   $6,000,000                     —      $6,000,000          Par                                               $144,000
                       Independent Employers Group Federal Credit Union,
       9/29/2010                                                                   Subordinated Debentures                   —                      —       $698,000           Par                                                $15,744
                       Hilo, HI
       9/3/2010        Kilmichael Bancorp, Inc., Kilmichael, MS                    Subordinated Debentures                   —                      —      $3,154,000          Par                                               $117,329
1      9/29/2010       Lafayette Bancorp, Inc., Oxford, MS                         Preferred Stock                   $4,551,000                     —      $4,551,000          Par                                               $102,650
       9/24/2010       Liberty County Teachers Federal Credit Union, Liberty, TX   Subordinated Debentures                   —                      —       $435,000           Par                                                 $9,933
1, 2   9/24/2010       Liberty Financial Services, Inc., New Orleans, LA           Preferred Stock                   $5,645,000             $5,689,000    $11,334,000          Par                                               $258,793
                       Lower East Side People’s Federal Credit Union,
       9/24/2010                                                                   Subordinated Debentures                   —                      —       $898,000           Par                                                $20,504
                       New York, NY
1      8/20/2010       M&F Bancorp, Inc., Durham, NC                               Preferred Stock                  $11,735,000                     —     $11,735,000          Par                                               $290,115
1      8/20/2010                                                                   Preferred Stock                   $5,500,000                     —                          Par
                       Mission Valley Bancorp, Sun Valley, CA                                                                                             $10,336,000                                                            $246,394
2a     9/24/2010                                                                   Preferred Stock                           —              $4,836,000                         Par
       9/24/2010       Neighborhood Trust Federal Credit Union, New York, NY       Subordinated Debentures                   —                      —       $283,000           Par                                                 $6,462
       9/29/2010       North Side Community Federal Credit Union, Chicago, IL      Subordinated Debentures                   —                      —       $325,000           Par                                                 $7,331
                       Northeast Community Federal Credit Union,
       9/24/2010                                                                   Subordinated Debentures                   —                      —       $350,000           Par                                                 $7,992
                       San Francisco, CA
       9/29/2010       Opportunities Credit Union, Burlington, VT                  Subordinated Debentures                   —                      —      $1,091,000          Par                                                $24,608
1      8/13/2010       PGB Holdings, Inc., Chicago, IL                             Preferred Stock                   $3,000,000                     —      $3,000,000          Par                                                $30,333
       9/24/2010       Phenix Pride Federal Credit Union, Phenix City, AL          Subordinated Debentures                   —                      —       $153,000           Par                                                 $3,494
1      8/13/2010       Premier Bancorp, Inc., Wilmette, IL                         Subordinated Debentures           $6,784,000                     —      $6,784,000          Par                                                      —
       9/24/2010       Prince Kuhio Federal Credit Union, Honolulu, HI             Subordinated Debentures                   —                      —       $273,000           Par                                                 $6,234
1      9/29/2010       PSB Financial Corporation, Many, LA                         Preferred Stock                   $9,734,000                     —      $9,734,000          Par                                               $219,556
       9/24/2010       Pyramid Federal Credit Union, Tucson, AZ                    Subordinated Debentures                   —                      —      $2,500,000          Par                                                $57,083
                       Renaissance Community Development Credit Union,
       9/29/2010                                                                   Subordinated Debentures                   —                      —        $31,000           Par                                                   $699
                       Somerset, NJ
       9/24/2010       Santa Cruz Community Credit Union, Santa Cruz, CA           Subordinated Debentures                   —                      —      $2,828,000          Par                                                $64,573
1      9/29/2010       Security Capital Corporation, Batesville, MS                Preferred Stock                  $17,910,000                     —     $17,910,000          Par                                               $403,970
1, 2   9/29/2010       Security Federal Corporation, Aiken, SC                     Preferred Stock                  $18,000,000             $4,000,000    $22,000,000          Par                                               $496,222
       9/29/2010       Shreveport Federal Credit Union, Shreveport, LA             Subordinated Debentures                   —                      —      $2,646,000          Par                                                $59,682
1, 2   8/6/2010        Southern Bancorp, Inc., Arkadelphia, AR                     Preferred Stock                  $11,000,000            $22,800,000    $33,800,000          Par                                               $861,900
       9/29/2010       Southern Chautauqua Federal Credit Union, Lakewood, NY      Subordinated Debentures                   —                      —      $1,709,000          Par                                                $38,547
       9/29/2010       Southside Credit Union, San Antonio, TX                     Subordinated Debentures                   —                      —      $1,100,000          Par                                                $24,811
1      9/29/2010       State Capital Corporation, Greenwood, MS                    Preferred Stock                  $15,750,000                     —     $15,750,000          Par                                               $355,250
1, 2   9/29/2010       The First Bancshares, Inc., Hattiesburg, MS                 Preferred Stock                   $5,000,000            $12,123,000    $17,123,000          Par                                               $386,219
       9/29/2010       The Magnolia State Corporation, Bay Springs, MS             Subordinated Debentures                   —                      —      $7,922,000          Par                                               $276,962
                       Thurston Union of Low-Income People (TULIP)
       9/24/2010                                                                   Subordinated Debentures                   —                      —        $75,000           Par                                                 $1,713
                       Cooperative Credit Union, Olympia, WA
       9/24/2010       Tongass Federal Credit Union, Ketchikan, AK                 Subordinated Debentures                   —                      —      $1,600,000          Par                                                $36,533
1      8/13/2010       Tri-State Bank of Memphis, Memphis, TN                      Preferred Stock                   $2,795,000                     —      $2,795,000          Par                                                $70,186
       9/24/2010       Tulane-Loyola Federal Credit Union, New Orleans, LA         Subordinated Debentures                   —                      —       $424,000           Par                                                 $9,681
                       Union Baptist Church Federal Credit Union,
       9/24/2010                                                                   Subordinated Debentures                   —                      —        $10,000           Par                                                   $228
                       Fort Wayne, IN
       9/29/2010       Union Settlement Federal Credit Union, New York, NY         Subordinated Debentures                   —                      —       $295,000           Par                                                 $6,654
1      9/3/2010        United Bancorporation of Alabama, Inc., Atmore, AL          Preferred Stock                  $10,300,000                     —     $10,300,000          Par                                               $247,200
                       UNITEHERE Federal Credit Union (Workers United
       9/29/2010                                                                   Subordinated Debentures                   —                      —        $57,000           Par                                                 $1,001
                       Federal Credit Union), New York, NY
1, 2   7/30/2010       University Financial Corp, Inc., St. Paul, MN               Subordinated Debentures          $11,926,000            $10,189,000    $22,115,000          Par                                               $885,521

                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                              231
CDCI PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011                                                                      (CONTINUED)                                                                                                                                                  232

                                                          Seller                                                                    Purchase Details                                                                                  Disposition Details

                                                                                                                                                           Additional              Investment         Pricing                              Remaining            Dividend/Interest
Note       Purchase Date        Name of Institution                                        Investment Description         Amount from CPP                 Investment                  Amount       Mechanism              Date     Investment Amount            Paid to Treasurya

           9/24/2010            UNO Federal Credit Union, New Orleans, LA                  Subordinated Debentures                       —                        —                 $743,000               Par                                                           $16,965
           9/29/2010            Vigo County Federal Credit Union, Terre Haute, IN          Subordinated Debentures                       —                        —               $1,229,000               Par                                                           $27,721
           9/24/2010            Virginia Community Capital, Inc., Christiansburg, VA       Subordinated Debentures                       —                        —               $1,915,000               Par                                                           $43,726
                                                                                                                                                                                                                 Total Capital
                                                                                                                                             Total Purchase Amount            $570,073,000                        Repayment                           —
                                                                                                                                                                                                                      Amount
                                                                                           TOTAL TREASURY COMMUNITY DEVELOPMENT INITIATIVE (CDCI) INVESTMENT AMOUNT                                                                    $570,073,000


Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
 	 This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
 	 Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
  	Treasury made an additional investment in this institution after the time it entered the CDCI program.
3
 	On 10/28/2011, Treasury completed the exchange of all Carver Bancorp, Inc. (“Carver”) preferred stock held by Treasury for 2,321,286 shares of Carver common stock, pursuant to the terms of the agreement between Treasury and Carver entered into on 06/29/2011. Accrued and
   previously unpaid dividends were paid on the date of the exchange.

Source: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012.
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012
TABLE D.4

AIFP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                                                               Treasury Investment After Exchange/
                                               Initial Investment                                           Exchange/Transfer/Other Details                    Transfer/Other                                                                       Payment or Disposition1
                                                                                                                                                                                                                                                                                   Remaining
                           Trans-                                                                                                                                                                                                                             Remaining           Investment      Dividend/
                           action                                                                                                                                                                       Amount/                                      Amount/ Investment             Amount/ Interest Paid to
              Date         Type       Seller       Description                     Amount Note           Date                  Type             Amount Note Obligor          Note Description           Equity %         Date          Type          Proceeds Description           Equity %       Treasury
                                                                                                                       Exchange for
                                                   Preferred Stock w/                                                                                                                Convertible
              12/29/2008 Purchase     GMAC                                  $5,000,000,000         12/30/2009   convertible preferred    $5,000,000,000        GMAC          21,
                                                   Exercised Warrants                                                                                                                 Preferred $5,937,500,000
                                                                                                                                stock                          (Ally)        22
                                                                                                                                                                                         Stock
                                                   Convertible Preferred                                        Partial conversion of
              5/21/2009    Purchase   GMAC         Stock w/ Exercised       $7,500,000,000   22    12/30/2009    preferred stock for     $3,000,000,000
GMAC                                               Warrants                                                           common stock
(Ally),                                                                                                                                                        GMAC                   Common                                                                                                   $2,603,721,882
                                                   Convertible Preferred                                        Partial conversion of                                        3, 26                        73.8%
Detroit, MI                                                                                  22,                                                               (Ally)                   Stock
              12/30/2009 Purchase     GMAC         Stock w/ Exercised       $1,250,000,000         12/30/2010    preferred stock for     $5,500,000,000   26
                                                                                             26
                                                   Warrants                                                           common stock
                                                                                                                        Exchange for
                                                   Trust Preferred                                                                                                                       Trust
                                                                                                                       amended and                             GMAC
              12/30/2009 Purchase     GMAC         Securities w/            $2,540,000,000           3/1/2011                            $2,670,000,000   27                  27     Preferred    $2,670,000,000     3/2/2011   Disposition28   $2,667,000,000         N/A              $—
                                                                                                                       restated Trust                          (Ally)
                                                   Exercised Warrants                                                                                                                Securities
                                                                                                                 Preferred Securities
                                    General
                                                                                                                Exchange for equity
              12/29/2008   Purchase Motors          Debt Obligation          $884,024,131    2      5/29/2009                             $884,024,131    3
                                                                                                                   interest in GMAC
                                    Corporation
                                                                                                                     Exchange for
                                    General
                                                    Debt Obligation w/                                               preferred and
              12/31/2008   Purchase Motors                                 $13,400,000,000          7/10/2009                           $13,400,000,000   7
                                                    Additional Note                                               common stock in
                                    Corporation
                                                                                                                          New GM
                                                                                                                     Exchange for
                                    General                                                                                                                    General       10,
                                                    Debt Obligation w/                                               preferred and                                                   Preferred
              4/22/2009    Purchase Motors                                  $2,000,000,000   4      7/10/2009                            $2,000,000,000   7    Motors        11,                  $2,100,000,000   12/15/2010    Repayment      $2,139,406,778         N/A              $—
                                                    Additional Note                                               common stock in                                                       Stock
                                    Corporation                                                                                                                Company       24
                                                                                                                          New GM

                                                                                                                     Exchange for                                                                                                     Partial                     Common
                                    General                                                                                                                    General       10,                                   11/18/2010                 $11,743,303,903                         36.9%
                                                    Debt Obligation w/                                               preferred and                                                    Common                                    Disposition25                       Stock
              5/20/2009    Purchase Motors                                  $4,000,000,000   5      7/10/2009                            $4,000,000,000   7    Motors        11,                          60.8%
                                                    Additional Note                                               common stock in                                                       Stock                                         Partial                     Common
                                    Corporation                                                                                                                Company       25                                    11/26/2010                   $1,761,495,577                       32.04%
                                                                                                                          New GM                                                                                                Disposition25                       Stock
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                    7/10/2009                    $360,624,198                 $6,711,864,407
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
General                                                                                                                                                                                                            12/18/2009                   $1,000,000,000                $5,711,864,407
                                                                                                                     Exchange for                              General                                                           Repayment                       Obligation
Motors,bc                           General                                                                                                                                                                                                                                                     $756,714,508
                                                    Debt Obligation w/                                               preferred and                             Motors        11,          Debt
Detroit, MI   5/27/2009    Purchase Motors                                   $360,624,198    6      7/10/2009                             $360,624,198    7                                       $7,072,488,605                     Partial                          Debt
                                                    Additional Note                                               common stock in                              Holdings      12      Obligation                     1/21/2010                     $35,084,421                 $5,676,779,986
                                    Corporation                                                                                                                                                                                  Repayment                       Obligation
                                                                                                                          New GM                               LLC
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                    3/31/2010                   $1,000,000,000                $4,676,779,986
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                    4/20/2010    Repayment      $4,676,779,986         N/A              $—
                                                                                                                     Exchange for
                                    General
                                                    Debt Obligation w/                                               preferred and
              6/3/2009     Purchase Motors                                 $30,100,000,000   8      7/10/2009                           $22,041,706,310   9
                                                    Additional Note                                               common stock in
                                    Corporation
                                                                                                                          New GM
                                                                                                                 Transfer of debt to
                                                                                                    7/10/2009                            $7,072,488,605   9
                                                                                                                           New GM
                                                                                                                                                               Motors
                                                                                                                                                                                          Debt                                       Partial                          Debt
                                                                                                    7/10/2009   Debt left at Old GM       $985,805,085    9    Liquidation    29                   $985,805,085     3/31/2011                     $50,000,000                  $935,805,085
                                                                                                                                                                                     Obligation                                  Repayment                       Obligation
                                                                                                                                                               Company
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                     4/5/2011                     $45,000,000                  $890,805,085
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                     5/3/2011                     $15,887,795                  $874,917,290
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                   12/16/2011                        $144,444                  $874,772,846
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                     Partial                          Debt
                                                                                                                                                                                                                   12/23/2011                     $18,890,294                  $855,882,552
                                                                                                                                                                                                                                 Repayment                       Obligation
                                                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                                                 233
AIFP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)                                                                                                                                                                                                         234
                                                                                                                                                              Treasury Investment After Exchange/
                                               Initial Investment                                            Exchange/Transfer/Other Details                  Transfer/Other                                                                       Payment or Disposition1
                                                                                                                                                                                                                                                                                   Remaining
                         Trans-                                                                                                                                                                                                                              Remaining            Investment      Dividend/
                         action                                                                                                                                                                        Amount/                                      Amount/ Investment              Amount/ Interest Paid to
             Date        Type       Seller         Description                    Amount Note           Date                  Type            Amount Note Obligor           Note Description           Equity %         Date          Type          Proceeds Description            Equity %       Treasury
                                                                                                                                                                                                                                                                     Debt
                                                                                                                                                                                                                                                                Obligation
                                    Chrysler        Debt Obligation w/                                                                                                                                                              Partial
             1/16/2009   Purchase                                          $1,500,000,000    13                                                                                                                    3/17/2009                      $3,499,055            w/    $1,496,500,945
                                    FinCo           Additional Note                                                                                                                                                             Repayment
                                                                                                                                                                                                                                                                Additional
                                                                                                                                                                                                                                                                     Note
                                                                                                                                                                                                                                                                     Debt
                                                                                                                                                                                                                                                                Obligation
                                                                                                                                                                                                                                    Partial
                                                                                                                                                                                                                   4/17/2009                     $31,810,122            w/    $1,464,690,823
                                                                                                                                                                                                                                Repayment
                                                                                                                                                                                                                                                                Additional
                                                                                                                                                                                                                                                                     Note
Chrysler                                                                                                                                                                                                                                                             Debt
FinCo,                                                                                                                                                                                                                                                          Obligation
                                                                                                                                                                                                                                    Partial                                                       $7,405,894
Farmington                                                                                                                                                                                                         5/18/2009                     $51,136,084            w/    $1,413,554,739
Hills, MI                                                                                                                                                                                                                       Repayment
                                                                                                                                                                                                                                                                Additional
                                                                                                                                                                                                                                                                     Note
                                                                                                                                                                                                                                                                     Debt
                                                                                                                                                                                                                                                                Obligation
                                                                                                                                                                                                                                    Partial
                                                                                                                                                                                                                   6/17/2009                     $44,357,710            w/    $1,369,197,029
                                                                                                                                                                                                                                Repayment
                                                                                                                                                                                                                                                                Additional
                                                                                                                                                                                                                                                                     Note
                                                                                                                                                                                                                                                                 Additional
                                                                                                                                                                                                                   7/14/2009    Repayment      $1,369,197,029                           $—
                                                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                                                                                                                                                                      Note
                                                                                                                                                                                                                   7/14/2009   Repayment*        $15,000,000          N/A               $—
                                                                                                                                                                                         Debt
                                                                                                                                                                                                                                Termination
                                                                                                                                                                                    obligation
                                    Chrysler        Debt Obligation w/                                          Transfer of debt to                           Chrysler                                                                  and
             1/2/2009    Purchase                                          $4,000,000,000         6/10/2009                             $500,000,000     19                  20             w/   $3,500,000,000    5/14/2010                   $1,900,000,000         N/A               $—
                                    Holding         Additional Note                                                  New Chrysler                             Holding                                                            settlement
                                                                                                                                                                                    additional
                                                                                                                                                                                                                                 payment20
                                                                                                                                                                                         note
                                    Chrysler        Debt Obligation w/
             4/29/2009   Purchase                                                    $—      14
                                    Holding         Additional Note
                                  Chrysler          Debt Obligation w/
             4/29/2009   Purchase                                           $280,130,642     15                                                                                                                    7/10/2009    Repayment       $280,130,642          N/A               $—
                                  Holding           Additional Note
                                                                                                                       Completion
                                                                                                                    of bankruptcy                             Old Carco              Right to                                     Proceeds                        Right to
                                                    Debt Obligation w/
             5/1/2009    Purchase Old Chrysler                             $1,888,153,580    16   4/30/2010 proceeding; transfer      ($1,888,153,580)   23   Liquidation    23       recover              N/A     5/10/2010   from sale of      $30,544,528       recover              N/A
                                                    Additional Note
                                                                                                            of collateral security                            Trust                 proceeds                                      collateral                     proceeds
                                                                                                               to liquidation trust
                                                                                                                                                                                                                                  Proceeds                        Right to
                                                    Debt Obligation w/
             5/20/2009   Purchase Old Chrysler                                       $—      17                                                                                                                     9/9/2010   from sale of       $9,666,784       recover              N/A
                                                    Additional Note
                                                                                                                                                                                                                                  collateral                     proceeds
        c
Chrysler ,
Auburn                                                                                                                                                                                                                            Proceeds                        Right to                     $1,171,263,942
Hills, MI                                                                                                                                                                                                         12/29/2010   from sale of       $7,844,409       recover              N/A
                                                                                                                                                                                                                                  collateral                     proceeds
                                                                                                                                                                                         Debt
                                                                                                                                                                                    obligation
                                               Debt Obligation w/
                                                                                                                                                              Chrysler                      w/
                                               Additional Note,                                             Issuance of equity in                                           19,                                                Repayment -
             5/27/2009   Purchase New Chrysler                             $6,642,000,000    18   6/10/2009                                       $—          Group                 additional   $7,142,000,000    5/24/2011                   $5,076,460,000
                                               Zero Coupon Note,                                                   New Chrysler                                             31                                                    Principal
                                                                                                                                                              LLC                 note & zero
                                               Equity
                                                                                                                                                                                      coupon
                                                                                                                                                                                         note
                                                                                                                                                                                                                                                                      N/A               $—
                                                                                                                                                                                                                               Repayment*
                                                                                                                                                                                                                   5/24/2011    - Additional    $288,000,000
                                                                                                                                                                                                                                       Note
                                                                                                                                                                                                                               Repayment*
                                                                                                                                                                                                                   5/24/2011         - Zero     $100,000,000
                                                                                                                                                                                                                               Coupon Note
                                                                                                                                                              Chrysler
                                                                                                                                                                                    Common
                                                                                                                                                              Group          30                           6.6%     7/21/2011    Disposition     $560,000,000          N/A               $—
                                                                                                                                                                                      equity
                                                                                                                                                              LLC
                                                                                                                                                                                                                  Additional Proceeds*          $403,000,000
                                    Total Initial Investment Amount      $81,344,932,551                                                                                                                                Total Payments          $34,878,263,759.09
                                                                                                                                                                                                       Total Treasury Investment Amount         $40,932,009,949.95
Number may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

GMAC refers to GMAC Inc., formerly known as GMAC LLC., and now known as Ally Financial, Inc. (“Ally”).
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC”.
“Old Chrysler” refers to Old Carco LLC (fka Chrysler LLC).
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
1
 	 Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
 	 Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
 	Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
      marked by orange line in the table above and footnote 22.)
4
 	 This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
 	 This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
 	This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by Old GM . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed
      by the new GM, as explained in footnote 10.
7
 	 On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
 	Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/09/2009, $30.1 billion of funds had been
      disbursed by Treasury.
9
 	On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
      separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
  	In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
  	Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company”
      on an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
  	Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
  	The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
  	This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
  	The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
  	This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of
      6/30/2009, Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrysler DIP Loan.
17
  	This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had
      terminated.
18
  	This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion.
      The total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new
      Chrysler was completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
  	Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
  	Under loan agreement, as amended on 7/23/2009, Treasury was entitled to proceeds Chrysler Holdco received from Chrysler FinCo equal to the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo. Pursuant to a termination agreement dated 5/14/2010, Treasury agreed to accept a settlement payment
      of $1.9 billion as satisfaction in full of all existing debt obligations (including additional notes and accrued and unpaid interest) of Chrysler Holdco, and upon receipt of such payment to terminate all such obligations.
21
  	Amount of the Treasury investment exchange includes the exercised warrants from Treasury’s initial investments.
22
  	Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23	
      On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a
       liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
24
  	On October 27, 2010, Treasury accepted an offer by General Motors Company (GM) to repurchase all of the approximately $2.1 billion preferred stock at a price per share of $25.50, which is equal to 102% of the liquidation preference, subject to the closing of the proposed initial public offering of GM’s common stock. The
       repurchase was completed on 12/15/2010.
25
  	On 11/17/2010, Treasury agreed to sell 358,546,795 shares of common stock at $32.7525 per share (which represents the $33 public sale price less underwriting discounts and fees) pursuant to an underwriting agreement. Following settlement, the net proceeds to Treasury were $11,743,303,903. On 11/26/2010,
       the underwriters exercised their option to purchase an additional 53,782,019 shares of common stock from Treasury at the same purchase price resulting in additional proceeds of $1,761,495,577. Treasury’s aggregate net proceeds from the sale of common stock pursuant to the underwriting agreement total
       $13,504,799,480.
26
    On 12/30/2010, Treasury converted $5,500,000,000 of the total convertible preferred stock then outstanding and held by Treasury (including exercised warrants) into 531,850 shares of common stock of Ally. Following this conversion, Treasury holds $5,937,500,000 of convertible preferred stock.
27
    On 3/1/2011, Treasury entered into an agreement with Ally Financial, Inc. (Ally) and certain other parties to amend and restate the $2,667,000,000 in aggregate liquidation preference of its Ally trust preferred securities so to facilitate a public underwritten offering. At the time of amendment and restatement, Treasury
     received all outstanding accrued and unpaid dividends and a distribution fee of $28,170,000.
28
  	On 3/2/2011, Treasury entered into an underwritten offering for all of its Ally trust preferred securities, the proceeds of which were $2,638,830,000, which together with the distribution fee referred to in footnote 27, provided total disposition proceeds to Treasury of $2,667,000,000. This amount does not include the
       accumulated and unpaid dividends on the trust preferred securities from the date of the amendment and restatement through but excluding the closing date that Treasury will receive separately at settlement.
29
  	On March 31, 2011, the Plan of Liquidation for Motors Liquidation Company (Old GM) became effective, Treasury’s $986 million loan to Old GM was converted to an administrative claim and the assets remaining with Old GM, including Treasury’s liens on certain collateral and other rights attached to the loan, were
       transferred to liquidation trusts. Under the Plan of Liquidation, Treasury retained the right to recover additional proceeds; however, any additional recovery is dependent on actual liquidation proceeds and pending litigation.
30
  	In June 2009, Treasury provided a $6.6 billion loan commitment to Chrysler Group LLC and received a 9.9 percent equity ownership in Chrysler Group LLC (Chrysler). In January and April 2011, Chrysler met the first and second of three performance related milestones. As a result, Fiat’s ownership automatically increased
       from 20% to 30%, and Treasury’s ownership was reduced to 8.6%. On May 24, 2011, Fiat, through the exercise of an equity call option, purchased an incremental 16% fully diluted ownership interest in Chrysler for $1.268 billion, reducing Treasury’s ownership to 6.6% (or 6.0% on a fully diluted basis). On July 21, 2011,
       Fiat, through the exercise of an equity call option, purchased Treasury’s ownership interest for $500 million. In addition, Fiat paid $60 million to Treasury for its rights under an agreement with the UAW retirement trust pertaining to the trust’s shares in Chrysler.
31
  	On May 24, 2011, Chrysler Group LLC terminated its ability to draw on the remaining $2.066 billion outstanding under this loan facility.
32
     On November 1, 2011, Treasury received a $201,345.42 pro rata tax distribution in its common stock from Ally Financial, Inc. pursuant to the terms of the sixth amended and restated limited liability company opening agreement of GMAC LLC, dated May 22, 2009.

a
    For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
    According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
    This table includes AWCP transactions.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/5/2012.
                                                                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                                                                               235
TABLE D.5                                                                                                                                                                                                                                                                                                               236

ASSP TRANSACTION DETAIL, AS OF 12/31/2011
                           Seller                                                                                                            Adjustment Details                                          Repayment4
                                                                                                                                                                                            Adjusted                                                   Remaining                                           Dividend/
                                                             Transaction     Investment                      Investment         Pricing       Adjustment           Adjustment             Investment                                                  Investment                                       Interest Paid
Note        Date           Institution Name                  Type            Description                        Amount       Mechanism              Date              Amount                 Amount      Date                    Type                 Description                Amount                  to Treasury
                                                                                                                                                                                                         11/20/2009             Partial          Debt Obligation w/
                                                                                                                                                                                                                                                                           $140,000,000
                                                                                                                                                                                                                            repayment               Additional Note
                           GM Supplier Receivables LLC                       Debt Obligation w/
1, 3        4/9/2009                                         Purchase                                   $3,500,000,000               N/A        7/8/2009     ($1,000,000,000)        $2,500,000,000      2/11/2010              Partial          Debt Obligation w/
                           Wilmigton, DE                                     Additional Note                                                                                                                                                                               $100,000,000                 $9,087,808
                                                                                                                                                                                                                            repayment               Additional Note
                                                                                                                                                                                                         3/4/2010         Repayment5                Additional Note         $50,000,000
1, 6                                                                                                                                                                                   $290,000,000      4/5/2010             Payment6                       None           $56,541,893
2, 3        4/9/2009       Chrysler Receivables SPV LLC                      Debt Obligation w/         $1,500,000,000               N/A        7/8/2009       ($500,000,000)        $1,000,000,000      3/9/2010         Repayment5                Additional Note        $123,076,735
                                                             Purchase                                                                                                                                                                                                                                   $5,787,176
2, 7                       Wilmigton, DE                                     Additional Note                                                                                           $123,076,735      4/7/2010             Payment7                       None           $44,533,054
Initial Total               $5,000,000,000                                                                                                 Adjusted Total      $413,076,735                                                                   Total Repayments            $413,076,735
                                                                                                                 Total Proceeds from Additional Notes          $101,074,947
Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
   he loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was
  T
  made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
2
  The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009, but was made effective as
   of 4/7/2009. Chrysler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
3
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
4
                                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
5
   All outstanding principal drawn under the credit agreement was repaid.
6
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
    which have been repaid.
7
    Treasury’s commitment was $1 billion (see note 3). As of 4/7/2010, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds disbursed under the loan, all of
     which have been repaid.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, response to SIGTARP data call, 1/5/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012.




TABLE D.6

 TIP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                                                                               Treasury Investment
                                                                                                                                                                               Remaining After Capital
                       Seller                                                                                                              Capital Repayment Details           Repayment                                        Final Disposition                        Market and Warrants Data
                                                                                                                                                    Capital         Capital      Remaining      Remaining             Final             Final                 Final                                       Dividends/
                                        Transaction Investment                                             Investment         Pricing            Repayment       Repayment         Capital         Capital      Disposition       Disposition           Disposition    Stock        Outstanding      Interest Paid to
Note Date              Institution Name Type        Description                                               Amount       Mechanism                Amount            Date2        Amount       Description          Date3        Description            Proceeds      Price     Warrant Shares             Treasury
1      12/31/08        Citigroup Inc.     Purchase        Trust Preferred Securities w/ Warrants    $20,000,000,000 Par                     $20,000,000,000        12/23/09              $—         Warrants       1/25/11 A          Warrants       $190,386,428     $26.31                         $1,568,888,889
                       Bank of America
       1/16/09                            Purchase        Preferred Stock w/ Warrants               $20,000,000,000 Par                     $20,000,000,000          12/9/09             $—         Warrants        3/3/10 A          Warrants     $1,255,639,099      $5.56                         $1,435,555,556
                       Corporation
                                                                                                                         Total Capital
                                                          Total Investment                         $40,000,000,000                         $40,000,000,000
                                                                                                                         Repayment
                                                                                                       Total Treasury TIP Investment
                                                                                                                                                          $—                                                                                         Total Warrant Proceeds $1,446,025,527
                                                                                                                             Amount

 Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report. 									
 												
 1 
   Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative
   Perpetual Preferred Stock, Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.												
 2
   Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
 3 
   For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial
   institution.	
 															
 Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Cumulative Dividends, Interest, and Distributions Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/11/2012; Bloomberg LP, accessed 12/30/2011.
TABLE D.7

    AGP TRANSACTION DETAIL, AS OF 12/31/2011
                              Initial Investmentb                                                                      Premium                      Exchange/Transfer/Other Details                                                       Payment or Disposition                    Market and Warrant Data
                                                                                                                                                                                                                                                     Remaining                    Remaining Outstanding                       Dividends/
                      Institution       Transaction                            Guarantee                                                                                                                                Payment              Payment Premium                       Premium Warrant               Stock     Interest Paid
Note      Date        Name              Type            Description                 Limit Description                Amount           Date              Type      Description             Amount           Date            Type               Amount Description                    Amount Shares                Price       to Treasury
                                                                                                                                                  Exchange                                                                  Partial
                                                                                                                                                                           Trust
                                                                                                                                                   preferred                                                          cancellation                   Trust Preferred
                                                                                                                                                                     Preferred
                                                                                                                                 6/9/2009     stock for trust                      $4,034,000,000 12/23/2009              for early ($1,800,000,000) Securities w/            2,234,000,000
                                                                                                                                                                  Securities w/
                                                                                                                                                   preferred                                                           termination                   Warrants
                                                                                        Preferred                                                                    Warrants
1,2,3,                Citigroup Inc.,                   Master                                                                                    securities                                                         of guarantee
          1/16/09                       Guarantee                        $5,000,000,000 Stock w/            $4,034,000,000                                                                                                                                                                                      $26.31 $442,964,764
4,5                   New York, NY                      Agreement                                                                                  Exchange                                         9/30/2010          Disposition   $2,246,000,000 Warrants                              $—
                                                                                        Warrants                                                                           Trust
                                                                                                                                              trust preferred
                                                                                                                                                                     Preferred
                                                                                                                                9/29/2010       securities for                     $2,246,000,000                         Warrant
                                                                                                                                                                  Securities w/                     1/25/2011                            $67,197,045 None                                 $—
                                                                                                                                              trust preferred                                                             Auction
                                                                                                                                                                     Warrants
                                                                                                                                                   securities
                                                        Termination
3         12/23/09 Citigroup Inc.       Termination                     ($5,000,000,000)
                                                        Agreement
                                                        Total            $—                                                                                                                                       Total Proceed $2,313,197,045

Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred
   Stock Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
   On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP
    Trust Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity
    Guarantee Program.
4
    On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc.
     paid the outstanding accrued and unpaid dividends.
5
     On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date as of the exchange through the closing date.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/11/2012; Bloomberg LP, accessed 12/30/2011.




TABLE D.8

TALF TRANSACTION DETAIL, AS OF 12/31/2011
                        Seller
                                                      Transaction                                                                            Pricing             Adjusted                         Adjusted
Note         Date       Institution                   Type                Investment Description                    Investment Amount        Mechanism           Investment Date        Investment Amount
1-2          3/3/09     TALF LLC, Willmington, DE     Purchase            Debt Obligation w/ Additional Note          $20,000,000,000        N/A                 7/19/2010                 $4,300,000,000
                                                                          TOTAL                                       $4,300,000,000

Notes: Numbers may not toal due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
     he loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York (“FRBNY”). The amount of $20,000,000,000 represents the maximum loan
    T
    amount. The loan will be incrementally funded.
2
    On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
     amount to $4,300,000,000.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends, Interest, and Distributions Report, 1/10/2012.
                                                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                                                                           237
                                                                                                                                                                                                                                                                                                        238
TABLE D.9


SSFI (AIG) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011
                          Seller                      Purchase Details                                                                                                                                  Exchange/Transfer Details
                                                                                                                                                                                                                                                                                          Dividends/
                                                                                                                                                                                                                                                                      Outstanding           Interests
                                                      Transaction   Investment                  Investment     Pricing                              Transaction                                                                          Pricing                        Warrants              Paid to
Note      Date            Name of Institution         Type          Description                    Amount      Mechanism        Date                Type                 Investment Description                           Amount      Mechanism           Stock Price      Shares           Treasury
                                                                    Preferred Stock
                                                                                                                                                                         Preferred Stock w/
1         11/25/2008      AIG, New York, NY           Purchase      w/ Warrants           $40,000,000,000      Par             4/17/2009            Exchange                                              1     $40,000,000,000                Par             $23.20     2,689,938                ­—
                                                                                                                                                                         Warrants (Series E)
                                                                    (Series D)
                                                                    Preferred Stock
2, 3      4/17/2009       AIG, New York, NY           Purchase       w/ Warrants          $29,835,000,000      Par             See table below for exchange/transfer details in connection with the recapitalization conducted on 1/14/2011.                   $23.20            150               —
                                                                    (Series F)
                                                                    Initial total       $69,835,000,000
                                                                                                                                                                         Final Disposition
                                                                                                                                                                                                                                           Pricing
                                                                                                                               Date                 Investment           Transaction Type                 Proceeds                    Mechanism
                                                                                                                                                    Warrants
                                                                                                                                                    (Series E)
                                                                                                                                                    Warrants
                                                                                                                                                    (Series F)
                                                                                                                                                                                                                                                                                                        APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                       Treasury Holdings Post-
                                   Recapitalization                                                        Recapitalization                                                                                   Final Disposition

                                                                                                                                                                                                                                                               Remaining Recap
                          Investment                  Transaction   Pricing                                                                                                                                                              Pricing      Investment Amount, Shares,
                                                                                                                                                                                                                                  8
Note      Date            Description                 Type          Mechanism           Investment Description                Amount / Shares       Date                         Transaction Type                      Proceeds       Mechanism                     or Equity %

                                                      Exchange      Par                 Preferred Stock (Series G)            $2,000,000,000        5/27/2011                           Cancellation                              —            N/A                               —10


                                                                                                                                                    2/14/2011                                Payment                                           Par
                                                                                                                                                                                                                     $185,726,192
                                                                                                                                                    3/8/2011                                 Payment              $5,511,067,614               Par
                                                                                                                                                    3/15/2011                                Payment                  $55,833,333              Par
                                                                                        AIA Preferred Units                   $16,916,603,568                                                                                                                       $7,886,056,010
                          Preferred Stock                                                                                                           8/17/2011                                Payment                  $97,008,351              Par
4,7,8     1/14/2011
                          (Series F)                  Exchange      N/A
                                                                                                                                                    8/18/2011                                Payment              $2,153,520,000               Par
                                                                                                                                                    9/2/2011                                 Payment                  $55,885,302              Par
                                                                                                                                                    11/1/2011                                Payment                 $971,506,765              Par
                                                                                                                                                    2/14/2011                                Payment              $2,009,932,072               Par
                                                                                        ALICO Junior Preferred Interests      $3,375,328,432                                                                                                                                       —
                                                                                                                                                    3/8/2011                                 Payment              $1,383,888,037               Par
                                                      Exchange                                                                167,623,733
                          Preferred Stock                                                                                                                                                                                                                           1,455,037,9629
5         1/14/2011                                   Exchange      N/A                                                       924,546,133
                          (Series E)                                                    Common Stock                                                5/24/2011                     Partial Disposition             $5,800,000,000               N/A
                          Common Stock
6         1/14/2011                                   Transfer                                                                562,868,096                                                                                                                                        77%
                          (non-TARP)

                                                                                                                                                                                               Total           $18,224,367,667

Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from the Treasury’s 1/4/2012 Transactions Report, and Treasury’s 1/10/2012 Dividends, Interest, and Distributions Report.

1
 	On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it had an
   additional obligation to Treasury of $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
2
 	 The investment amount reflected Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
3
 	This transaction does not include AIG’s commitment fee of an additional $165 million paid from its operating income over the life of the facility. A $55 million payment was received by Treasury on 12/17/2010. The remaining $110 million payment was received by Treasury on 05/27/2011.
4 
 	 On 1/14/2011, (A) Treasury exchanged $27,835,000,000 of Treasury’s investment in AIG’s Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series F) which is equal to the amount funded (including amounts drawn at closing) under the Series F equity capital facility, for (i) the transferred
   SPV preferred interests and (ii) 167,623,733 shares of AIG Common Stock, and (B) Treasury exchanged $2,000,000,000 of undrawn Series F for 20,000 shares of preferred stock under the new Series G Cumulative Mandatory Convertible Preferred Stock equity capital facility under which AIG
   has the right to draw up to $2,000,000,000.
5 
 	 On 1/14/2011, Treasury exchanged an amount equivalent to the $40 billion initial investment plus capitalized interest from the April 2009 exchange (see note 1 above) of Fixed Rate Non-Cumulative Perpetual Preferred Stock (Series E) for 924,546,133 shares of AIG Common Stock.
6 
 	 On 1/14/2011, Treasury received 562,868,096 shares of AIG Common Stock from the AIG Credit Facility Trust, which trust was established in connection with the credit facility between AIG and the Federal Reserve Bank of New York. This credit facility was repaid and terminated pursuant to
   this recapitalization transaction. The trust had received 562,868,096 shares of AIG common stock in exchange for AIG’s Series C Perpetual, Convertible Participating Preferred Stock, which was previously held by the trust for the benefit of the U.S. Treasury.
7
 	 The amount of Treasury’s AIA Preferred Units and ALICO Junior Preferred Interests holdings do not reflect preferred returns on the securities that accrue quarterly.
8
 	 Proceeds include amounts applied to pay (i) accrued preferred returns and (ii) redeem the outstanding liquidation amount.
9
 	 On 5/27/2011, Treasury completed the sale of 200,000,000 shares of common stock at $29.00 per share for an aggregate amount equal to $5,800,000,000, pursuant to an underwriting agreement executed on 05/24/2011.
10
  	On 5/27/2011, pursuant to the terms of the agreements governing the Preferred Stock (Series G), the available amount of the Preferred Stock (Series G) was reduced to $0 as a result of AIG’s primary offering of its common stock and the Preferred Stock (Series G) was cancelled.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Bloomberg LP, accessed 12/30/2011.
TABLE D.10	

UCSB TRANSACTION DETAIL, AS OF 12/31/2011
                                                   Purchase Details1                                                                                                                                     Settlement Details                     Final Disposition
                                                                                                                                                                                                                  Senior                        Life-to-date
Purchase                                                                                                 Purchase Face             Pricing      TBA or     Settlement            Investment       TBA or        Security                           Principal     Current Face            Disposition
Date           Investment Description                       Institution Name        CUSIP                     Amount3           Mechanism        PMF3      Date                   Amount 2, 3      PMF3       Proceeds 4      Sale Date         Received 1, 7      Amount 6, 7           Amount 5, 6        Interest Paid to Treasury
3/19/2010      Floating Rate SBA 7a security due 2025       Coastal Securities      83164KYN7                $4,070,000              107.75        —       3/24/2010             $4,377,249          —            $2,184      6/21/2011            $902,633         $3,151,186           $3,457,746                          $169,441
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities      83165ADC5                $7,617,617                  109       —       3/24/2010             $8,279,156          —            $4,130      10/19/2011         $1,685,710         $5,891,602           $6,462,972                          $449,518
3/19/2010      Floating Rate SBA 7a security due 2022       Coastal Securities      83165ADE1                $8,030,000             108.875        —       3/24/2010             $8,716,265          —            $4,348      6/21/2011          $2,022,652         $5,964,013           $6,555,383                          $371,355
4/8/2010       Floating Rate SBA 7a security due 2034       Coastal Securities      83165AD84               $23,500,000             110.502        —       5/28/2010            $26,041,643          —           $12,983      6/7/2011           $1,149,633       $22,350,367           $25,039,989                        $1,089,741
4/8/2010       Floating Rate SBA 7a security due 2016       Coastal Securities      83164KZH9                $8,900,014                107.5       —       4/30/2010             $9,598,523          —            $4,783      6/7/2011           $2,357,796         $6,542,218           $7,045,774                          $414,561
5/11/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83165AEE0               $10,751,382             106.806        —       6/30/2010            $11,511,052          —            $5,741      6/7/2011             $932,112         $9,819,270          $10,550,917                          $348,599
5/11/2010      Floating Rate SBA 7a security due 2035       Coastal Securities      83164K2Q5               $12,898,996              109.42        —       6/30/2010            $14,151,229          —            $7,057      6/7/2011             $328,604       $12,570,392           $13,886,504                          $479,508
5/11/2010      Floating Rate SBA 7a security due 2033       Coastal Securities      83165AED2                $8,744,333             110.798        —       6/30/2010             $9,717,173          —            $4,844      6/7/2011             $261,145         $8,483,188           $9,482,247                          $368,608
5/25/2010      Floating Rate SBA 7a security due 2029       Coastal Securities      83164K3B7                $8,417,817             110.125        —       7/30/2010             $9,294,363          —            $4,635      6/7/2011             $246,658         $8,171,159           $8,985,818                          $287,624
5/25/2010      Floating Rate SBA 7a security due 2033       Coastal Securities      83165AEK6               $17,119,972             109.553        —       7/30/2010            $18,801,712          —            $9,377      9/20/2011          $2,089,260       $15,030,712           $16,658,561                          $657,863
6/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83165AEQ3               $34,441,059             110.785        —       8/30/2010            $38,273,995          —           $19,077      6/21/2011          $1,784,934       $32,656,125           $36,072,056                        $1,286,450
6/17/2010      Floating Rate SBA 7a security due 2034       Coastal Securities      83165AEP5               $28,209,085             112.028        —       8/30/2010            $31,693,810          —           $15,801      9/20/2011          $2,278,652       $25,930,433           $29,142,474                        $1,254,222
7/14/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83164K3Y7                $6,004,156             106.625        —       9/30/2010             $6,416,804          —            $3,200      6/21/2011            $348,107         $5,656,049           $6,051,772                          $146,030
7/14/2010      Floating Rate SBA 7a security due 2025       Shay Financial          83164K4J9                $6,860,835             108.505        —       9/30/2010             $7,462,726          —            $3,722      10/19/2011           $339,960         $6,520,875           $7,105,304                          $255,370
7/14/2010      Floating Rate SBA 7a security due 2034       Shay Financial          83165AE42               $13,183,361              111.86        —       9/30/2010            $14,789,302          —            $7,373      6/21/2011            $478,520       $12,704,841           $14,182,379                          $423,725
7/29/2010      Floating Rate SBA 7a security due 2017       Coastal Securities      83164K4E0                $2,598,386             108.438        —       9/30/2010             $2,826,678          —            $1,408                           $553,720                                                                  $119,803
7/29/2010      Floating Rate SBA 7a security due 2034       Shay Financial          83164K4M2                $9,719,455              106.75        —       10/29/2010           $10,394,984          —            $5,187      6/21/2011            $188,009         $9,531,446          $10,223,264                          $181,124
8/17/2010      Floating Rate SBA 7a security due 2020       Shay Financial          83165AEZ3                $8,279,048             110.198        —       9/30/2010             $9,150,989          —            $4,561      9/20/2011          $1,853,831         $6,425,217           $7,078,089                          $335,082
8/17/2010      Floating Rate SBA 7a security due 2019       Coastal Securities      83165AFB5                $5,000,000             110.088        —       10/29/2010            $5,520,652          —            $2,752      10/19/2011           $419,457         $4,580,543           $5,029,356                          $213,319
8/17/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83165AE91               $10,000,000             110.821        —       10/29/2010           $11,115,031          —            $5,541      10/19/2011           $969,461         $9,030,539           $9,994,806                          $433,852
8/31/2010      Floating Rate SBA 7a security due 2020       Shay Financial          83165AEW0                $9,272,482             110.515        —       9/29/2010            $10,277,319          —            $5,123      9/20/2011            $868,636         $8,403,846           $9,230,008                          $386,326
8/31/2010      Floating Rate SBA 7a security due 2024       Shay Financial          83165AFA7               $10,350,000             112.476        —       10/29/2010           $11,672,766          —            $5,820      10/19/2011           $250,445       $10,099,555           $11,314,651                          $425,545
8/31/2010      Floating Rate SBA 7a security due 2020       Coastal Securities      83164K5H2                $6,900,000             105.875        —       11/30/2010            $7,319,688          —            $3,652                           $573,097                                                                  $171,301
9/14/2010      Floating Rate SBA 7a security due 2020       Shay Financial          83165AFC3                $8,902,230             111.584        —       10/29/2010            $9,962,039          —            $4,966                         $1,223,840                                                                  $372,636
9/14/2010      Floating Rate SBA 7a security due 2021       Shay Financial          83165AFK5                $8,050,000             110.759        —       11/30/2010            $8,940,780          —            $4,458                           $913,316                                                                  $290,056
9/14/2010      Floating Rate SBA 7a security due 2029       Coastal Securities      83164K5F6                $5,750,000                106.5       —       11/30/2010            $6,134,172          —            $3,061                           $236,363                                                                  $126,947
9/14/2010      Floating Rate SBA 7a security due 2026       Coastal Securities      83164K5L3                $5,741,753                110.5       —       11/30/2010            $6,361,173          —            $3,172                           $605,502                                                                  $200,220
9/28/2010      Floating Rate SBA 7a security due 2035       Coastal Securities      83164K5M1                $3,450,000             110.875        —       11/30/2010            $3,834,428          —            $1,912      10/19/2011             $82,832        $3,367,168           $3,698,411                          $111,165
9/28/2010      Floating Rate SBA 7a security due 2034       Coastal Securities      83165AFT6               $11,482,421             113.838        —       12/30/2010           $13,109,070          —            $6,535                           $845,933                                                                  $408,714
9/28/2010      Floating Rate SBA 7a security due 2034       Shay Financial          83165AFM1               $13,402,491                113.9       —       11/30/2010           $15,308,612          —            $7,632      10/19/2011           $438,754       $12,963,737           $14,433,039                          $516,624
9/28/2010      Floating Rate SBA 7a security due 2035       Shay Financial          83165AFQ2               $14,950,000             114.006        —       12/30/2010           $17,092,069          —            $8,521                           $327,086                                                                  $542,390


                                                                                                                                                                                                     Total
                                                                                                                                                                                                    Senior
                                                                                                                                                                                                  Security
                                                                 Total Purchase Face Amount              $332,596,893                       Total Investment Amount*         $368,145,452        Proceeds      $183,555                           Total Disposition Proceeds         $271,681,517                        $12,837,717

Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.
*Subject to adjustment

1
   he amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
  T
2
  Investment Amount is stated after applying the appropriate month’s factor and includes accrued interest paid at settlement, if applicable.
3
   If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is listed as
    PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable month’s factor (on
    or about the 11th business day of each month).
4
    In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to the product
     of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the Master Purchase
     Agreement.
5
     Disposition Amount is stated after applying the appropriate month’s factor and includes accrued interest received at settlement, if applicable. If the disposition is listed as PMF, the disposition amount will be adjusted after publication of the applicable month’s factor.
6
      If a disposition is listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security is priced according to the prior-month’s factor. The PMF disposition amount will be adjusted after publication of the applicable month’s factor (on or about the 11th
                                                                                                                                                                                                                                                                                                                                           TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




       business day of each month).
7
       The sum of Current Face Amount and Life-to-date Principal Received will equal Purchase Face Amount for CUSIPs that were originally purchased as TBAs only after the applicable month’s factor has been published and trailing principal & interest payments have been received.

Source: Treasury, Transactions Report, 1/4/2012, Treasury, Cumulative Dividends, Interest, and Distributions Report, 1/10/2012.
                                                                                                                                                                                                                                                                                                                                           239
TABLE D.11                                                                                                                                                                                                                                                                                               240
PPIP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                                                                                                          Investment After
                                       Seller                                                                Adjusted Investment3            Final Investment Amount7        Capital Repayment Details    Capital Repayment                 Distribution or Disposition

                                                                                                                                                                                                                                                                                           Interest/
                                                           Transaction Investment        Investment   Pricing                                                               Repayment        Repayment                                                                                 Distributions
Note Date          Institution          City         State Type        Description          Amount Mechanism Date                   Amount   Date                 Amount         Date           Amount           Amount       Description Date           Description      Proceeds Paid to Treasury
                   AG GECC PPIF
2,6   10/30/2009                        Wilmington   DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,542,675,000 7/16/2010          $2,486,550,000
                   Master Fund, L.P.
                                                                                                                                                                                                                                                                                       $163,043,489
                   AG GECC PPIF
1,6   10/30/2009                        Wilmington   DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,271,337,500 7/16/2010          $1,243,275,000
                   Master Fund, L.P.
                                                                       Debt
                   AllianceBernstein                                                                                                                                                                                      Debt Obligation
                                                                       Obligation w/
2,6   10/2/2009    Legacy Securities Wilmington      DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010          $2,300,847,000    5/16/2011      $30,244,575 $2,270,602,425     w/ Contingent
                                                                       Contingent
                   Master Fund, L.P.                                                                                                                                                                                           Proceeds
                                                                       Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                                                                                                                                       $196,533,460
                                                                                                                                                                             6/14/2011          $88,087 $2,270,514,339     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                   AllianceBernstein
                                                                       Membership
1,6   10/2/2009    Legacy Securities Wilmington      DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010          $1,150,423,500
                                                                       Interest
                   Master Fund, L.P.
                                                                       Debt
                   Blackrock PPIF,                                     Obligation w/
2,6   10/2/2009                         Wilmington   DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,488,875,000 7/16/2010          $1,389,960,000
                   L.P.                                                Contingent
                                                                       Proceeds                                                                                                                                                                                                         $26,242,744
                                                                                                                                                                                                                                                                                                         APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                   Blackrock PPIF,                                     Membership
1,6   10/2/2009                         Wilmington   DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010            $694,980,000
                   L.P.                                                Interest
                   Invesco Legacy
                                                                       Membership
1,6   9/30/2009    Securities Master Wilmington      DE    Purchase                  $1,111,111,111      Par 3/22/2010   $1,244,437,500 7/16/2010            $856,000,000
                                                                       Interest
                   Fund, L.P.
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             2/18/2010       $4,888,718 $1,157,031,282     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             4/15/2010       $7,066,434 $1,149,964,848     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             9/15/2010      $60,022,674 $1,089,942,174     w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                            11/15/2010     $132,928,628    $957,013,546    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                            12/14/2010      $31,689,230    $925,324,316    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             1/14/2010      $27,355,590    $897,968,726    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                       Debt                                                                                                                                                                                                            $511,266,339
                   Invesco Legacy                                                                                                                                                                                         Debt Obligation
                                                                       Obligation w/
2,6,8 9/30/2009    Securities Master Wilmington      DE    Purchase                  $2,222,222,222      Par 3/22/2010   $2,488,875,000 9/26/2011          $1,161,920,000    2/14/2011      $92,300,138    $805,668,588    w/ Contingent
                                                                       Contingent
                   Fund, L.P.                                                                                                                                                                                                  Proceeds
                                                                       Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             3/14/2011     $128,027,536    $677,641,052    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             4/14/2011     $155,409,286    $522,231,766    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             5/20/2011      $75,085,485    $447,146,281    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             6/14/2011      $18,259,513    $428,886,768    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             7/15/2011      $62,979,809    $365,906,960    w/ Contingent
                                                                                                                                                                                                                               Proceeds
                                                                                                                                                                                                                          Debt Obligation
                                                                                                                                                                             8/12/2011      $20,762,532    $345,144,428    w/ Contingent
                                                                                                                                                                                                                               Proceeds

                                                                                                                                                                                                                                                                               Continued on next page.
PPIP TRANSACTION DETAIL, AS OF 12/31/2011
                                                                                                                                                                                                                                         Investment After
                                          Seller                                                                               Adjusted Investment3              Final Investment Amount7              Capital Repayment Details         Capital Repayment                     Distribution or Disposition
                                                                                                                                                                                                                                                                                                                                Interest/
                                                               Transaction Investment              Investment   Pricing                                                                              Repayment            Repayment                                                                                         Distributions
Note Date             Institution          City          State Type        Description                Amount Mechanism Date                           Amount     Date                     Amount          Date               Amount               Amount        Description Date            Description        Proceeds Paid to Treasury
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                     10/17/2011          $37,384,574       $307,759,854       w/ Contingent
                                                                                                                                                                                                                                                                  Proceeds
                                                                                                                                                                                                                                                             Debt Obligation
                                                                                                                                                                                                     12/14/2011            $7,103,787      $300,656,067       w/ Contingent
                                                                                                                                                                                                                                                                  Proceeds
                      Marathon Legacy
                                                                               Debt
                      Securities
                                                                               Obligation w/
2,6    11/25/2009     Public-Private       Wilmington    DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010              $949,100,000
                                                                               Contingent
                      Investment
                                                                               Proceeds
                      Partnership, L.P.
                                                                                                                                                                                                                                                                                                                               $27,080,970
                      Marathon Legacy
                      Securities
                                                                               Membership
1,6    11/25/2009     Public-Private       Wilmington    DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,244,437,500 7/16/2010              $474,550,000
                                                                               Interest
                      Investment
                      Partnership, L.P.
                                                                               Debt
                                                                                                                                                                                                                                                             Debt Obligation
                      Oaktree PPIP                                             Obligation w/
2,6    12/18/2009                          Wilmington    DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010            $2,321,568,200      7/15/2011          $79,000,000 $2,242,568,200           w/ Contingent
                      Fund, L.P.                                               Contingent
                                                                                                                                                                                                                                                                  Proceeds                                                     $45,903,411
                                                                               Proceeds
                      Oaktree PPIP                                             Membership
1,6    12/18/2009                          Wilmington    DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,244,437,500 7/16/2010            $1,160,784,100
                      Fund, L.P.                                               Interest
                      RLJ Western                                              Debt
                                                                                                                                                                                                                                                             Debt Obligation
                      Asset Public/                                            Obligation w/
2,6    11/4/2009                           Wilmington    DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,488,875,000 7/16/2010            $1,241,156,516      5/13/2011          $13,531,530 $1,227,624,986           w/ Contingent
                      Private Master                                           Contingent
                                                                                                                                                                                                                                                                  Proceeds
                      Fund, L.P.                                               Proceeds
                                                                                                                                                                                                                                                                                                                             $121,100,101
                      RLJ Western
                      Asset Public/                                            Membership
1,6    11/4/2009                           Wilmington    DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,244,437,500 7/16/2010              $620,578,258
                      Private Master                                           Interest
                      Fund, L.P.
                      UST/TCW                                                  Debt
                                                                                                                                                                                                                                                             Debt Obligation
                      Senior Mortgage                                          Obligation w/
2,4,5 9/30/2009                            Wilmington    DE     Purchase                     $2,222,222,222               Par 1/4/2010          $200,000,000                        $200,000,000      1/11/2010          $34,000,000       $166,000,000       w/ Contingent                 N/A
                      Securities Fund,                                         Contingent
                                                                                                                                                                                                                                                                  Proceeds
                      L.P.                                                     Proceeds
                                                                                                                                                                                                                                                                            1/29/2010 Distribution             $502,302
                                                                                                                                                                                                                                                                 Contingent
                                                                                                                                                                                                      1/12/2010         $166,000,000                    —
                                                                                                                                                                                                                                                                  Proceeds 2/24/2010 Final                       $1,223
                                                                                                                                                                                                                                                                                      Distribution                                $342,176
                      UST/TCW
                      Senior Mortgage                                          Membership
1,4,5 9/30/2009                            Wilmington    DE     Purchase                      $1,111,111,111              Par 1/4/2010          $156,250,000                        $156,250,000                                                                               1/29/2010 Distribution      $20,091,872
                      Securities Fund,                                         Interest                                                                                                                                                                         Membership
                      L.P.                                                                                                                                                                            1/15/2010         $156,250,000                    —
                                                                                                                                                                                                                                                                   Interest
                                                                                                                                                                                                                                                                                            Final
                                                                                                                                                                                                                                                                               2/24/2010                        $48,922
                                                                                                                                                                                                                                                                                            Distribution
                      Wellington
                                                                               Debt
                      Management
                                                                               Obligation w/
2,6    10/1/2009      Legacy Securities Wilmington       DE     Purchase                     $2,222,222,222               Par 3/22/2010       $2,524,075,000 7/16/2010            $2,298,974,000
                                                                               Contingent
                      PPIF Master
                                                                               Proceeds
                      Fund, LP
                                                                                                                                                                                                                                                                                                                             $120,205,293
                      Wellington
                      Management
                                                                               Membership
1,6    10/1/2009      Legacy Securities Wilmington       DE     Purchase                      $1,111,111,111              Par 3/22/2010       $1,262,037,500 7/16/2010            $1,149,487,000
                                                                               Interest
                      PPIF Master
                      Fund, LP
                                                                                                                                                                                                     Total Capital                                                                          Total
                                                   Initial Investment Amount                $30,000,000,000                                      Final Investment Amount $21,856,403,574              Repayment      $1,340,378,124                                                         Proceeds         $20,644,319

Notes: Numbers may not total due to rounding. Data as of 12/31/2011. Numbered notes were taken verbatim from Treasury’s 1/4/2012 Transactions Report.

1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
3
  Adjusted to show Treasury’s maximum obligations to a fund.
4
  On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
                                                                                                                                                                                                                                                                                                                                               TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




  Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
  Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment for
  the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
   Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.
8
   On 09/26/2011, the General Partner notified Treasury that the Investment Period was terminated in accordance with the Limited Partnership Agreement. As a result, the Final Investment Amount, representing Treasury’s debt obligation, has been reduced to the cumulative amount of debt funded.

Sources: Treasury, Transactions Report, 1/4/2012; Treasury, Dividends and Interest Report, 1/10/2012; Treasury, response to SIGTARP data call, 1/5/2012.
                                                                                                                                                                                                                                                                                                                                               241
TABLE D.12                                                                                                                                                                                                                                                                       242
HAMP TRANSACTION DETAIL, AS OF 12/31/2011
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                         TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                   Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                    6/12/2009    $284,590,000     $660,590,000    Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009    $121,910,000     $782,500,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $131,340,000     $913,840,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010   ($355,530,000)    $558,310,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010    $128,690,000     $687,000,000    Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                    9/30/2010       $4,000,000    $691,000,000
                                                                                                                                                                  cap
                                                                                                                    9/30/2010      $59,807,784    $750,807,784    Updated portfolio data from servicer
                                                                                                                   11/16/2010       ($700,000)    $750,107,784    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010      $64,400,000    $814,507,784    Updated portfolio data from servicer
                                                                                                                     1/6/2011            ($639)   $814,507,145    Updated portfolio data from servicer
                                                        Financial
            Select Portfolio Servicing,                 Instrument for                                              1/13/2011      ($2,300,000)   $812,207,145    Transfer of cap due to servicing transfer
4/13/2009                                 Purchase                       $376,000,000           N/A                                                                                                           $26,715,645   $58,781,942    $50,232,512         $135,730,100
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




            Salt Lake City, UT                          Home Loan
                                                        Modifications                                               2/16/2011        $100,000     $812,307,145    Transfer of cap due to servicing transfer
                                                                                                                    3/16/2011       $3,600,000    $815,907,145    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($735)   $815,906,410
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011       ($100,000)    $815,806,410    Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011        $400,000     $816,206,410    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011       ($100,000)    $816,106,410    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($6,805)   $816,099,605
                                                                                                                                                                  reallocation
                                                                                                                    8/16/2011       ($100,000)    $815,999,605    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011       ($200,000)    $815,799,605    Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011       ($100,000)    $815,699,605    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011       ($100,000)    $815,599,605    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                    Adjustment Details                                                         TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                      6/12/2009   ($991,580,000)    $1,079,420,000   Updated portfolio data from servicer
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      9/30/2009   $1,010,180,000    $2,089,600,000
                                                                                                                                                                     HPDP initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                     12/30/2009   ($105,410,000)    $1,984,190,000
                                                                                                                                                                     HAFA initial cap
                                                                                                                                                                     Updated portfolio data from servicer &
                                                                                                                      3/26/2010   ($199,300,000)    $1,784,890,000
                                                                                                                                                                     2MP initial cap
                                                                                                                                                                     Transfer of cap to Service One, Inc. due
                                                                                                                      4/19/2010       ($230,000)    $1,784,660,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap to Specialized Loan
                                                                                                                      5/14/2010      ($3,000,000)   $1,781,660,000
                                                                                                                                                                     Servicing, LLC due to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      6/16/2010     ($12,280,000)   $1,769,380,000
                                                                                                                                                                     to servicing transfer
                                                                                                                      7/14/2010   ($757,680,000)    $1,011,700,000   Updated portfolio data from servicer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      7/16/2010      ($7,110,000)   $1,004,590,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      8/13/2010      ($6,300,000)    $998,290,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Transfer of cap to multiple servicers due
                                                                                                                      9/15/2010      ($8,300,000)    $989,990,000
                                                                                                                                                                     to servicing transfer
                                                                                                                                                                     Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                      9/30/2010      $32,400,000    $1,022,390,000
                                                          Financial                                                                                                  cap
            CitiMortgage, Inc., O’Fallon,                 Instrument for                                              9/30/2010    $101,287,484     $1,123,677,484   Updated portfolio data from servicer
4/13/2009                                   Purchase                       $2,071,000,000         N/A                                                                                                            $27,855,388   $83,187,045    $59,781,905         $170,824,337
            MO                                            Home Loan
                                                          Modifications                                              10/15/2010      ($1,400,000)   $1,122,277,484   Transfer of cap due to servicing transfer
                                                                                                                     11/16/2010      ($3,200,000)   $1,119,077,484   Transfer of cap due to servicing transfer
                                                                                                                       1/6/2011            ($981)   $1,119,076,503   Updated portfolio data from servicer
                                                                                                                      1/13/2011     ($10,500,000)   $1,108,576,503   Transfer of cap due to servicing transfer
                                                                                                                      2/16/2011      ($4,600,000)   $1,103,976,503   Transfer of cap due to servicing transfer
                                                                                                                      3/16/2011     ($30,500,000)   $1,073,476,503   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      3/30/2011          ($1,031)   $1,073,475,472
                                                                                                                                                                     reallocation
                                                                                                                      4/13/2011         $100,000    $1,073,575,472   Transfer of cap due to servicing transfer
                                                                                                                      5/13/2011      ($7,200,000)   $1,066,375,472   Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011       ($400,000)    $1,065,975,472   Transfer of cap due to servicing transfer
                                                                                                                                                                     Updated due to quarterly assessment and
                                                                                                                      6/29/2011          ($9,131)   $1,065,966,341
                                                                                                                                                                     reallocation
                                                                                                                      7/14/2011     ($14,500,000)   $1,051,466,341   Transfer of cap due to servicing transfer
                                                                                                                      8/16/2011      ($1,600,000)   $1,049,866,341   Transfer of cap due to servicing transfer
                                                                                                                      9/15/2011         $700,000    $1,050,566,341   Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011      $15,200,000    $1,065,766,341   Transfer of cap due to servicing transfer
                                                                                                                     11/16/2011      ($2,900,000)   $1,062,866,341   Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011      ($5,000,000)   $1,057,866,341   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                    243
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                                 244
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                            TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors       Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives      Incentives      Incentives            Payments
                                                                                                                  6/17/2009    ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009       $65,070,000    $2,475,080,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $1,213,310,000    $3,688,390,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Transfer of cap (from Wachovia) due
                                                                                                                  2/17/2010    $2,050,236,344    $5,738,626,344
                                                                                                                                                                  to merger
                                                                                                                                                                  Transfer of cap (from Wachovia) due
                                                                                                                  3/12/2010           $54,767    $5,738,681,110
                                                                                                                                                                  to merger
                                                                                                                  3/19/2010     $668,108,890     $6,406,790,000   Initial 2MP cap
                                                                                                                  3/26/2010     $683,130,000     $7,089,920,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer
                                                                                                                  9/30/2010    ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $344,000,000     $5,108,351,172
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                                                                  Transfer of cap (from Wachovia) due
                                                                                                                  12/3/2010        $8,413,225    $5,116,764,397
                                                                                                                                                                  to merger
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                      Financial
            Wells Fargo Bank, NA, Des                 Instrument for                                             12/15/2010       $22,200,000    $5,138,964,397   Updated portfolio data from servicer
4/13/2009                               Purchase                       $2,873,000,000         N/A                                                                                                              $57,171,935   $144,539,526    $120,371,327         $322,082,789
            Moines, IA                                Home Loan
                                                      Modifications                                                1/6/2011           ($6,312)   $5,138,958,085   Updated portfolio data from servicer
                                                                                                                  1/13/2011        ($100,000)    $5,138,858,085   Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011        ($100,000)    $5,138,758,085   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011           ($7,171)   $5,138,750,914
                                                                                                                                                                  reallocation
                                                                                                                  4/13/2011       ($9,800,000)   $5,128,950,914   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $100,000    $5,129,050,914   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011        ($600,000)    $5,128,450,914   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($63,856)   $5,128,387,058
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011       ($2,300,000)   $5,126,087,058   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($1,100,000)   $5,124,987,058   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        $1,400,000    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011          $200,000    $5,126,587,058   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        ($200,000)    $5,126,387,058   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011        ($200,000)    $5,126,187,058   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                          TARP Incentive Payments
                                                                      Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                      Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives            Payments
                                                                                                                 6/12/2009     $384,650,000     $1,017,650,000   Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009    $2,537,240,000    $3,554,890,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009   ($1,679,520,000)   $1,875,370,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010     $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap from Wilshire Credit
                                                                                                                 5/14/2010        $1,880,000    $2,067,430,000
                                                                                                                                                                 Corporation due to servicing transfer
                                                                                                                 7/14/2010    ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer
                                                                                                                 8/13/2010       ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                 9/30/2010     $119,200,000     $1,301,400,000
                                                                                                                                                                 and initial 2MP cap
                                                                                                                 9/30/2010     $216,998,139     $1,518,398,139   Updated portfolio data from servicer
                                                     Financial                                                  12/15/2010        ($500,000)    $1,517,898,139   Updated portfolio data from servicer
            GMAC Mortgage, Inc., Ft.                 Instrument for
4/13/2009                              Purchase                       $633,000,000           N/A                  1/6/2011           ($1,734)   $1,517,896,405   Updated portfolio data from servicer         $19,982,116   $61,326,062    $44,252,768         $125,560,947
            Washington, PA                           Home Loan
                                                     Modifications                                               3/16/2011        ($100,000)    $1,517,796,405   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011           ($2,024)   $1,517,794,381
                                                                                                                                                                 reallocation
                                                                                                                 4/13/2011        ($800,000)    $1,516,994,381   Transfer of cap due to servicing transfer
                                                                                                                 5/13/2011     ($17,900,000)    $1,499,094,381   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011          ($18,457)   $1,499,075,924
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011        ($200,000)    $1,498,875,924   Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        $3,400,000    $1,502,275,924   Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011          $200,000    $1,502,475,924   Transfer of cap due to servicing transfer
                                                                                                                10/14/2011        ($800,000)    $1,501,675,924   Transfer of cap due to servicing transfer
                                                                                                                11/16/2011        ($200,000)    $1,501,475,924   Transfer of cap due to servicing transfer
                                                                                                                12/15/2011        $2,600,000    $1,504,075,924   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                 245
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                              (CONTINUED)                                                                                                                                                                                246
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                           TARP Incentive Payments
                                                                      Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                       Lenders/                           Total TARP
                                       Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                     Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                          Incentives     Incentives     Incentives            Payments
                                                                                                                 6/17/2009     $225,040,000      $632,040,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 9/30/2009     $254,380,000      $886,420,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                12/30/2009     $355,710,000     $1,242,130,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                 3/26/2010     ($57,720,000)    $1,184,410,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap to Ocwen Financial
                                                                                                                 6/16/2010    ($156,050,000)    $1,028,360,000
                                                                                                                                                                 Corporation, Inc. due to servicing transfer
                                                                                                                 7/14/2010    ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap due to multiple servicing
                                                                                                                 7/16/2010     ($22,980,000)     $491,720,000
                                                                                                                                                                 transfers
                                                                                                                 9/15/2010        $1,800,000     $493,520,000    Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                 9/30/2010        $9,800,000     $503,320,000
                                                                                                                                                                 cap
                                                     Financial
                                                                                                                 9/30/2010     $116,222,668      $619,542,668    Updated portfolio data from servicer
            Saxon Mortgage Services,                 Instrument for
4/13/2009                              Purchase                       $407,000,000           N/A                                                                                                               $18,360,683   $34,451,144    $37,707,306           $90,519,133
            Inc., Irving, TX                         Home Loan                                                  10/15/2010          $100,000     $619,642,668    Transfer of cap due to servicing transfer
                                                     Modifications
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                12/15/2010        $8,900,000     $628,542,668    Updated portfolio data from servicer
                                                                                                                  1/6/2011             ($556)    $628,542,112    Updated portfolio data from servicer
                                                                                                                 1/13/2011        $2,300,000     $630,842,112    Transfer of cap due to servicing transfer
                                                                                                                 3/16/2011          $700,000     $631,542,112    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 3/30/2011             ($654)    $631,541,458
                                                                                                                                                                 reallocation
                                                                                                                 4/13/2011        $2,100,000     $633,641,458    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                 6/29/2011           ($6,144)    $633,635,314
                                                                                                                                                                 reallocation
                                                                                                                 7/14/2011          $200,000     $633,835,314    Transfer of cap due to servicing transfer
                                                                                                                 8/16/2011        ($100,000)     $633,735,314    Transfer of cap due to servicing transfer
                                                                                                                 9/15/2011        ($700,000)     $633,035,314    Transfer of cap due to servicing transfer
                                                                                                                12/15/2011       $17,500,000     $650,535,314    Transfer of cap due to servicing transfer
                                                     Financial
            Chase Home Finance, LLC,                 Instrument for
4/13/2009                              Purchase                       $3,552,000,000         N/A         2       7/31/2009   ($3,552,000,000)              $—    Termination of SPA                                   $—             $—             $—                     $—
            Iselin, NJ                               Home Loan
                                                     Modifications

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                          TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                     Lenders/                           Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s      Investors      Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                         Incentives     Incentives     Incentives            Payments
                                                                                                                     6/12/2009   ($105,620,000)     $553,380,000    Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $102,580,000      $655,960,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $277,640,000      $933,600,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     3/26/2010      $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from Saxon Mortgage
                                                                                                                     6/16/2010    $156,050,000     $1,136,510,000
                                                                                                                                                                    Services, Inc. due to servicing transfer
                                                                                                                     7/14/2010   ($191,610,000)     $944,900,000    Updated portfolio data from servicer

                                                         Financial                                                                                                  Transfer of cap from Saxon Mortgage
             Ocwen Financial                                                                                         7/16/2010      $23,710,000     $968,610,000
                                                         Instrument for                                                                                             Services, Inc. due to servicing transfer
4/16/2009    Corporation, Inc., West       Purchase                       $659,000,000           N/A                                                                                                             $24,492,239   $65,890,612    $51,477,930         $141,860,780
                                                         Home Loan
             Palm Beach, FL                                                                                          9/15/2010        $100,000      $968,710,000    Initial FHA-HAMP cap
                                                         Modifications
                                                                                                                     9/30/2010       $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                                    10/15/2010    $170,800,000     $1,143,252,740   Transfer of cap due to servicing transfer
                                                                                                                      1/6/2011          ($1,020)   $1,143,251,720   Updated portfolio data from servicer
                                                                                                                     2/16/2011        $900,000     $1,144,151,720   Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011          ($1,114)   $1,144,150,606
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011        ($10,044)    $1,144,140,562
                                                                                                                                                                    reallocation
                                                                                                                    10/14/2011       ($100,000)    $1,144,040,562   Transfer of cap due to servicing transfer
                                                                                                                     6/12/2009       $5,540,000     $804,440,000    Updated portfolio data from servicer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     9/30/2009    $162,680,000      $967,120,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $665,510,000     $1,632,630,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                     1/26/2010    $800,390,000     $2,433,020,000   Initial 2MP cap
                                                                                                                     3/26/2010   ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer
                                                                                                                     7/14/2010   ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer
4/17/2009                                                Financial                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
as amended   Bank of America, N.A., Simi                 Instrument for                                              9/30/2010      $95,300,000    $1,332,200,000
                                           Purchase                       $798,900,000           N/A                                                                and initial RD-HAMP                           $4,097,413   $17,685,428     $8,875,439           $30,658,281
on           Valley, CA                                  Home Loan
1/26/2010                                                Modifications                                               9/30/2010    $222,941,084     $1,555,141,084   Updated portfolio data from servicer
                                                                                                                      1/6/2011          ($2,199)   $1,555,138,885   Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011          ($2,548)   $1,555,136,337
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011        ($23,337)    $1,555,113,000
                                                                                                                                                                    reallocation
                                                                                                                     8/16/2011       ($300,000)    $1,554,813,000   Transfer of cap due to servicing transfer
                                                                                                                    10/14/2011   ($120,700,000)    $1,434,113,000   Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       ($900,000)    $1,433,213,000   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                    247
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                                 248
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                            TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors       Servicers             Incentive
Date         Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives      Incentives      Incentives            Payments
                                                                                                                  6/12/2009    $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009    ($717,420,000)    $4,465,420,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $2,290,780,000    $6,756,200,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                  1/26/2010     $450,100,000     $7,206,300,000   Initial 2MP cap
                                                                                                                  3/26/2010     $905,010,000     $8,111,310,000   Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  4/19/2010       $10,280,000    $8,121,590,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                                                                  Transfer of cap from Wilshire Credit
                                                                                                                  6/16/2010     $286,510,000     $8,408,100,000
                                                                                                                                                                  Corporation due to servicing transfer
                                                                                                                  7/14/2010   ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                  9/30/2010     $105,500,000     $6,726,300,000
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                  9/30/2010    ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer
                                                                                                                 12/15/2010     $236,000,000     $6,347,772,638   Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                    APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                   1/6/2011           ($8,012)   $6,347,764,626   Updated portfolio data from servicer
4/17/2009                                             Financial
             Countrywide Home                                                                                     2/16/2011        $1,800,000    $6,349,564,626   Transfer of cap due to servicing transfer
as amended                                            Instrument for
             Loans Servicing LP, Simi   Purchase                       $1,864,000,000         N/A                                                                                                              $56,179,923   $172,433,878     $73,001,192         $301,614,993
on                                                    Home Loan                                                   3/16/2011          $100,000    $6,349,664,626   Transfer of cap due to servicing transfer
             Valley, CA
1/26/2010                                             Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011           ($9,190)   $6,349,655,436
                                                                                                                                                                  reallocation
                                                                                                                  4/13/2011          $200,000    $6,349,855,436   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011          $300,000    $6,350,155,436   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($1,000,000)   $6,349,155,436   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($82,347)   $6,349,073,089
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011        ($200,000)    $6,348,873,089   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011       ($3,400,000)   $6,345,473,089   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011       ($1,400,000)   $6,344,073,089   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011     $120,600,000     $6,464,673,089   Transfer of cap due to servicing transfer
                                                                                                                                                                  Transfer of cap from Home Loan
                                                                                                                                                                  Services, Inc. and Wilshire Credit
                                                                                                                 10/19/2011     $317,956,289     $6,782,629,378
                                                                                                                                                                  Corporation due to merger.


                                                                                                                 11/16/2011          $800,000    $6,783,429,378   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011     ($17,600,000)    $6,765,829,378   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                          Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                     6/12/2009    $128,300,000     $447,300,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009      $46,730,000    $494,030,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $145,820,000     $639,850,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010     ($17,440,000)   $622,410,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010     ($73,010,000)   $549,400,000    Updated portfolio data from servicer
                                                                                                                     9/30/2010       $6,700,000    $556,100,000    Initial FHA-2LP cap

                                                         Financial                                                   9/30/2010     ($77,126,410)   $478,973,590    Updated portfolio data from servicer
            Home Loan Services, Inc.,                    Instrument for
4/20/2009                                  Purchase                       $319,000,000           N/A         13     12/15/2010   ($314,900,000)    $164,073,590    Updated portfolio data from servicer         $169,858    $2,440,768     $3,698,607            $6,309,233
            Pittsburgh, PA                               Home Loan
                                                         Modifications                                                1/6/2011            ($233)   $164,073,357    Updated portfolio data from servicer
                                                                                                                     2/16/2011      ($1,900,000)   $162,173,357    Transfer of cap due to servicing transfer
                                                                                                                     3/16/2011       ($400,000)    $161,773,357    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($278)   $161,773,079
                                                                                                                                                                   reallocation
                                                                                                                     5/13/2011       ($400,000)    $161,373,079    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($2,625)   $161,370,454
                                                                                                                                                                   reallocation
                                                                                                                    10/19/2011   ($155,061,221)      $6,309,233    Termination of SPA
                                                                                                                     6/12/2009      $87,130,000    $453,130,000    Updated portfolio data from servicer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009   ($249,670,000)    $203,460,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009    $119,700,000     $323,160,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010      $52,270,000    $375,430,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap to Countrywide Home
                                                                                                                     4/19/2010     ($10,280,000)   $365,150,000
                                                                                                                                                                   Loans due to servicing transfer
                                                                                                                                                                   Transfer of cap to GMAC Mortgage, Inc.
                                                                                                                     5/14/2010      ($1,880,000)   $363,270,000
                                                                                                                                                                   due to servicing transfer

                                                         Financial                                                                                                 Transfer of cap to Countrywide Home
                                                                                                                     6/16/2010   ($286,510,000)     $76,760,000
            Wilshire Credit Corporation,                 Instrument for                                                                                            Loans due to servicing transfer
4/20/2009                                  Purchase                       $366,000,000           N/A         13                                                                                                      $—      $490,394      $1,167,000            $1,657,394
            Beaverton, OR                                Home Loan
                                                                                                                     7/14/2010      $19,540,000     $96,300,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Transfer of cap to Green Tree Servicing
                                                                                                                     7/16/2010       ($210,000)     $96,090,000
                                                                                                                                                                   LLC due to servicing transfer
                                                                                                                     8/13/2010       ($100,000)     $95,990,000    Transfer of cap due to servicing transfer
                                                                                                                     9/30/2010      $68,565,782    $164,555,782    Updated portfolio data from servicer
                                                                                                                      1/6/2011            ($247)   $164,555,535    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011            ($294)   $164,555,241
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011          ($2,779)   $164,552,462
                                                                                                                                                                   reallocation
                                                                                                                    10/19/2011   ($162,895,068)      $1,657,394    Termination of SPA

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                249
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                           250
             Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                        TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                  Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives     Incentives     Incentives            Payments
                                                                                                                  6/17/2009     ($64,990,000)    $91,010,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $130,780,000     $221,790,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009   ($116,750,000)    $105,040,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010      $13,080,000    $118,120,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($24,220,000)    $93,900,000    Updated portfolio data from servicer
                                                                                                                                                                Transfer of cap from Wilshire Credit
                                                                                                                  7/16/2010         $210,000     $94,110,000
                                                                                                                                                                Corporation due to servicing transfer
                                                                                                                  8/13/2010       $2,200,000     $96,310,000    Transfer of cap due to servicing transfer
                                                                                                                  9/10/2010      $34,600,000    $130,910,000    Initial 2MP cap
                                                                                                                  9/30/2010       $5,600,000    $136,510,000    Initial FHA-2LP cap and FHA-HAMP
                                                      Financial
            Green Tree Servicing LLC,                 Instrument for                                              9/30/2010      $10,185,090    $146,695,090    Updated portfolio data from servicer
4/24/2009                               Purchase                       $156,000,000           N/A                                                                                                            $526,174     $1,515,593     $1,607,119            $3,648,885
            Saint Paul, MN                            Home Loan
                                                      Modifications                                              10/15/2010         $400,000    $147,095,090    Transfer of cap due to servicing transfer
                                                                                                                   1/6/2011            ($213)   $147,094,877    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($250)   $147,094,627
                                                                                                                                                                reallocation
                                                                                                                  5/13/2011       $1,200,000    $148,294,627    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011         $100,000    $148,394,627    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($2,302)   $148,392,325
                                                                                                                                                                reallocation
                                                                                                                  7/14/2011       $1,900,000    $150,292,325    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011         $200,000    $150,492,325    Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011         $200,000    $150,692,325    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011         $400,000    $151,092,325    Transfer of cap due to servicing transfer
                                                                                                                  6/17/2009     ($63,980,000)   $131,020,000    Updated portfolio data from servicer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009      $90,990,000    $222,010,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009      $57,980,000    $279,990,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010      $74,520,000    $354,510,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010     ($75,610,000)   $278,900,000    Updated portfolio data from servicer
                                                                                                                  8/13/2010       $1,100,000    $280,000,000    Transfer of cap due to servicing transfer

                                                      Financial                                                   9/30/2010       $3,763,685    $283,763,685    Updated portfolio data from servicer
            Carrington Mortgage
                                                      Instrument for
4/27/2009   Services, LLC, Santa        Purchase                       $195,000,000           N/A                12/15/2010         $300,000    $284,063,685    Updated portfolio data from servicer        $3,487,312   $11,258,653     $8,220,591           $22,966,555
                                                      Home Loan
            Ana, CA
                                                      Modifications                                                1/6/2011            ($325)   $284,063,360    Updated portfolio data from servicer
                                                                                                                  1/13/2011       $2,400,000    $286,463,360    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($384)   $286,462,976
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($3,592)   $286,459,384
                                                                                                                                                                reallocation
                                                                                                                  8/16/2011       $1,800,000    $288,259,384    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011         $100,000    $288,359,384    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       $1,000,000    $289,359,384    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                         TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                   Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                   6/17/2009   ($338,450,000)    $459,550,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009     ($11,860,000)   $447,690,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $21,330,000    $469,020,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       $9,150,000    $478,170,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($76,870,000)   $401,300,000    Updated portfolio data from servicer
                                                       Financial
            Aurora Loan Services, LLC,                 Instrument for                                               9/1/2010         $400,000    $401,700,000    Initial FHA-HAMP cap
5/1/2009                                 Purchase                       $798,000,000           N/A                                                                                                            $9,749,219   $27,858,592    $21,117,210           $58,725,021
            Littleton, CO                              Home Loan                                                   9/30/2010      ($8,454,269)   $393,245,731    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    1/6/2011            ($342)   $393,245,389    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($374)   $393,245,015
                                                                                                                                                                 reallocation
                                                                                                                   5/13/2011      $18,000,000    $411,245,015    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($3,273)   $411,241,742
                                                                                                                                                                 reallocation
                                                                                                                  10/14/2011       ($200,000)    $411,041,742    Transfer of cap due to servicing transfer
                                                                                                                   6/12/2009      $16,140,000    $117,140,000    Updated portfolio data from servicer
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009    $134,560,000     $251,700,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $80,250,000    $331,950,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010      $67,250,000    $399,200,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($85,900,000)   $313,300,000    Updated portfolio data from servicer
                                                                                                                   8/13/2010         $100,000    $313,400,000    Transfer of cap due to servicing transfer
                                                                                                                                                                 Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                   9/30/2010       $2,900,000    $316,300,000
                                                                                                                                                                 initial RD-HAMP, and initial 2MP cap
                                                       Financial                                                   9/30/2010      $33,801,486    $350,101,486    Updated portfolio data from servicer
            Nationstar Mortgage LLC,                   Instrument for
5/28/2009                                Purchase                       $101,000,000           N/A                                                                                                            $7,623,964   $17,886,159    $15,599,543           $41,109,666
            Lewisville, TX                             Home Loan                                                  11/16/2010         $700,000    $350,801,486    Transfer of cap due to servicing transfer
                                                       Modifications
                                                                                                                  12/15/2010       $1,700,000    $352,501,486    Updated portfolio data from servicer
                                                                                                                    1/6/2011            ($363)   $352,501,123    Updated portfolio data from servicer
                                                                                                                   2/16/2011         $900,000    $353,401,123    Transfer of cap due to servicing transfer
                                                                                                                   3/16/2011      $29,800,000    $383,201,123    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($428)   $383,200,695
                                                                                                                                                                 reallocation
                                                                                                                   5/26/2011      $20,077,503    $403,278,198    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($4,248)   $403,273,950
                                                                                                                                                                 reallocation
                                                                                                                  11/16/2011         $100,000    $403,373,950    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                251
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)                                                                                                                                                                           252
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                        TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                 Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives   Incentives      Incentives            Payments
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      9/30/2009      ($1,860,000)    $17,540,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     12/30/2009      $27,920,000     $45,460,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                      3/26/2010      ($1,390,000)    $44,070,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010     ($13,870,000)    $30,200,000    Updated portfolio data from servicer
                                                                                                                                                                    Initial FHA-HAMP cap, initial FHA-2LP cap,
                                                                                                                      9/30/2010         $400,000     $30,600,000
                                                                                                                                                                    and initial 2MP cap
                                                          Financial
            Residential Credit Solutions,                 Instrument for                                              9/30/2010         $586,954     $31,186,954    Updated portfolio data from servicer
6/12/2009                                   Purchase                       $19,400,000            N/A                                                                                                             $391,737    $1,184,812     $1,038,357            $2,614,906
            Forth Worth, TX                               Home Loan
                                                          Modifications                                                1/6/2011             ($34)    $31,186,920    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($37)    $31,186,883
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011         $100,000     $31,286,883    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($329)    $31,286,554
                                                                                                                                                                    reallocation
                                                                                                                      9/15/2011      ($1,900,000)    $29,386,554    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                  APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                     11/16/2011       $2,800,000     $32,186,554    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      9/30/2009      $13,070,000     $29,590,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     12/30/2009    $145,510,000     $175,100,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                      3/26/2010   ($116,950,000)     $58,150,000    Updated portfolio data from servicer
                                                          Financial
            CCO Mortgage, Glen                            Instrument for                                              7/14/2010     ($23,350,000)    $34,800,000    Updated portfolio data from servicer
6/17/2009                                   Purchase                       $16,520,000            N/A                                                                                                             $804,259    $2,208,558     $1,736,649            $4,749,467
            Allen, VA                                     Home Loan                                                   9/30/2010       $7,846,346     $42,646,346    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                       1/6/2011             ($46)    $42,646,300    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($55)    $42,646,245
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($452)    $42,645,793
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                      9/30/2009     ($11,300,000)    $45,700,000
                                                                                                                                                                    HPDP initial cap
                                                                                                                                                                    Updated portfolio data from servicer &
                                                                                                                     12/30/2009     ($42,210,000)     $3,490,000
                                                                                                                                                                    HAFA initial cap
                                                                                                                      3/26/2010      $65,640,000     $69,130,000    Updated portfolio data from servicer
                                                                                                                       4/9/2010     ($14,470,000)    $54,660,000    Updated portfolio data from servicer
                                                          Financial
            RG Mortgage Corporation,                      Instrument for                                              7/14/2010      ($8,860,000)    $45,800,000    Updated portfolio data from servicer
6/17/2009                                   Purchase                       $57,000,000            N/A                                                                                                             $164,853     $227,582        $401,334              $793,769
            San Juan, PR                                  Home Loan                                                   9/30/2010      ($4,459,154)    $41,340,846    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                     12/15/2010      ($4,300,000)    $37,040,846    Updated portfolio data from servicer
                                                                                                                       1/6/2011             ($51)    $37,040,795    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($65)    $37,040,730
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($616)    $37,040,114
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated portfolio data from servicer &
                                                          Financial                                                  12/30/2009       $2,020,000      $2,790,000
                                                                                                                                                                    HAFA initial cap
            First Federal Savings and                     Instrument for
6/19/2009                                   Purchase                       $770,000               N/A                                                                                                                  $—           $—              $—                     $—
            Loan, Port Angeles, WA                        Home Loan                                                   3/26/2010      $11,370,000     $14,160,000    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                      5/26/2010     ($14,160,000)             $—    Termination of SPA

                                                                                                                                                                                                                                                        Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                              (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                      Cap of Investment
                                                                      Payments on Behalf
                                                                      of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                       Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution        Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009         $330,000        $870,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009      $16,490,000     $17,360,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010     ($14,260,000)     $3,100,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010      ($1,800,000)     $1,300,000    Updated portfolio data from servicer
                                                     Financial
            Wescom Central Credit                    Instrument for                                              7/30/2010       $1,500,000      $2,800,000    Updated portfolio data from servicer
6/19/2009                              Purchase                       $540,000               N/A         12                                                                                                  $93,546    $374,719         $210,613              $678,877
            Union, Anaheim, CA                       Home Loan
                                                     Modifications                                               9/30/2010       $1,551,668      $4,351,668    Updated portfolio data from servicer
                                                                                                                  1/6/2011              ($2)     $4,351,666    Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011              ($2)     $4,351,664
                                                                                                                                                               reallocation
                                                                                                                 5/13/2011      ($1,800,000)     $2,551,664    Transfer of cap due to servicing transfer
                                                                                                                  6/3/2011      ($1,872,787)       $678,877    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                 9/30/2009         ($10,000)        $20,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009         $590,000        $610,000
                                                     Financial                                                                                                 HAFA initial cap
            Citizens First Wholesale
                                                     Instrument for
6/26/2009   Mortgage Company, The      Purchase                       $30,000                N/A                 3/26/2010       ($580,000)         $30,000    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                     Home Loan
            Villages, FL
                                                     Modifications                                               7/14/2010          $70,000        $100,000    Updated portfolio data from servicer
                                                                                                                 9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                 2/17/2011       ($145,056)              $—    Termination of SPA
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                12/30/2009       $2,180,000      $2,250,000
                                                                                                                                                               HAFA initial cap
                                                                                                                 3/26/2010       ($720,000)      $1,530,000    Updated portfolio data from servicer
                                                                                                                 7/14/2010       ($430,000)      $1,100,000    Updated portfolio data from servicer
                                                     Financial
            Technology Credit Union,                 Instrument for                                              9/30/2010          $60,445      $1,160,445    Updated portfolio data from servicer
6/26/2009                              Purchase                       $70,000                N/A                                                                                                             $14,250     $72,745          $32,417              $119,412
            San Jose, CA                             Home Loan
                                                     Modifications                                                1/6/2011              ($1)     $1,160,444    Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 3/30/2011              ($1)     $1,160,443
                                                                                                                                                               reallocation
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                 6/29/2011             ($12)     $1,160,431
                                                                                                                                                               reallocation

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                            253
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                             (CONTINUED)                                                                                                                                                                             254
              Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                        TARP Incentive Payments
                                                                     Cap of Investment
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                   Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                   Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution       Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                        Incentives   Incentives      Incentives            Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                9/30/2009     $315,170,000      $610,150,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                               12/30/2009       $90,280,000     $700,430,000
                                                                                                                                                                HAFA initial cap
                                                                                                                3/26/2010     ($18,690,000)     $681,740,000    Updated portfolio data from servicer
                                                                                                                7/14/2010    ($272,640,000)     $409,100,000    Updated portfolio data from servicer
                                                                                                                                                                Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                9/30/2010       $80,600,000     $489,700,000
                                                                                                                                                                and initial 2MP cap
                                                                                                                9/30/2010       $71,230,004     $560,930,004    Updated portfolio data from servicer
                                                                                                                 1/6/2011             ($828)    $560,929,176    Updated portfolio data from servicer
                                                    Financial                                                   2/16/2011          $200,000     $561,129,176    Transfer of cap due to servicing transfer
            National City Bank,                     Instrument for
6/26/2009                             Purchase                       $294,980,000           N/A                                                                                                               $857,240    $2,985,680     $2,068,092            $5,911,012
            Miamisburg, OH                          Home Loan                                                   3/16/2011        ($100,000)     $561,029,176    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($981)    $561,028,195
                                                                                                                                                                reallocation
                                                                                                                4/13/2011       ($2,300,000)    $558,728,195    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011        ($200,000)     $558,528,195    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                6/16/2011        ($200,000)     $558,328,195    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                6/29/2011           ($9,197)    $558,318,998
                                                                                                                                                                reallocation
                                                                                                                8/16/2011               $—      $558,318,998    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011          $300,000     $558,618,998    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011        ($300,000)     $558,318,998    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                9/30/2009     $723,880,000     $1,357,890,000
                                                                                                                                                                HPDP initial cap

                                                    Financial                                                                                                   Updated portfolio data from servicer &
                                                                                                               12/30/2009     $692,640,000     $2,050,530,000
            Wachovia Mortgage, FSB,                 Instrument for                                                                                              HAFA initial cap
7/1/2009                              Purchase                       $634,010,000           N/A         3                                                                                                          $—       $76,890        $162,000              $238,890
            Des Moines, IA                          Home Loan                                                                                                   Transfer of cap (to Wells Fargo Bank) due
                                                    Modifications                                               2/17/2010   ($2,050,236,344)        $293,656
                                                                                                                                                                to merger
                                                                                                                                                                Transfer of cap (to Wells Fargo Bank) due
                                                                                                                3/12/2010          ($54,767)        $238,890
                                                                                                                                                                to merger
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                9/30/2009       $23,850,000      $68,110,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                               12/30/2009       $43,590,000     $111,700,000
                                                                                                                                                                HAFA initial cap
                                                                                                                3/26/2010       $34,540,000     $146,240,000    Updated portfolio data from servicer
                                                                                                                 5/7/2010        $1,010,000     $147,250,000    Initial 2MP cap
                                                                                                                7/14/2010     ($34,250,000)     $113,000,000    Updated portfolio data from servicer
                                                                                                                9/30/2010          $600,000     $113,600,000    Initial FHA-2LP cap
                                                    Financial
            Bayview Loan Servicing,                 Instrument for                                              9/30/2010     ($15,252,303)      $98,347,697    Updated portfolio data from servicer
7/1/2009                              Purchase                       $44,260,000            N/A                                                                                                              $2,781,502   $6,760,558     $5,702,611           $15,244,671
            LLC, Coral Gables, FL                   Home Loan                                                    1/6/2011              ($70)     $98,347,627    Updated portfolio data from servicer
                                                    Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                3/30/2011              ($86)     $98,347,541
                                                                                                                                                                reallocation
                                                                                                                4/13/2011          $400,000      $98,747,541    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011          $100,000      $98,847,541    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                6/29/2011             ($771)     $98,846,770
                                                                                                                                                                reallocation
                                                                                                                9/15/2011          $600,000      $99,446,770    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011     ($18,900,000)      $80,546,770    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                        TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                 Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                 Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                        Incentives   Incentives      Incentives            Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009         $150,000        $250,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         $130,000        $380,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010          $50,000        $430,000    Updated portfolio data from servicer
                                                         Financial
            Lake National Bank,                          Instrument for                                              7/14/2010         ($30,000)       $400,000    Updated portfolio data from servicer
7/10/2009                                  Purchase                       $100,000               N/A                                                                                                               $2,000       $2,988          $3,000                $7,988
            Mentor, OH                                   Home Loan                                                   9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                      1/6/2011              ($1)       $435,166    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($1)       $435,165
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($6)       $435,159
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009         ($10,000)       $860,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         $250,000      $1,110,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010         ($10,000)     $1,100,000    Updated portfolio data from servicer
                                                         Financial
            IBM Southeast Employees’                                                                                 7/14/2010       ($400,000)        $700,000    Updated portfolio data from servicer
                                                         Instrument for
7/10/2009   Federal Credit Union,          Purchase                       $870,000               N/A                                                                                                               $6,917      $17,643         $14,000               $38,559
                                                         Home Loan                                                   9/30/2010         $170,334        $870,334    Updated portfolio data from servicer
            Delray Beach, FL
                                                         Modifications
                                                                                                                      1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($1)       $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($12)       $870,320
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                     9/30/2009      $18,530,000     $42,010,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009      $24,510,000     $66,520,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010      $18,360,000     $84,880,000    Updated portfolio data from servicer

                                                         Financial                                                   7/14/2010     ($22,580,000)    $62,300,000    Updated portfolio data from servicer
            MorEquity, Inc., Evansville,                 Instrument for
7/17/2009                                  Purchase                       $23,480,000            N/A         11      9/30/2010      ($8,194,261)    $54,105,739    Updated portfolio data from servicer          $345,841    $2,305,003     $1,977,321            $4,628,165
            IN                                           Home Loan
                                                         Modifications                                                1/6/2011             ($37)    $54,105,702    Updated portfolio data from servicer
                                                                                                                     3/16/2011     ($29,400,000)    $24,705,702    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011             ($34)    $24,705,668
                                                                                                                                                                   reallocation
                                                                                                                                                                   Termination of SPA
                                                                                                                     5/26/2011     ($20,077,503)     $4,628,165
                                                                                                                                                                   (remaining cap equals distribution amount)

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                 255
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                          256
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($36,240,000)    $18,230,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009      $19,280,000     $37,510,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010       $2,470,000     $39,980,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010     ($17,180,000)    $22,800,000    Updated portfolio data from servicer

                                                        Financial                                                   9/30/2010      $35,500,000     $58,300,000    Initial FHA-2LP cap and initial 2MP cap
            PNC Bank, National                          Instrument for
7/17/2009                                 Purchase                       $54,470,000            N/A                 9/30/2010      $23,076,191     $81,376,191    Updated portfolio data from servicer          $12,833    $111,530         $151,500              $275,863
            Association, Pittsburgh, PA                 Home Loan
                                                        Modifications                                                1/6/2011            ($123)    $81,376,068    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011            ($147)    $81,375,921
                                                                                                                                                                  reallocation
                                                                                                                    5/13/2011       ($100,000)     $81,275,921    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011          ($1,382)    $81,274,539
                                                                                                                                                                  reallocation
                                                                                                                   10/14/2011       ($300,000)     $80,974,539    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009         ($90,000)        $80,000
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009          $50,000        $130,000
                                                        Financial                                                                                                 HAFA initial cap
            Farmers State Bank,                         Instrument for
7/17/2009                                 Purchase                       $170,000               N/A                 3/26/2010         $100,000        $230,000    Updated portfolio data from servicer              $—           $—              $—                     $—
            West Salem, OH                              Home Loan
                                                        Modifications                                               7/14/2010       ($130,000)        $100,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                    5/20/2011       ($145,056)              $—    Termination of SPA
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                    9/30/2009         $890,000      $2,300,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,260,000      $3,560,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010         ($20,000)     $3,540,000    Updated portfolio data from servicer

                                                        Financial                                                   7/14/2010       ($240,000)      $3,300,000    Updated portfolio data from servicer
                                                        Instrument for
7/17/2009   ShoreBank, Chicago, IL        Purchase                       $1,410,000             N/A                 9/30/2010         $471,446      $3,771,446    Updated portfolio data from servicer          $49,915    $153,906         $143,165              $346,986
                                                        Home Loan
                                                        Modifications                                                1/6/2011              ($3)     $3,771,443    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($4)     $3,771,439
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011      ($1,100,000)     $2,671,439    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($38)     $2,671,401
                                                                                                                                                                  reallocation

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                         TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009     ($53,670,000)   $1,218,820,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009    $250,450,000     $1,469,270,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010    $124,820,000     $1,594,090,000   Updated portfolio data from servicer
                                                                                                                    7/14/2010   ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer
                                                                                                                    9/30/2010       $1,690,508    $1,305,790,508   Updated portfolio data from servicer
                                                                                                                   10/15/2010         $300,000    $1,306,090,508   Transfer of cap due to servicing transfer

                                                        Financial                                                  11/16/2010       ($100,000)    $1,305,990,508   Transfer of cap due to servicing transfer
            American Home Mortgage                      Instrument for
7/22/2009                                 Purchase                       $1,272,490,000         N/A                  1/6/2011          ($1,173)   $1,305,989,335   Updated portfolio data from servicer        $23,705,701   $76,956,781    $56,302,438         $156,964,919
            Servicing, Inc, Coppell, TX                 Home Loan
                                                        Modifications                                               2/16/2011       ($500,000)    $1,305,489,335   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011          ($1,400)   $1,305,487,935
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011       $3,100,000    $1,308,587,935   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011         ($12,883)   $1,308,575,052
                                                                                                                                                                   reallocation
                                                                                                                    9/15/2011      ($1,000,000)   $1,307,575,052   Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011       ($100,000)    $1,307,475,052   Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011      ($1,100,000)   $1,306,375,052   Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009       $1,780,000       $5,990,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $2,840,000       $8,830,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                    3/26/2010       $2,800,000      $11,630,000    Updated portfolio data from servicer
                                                        Financial
            Mortgage Center, LLC,                       Instrument for                                              7/14/2010      ($5,730,000)      $5,900,000    Updated portfolio data from servicer
7/22/2009                                 Purchase                       $4,210,000             N/A                                                                                                               $43,701      $104,092        $120,583              $268,376
            Southfield, MI                              Home Loan                                                   9/30/2010       $2,658,280       $8,558,280    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                     1/6/2011             ($12)      $8,558,268    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($14)      $8,558,254
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($129)      $8,558,125
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    9/30/2009       ($490,000)         $370,000
                                                                                                                                                                   HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $6,750,000       $7,120,000
                                                                                                                                                                   HAFA initial cap

                                                        Financial                                                   3/26/2010      ($6,340,000)        $780,000    Updated portfolio data from servicer
            Mission Federal Credit                      Instrument for
7/22/2009                                 Purchase                       $860,000               N/A                 7/14/2010       ($180,000)         $600,000    Updated portfolio data from servicer           $18,667       $58,123         $45,917              $122,706
            Union, San Diego, CA                        Home Loan
                                                        Modifications                                               9/30/2010         $125,278         $725,278    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($1)        $725,277
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($4)        $725,273
                                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                  257
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                        258
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                     TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009      ($1,530,000)     $4,930,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009         $680,000      $5,610,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       $2,460,000      $8,070,000    Updated portfolio data from servicer
                                                       Financial
                                                       Instrument for                                              7/14/2010      ($2,470,000)     $5,600,000    Updated portfolio data from servicer
7/29/2009   First Bank, St. Louis, MO    Purchase                       $6,460,000             N/A                                                                                                          $306,457    $831,937         $737,204            $1,875,597
                                                       Home Loan                                                   9/30/2010       $2,523,114      $8,123,114    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                    1/6/2011              ($2)     $8,123,112    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($2)     $8,123,110
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($15)     $8,123,095
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009         ($60,000)     $1,030,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,260,000      $2,290,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       $2,070,000      $4,360,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                       Financial
            Purdue Employees                                                                                       7/14/2010      ($3,960,000)       $400,000    Updated portfolio data from servicer
                                                       Instrument for
7/29/2009   Federal Credit Union, West   Purchase                       $1,090,000             N/A                                                                                                               $—           $—              $—                     $—
                                                       Home Loan                                                   9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
            Lafayette, IN
                                                       Modifications
                                                                                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)       $580,212
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                   9/30/2009     ($37,700,000)    $47,320,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $26,160,000     $73,480,000
                                                       Financial                                                                                                 HAFA initial cap
            Wachovia Bank, N.A.,                       Instrument for
7/29/2009                                Purchase                       $85,020,000            N/A                 3/26/2010       $9,820,000     $83,300,000    Updated portfolio data from servicer            $—           $—              $—                     $—
            Charlotte, NC                              Home Loan
                                                       Modifications                                               7/14/2010     ($46,200,000)    $37,100,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010     ($28,686,775)     $8,413,225    Updated portfolio data from servicer
                                                                                                                   12/3/2010      ($8,413,225)             $—    Termination of SPA

                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)
             Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                            TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                       Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                    Borrower’s       Investors       Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount       Adjusted Cap    Reason for Adjustment                         Incentives      Incentives      Incentives            Payments
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009     ($14,850,000)    $2,684,870,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $1,178,180,000    $3,863,050,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  3/26/2010    $1,006,580,000    $4,869,630,000
                                                                                                                                                                  2MP initial cap
                                                                                                                  7/14/2010   ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer
                                                                                                                                                                  Initial FHA-HAMP cap, Initial FHA-2LP cap,
                                                                                                                  9/30/2010       $72,400,000    $3,007,800,000
                                                                                                                                                                  and initial RD-HAMP
                                                                                                                  9/30/2010     $215,625,536     $3,223,425,536   Updated portfolio data from servicer
                                                                                                                   1/6/2011           ($3,636)   $3,223,421,900   Updated portfolio data from servicer
                                                      Financial                                                   3/16/2011        ($100,000)    $3,223,321,900   Transfer of cap due to servicing transfer
            J.P. Morgan Chase Bank,                   Instrument for
7/31/2009                               Purchase                       $2,699,720,000         N/A                                                                 Updated due to quarterly assessment and      $82,629,354   $143,898,023     $88,388,778         $314,916,155
            NA, Lewisville, TX                        Home Loan                                                   3/30/2011           ($3,999)   $3,223,317,901
                                                      Modifications                                                                                               reallocation
                                                                                                                  4/13/2011        ($200,000)    $3,223,117,901   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011     $122,700,000     $3,345,817,901   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($34,606)   $3,345,783,295
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011          $600,000    $3,346,383,295   Transfer of cap due to servicing transfer
                                                                                                                  8/16/2011        ($400,000)    $3,345,983,295   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011        ($100,000)    $3,345,883,295   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011          $200,000    $3,346,083,295   Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011     $519,211,309     $3,865,294,604   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($2,800,000)   $3,862,494,604   Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  9/30/2009          ($10,000)    $707,370,000
                                                                                                                                                                  HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                 12/30/2009     $502,430,000     $1,209,800,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                  3/26/2010    ($134,560,000)    $1,075,240,000
                                                                                                                                                                  2MP initial cap
                                                                                                                  7/14/2010    ($392,140,000)     $683,100,000    Updated portfolio data from servicer
                                                                                                                                                                  Transfer of cap to Saxon Mortgage
                                                                                                                  7/16/2010        ($630,000)     $682,470,000
                                                                                                                                                                  Services, Inc.
                                                                                                                                                                  Initial FHA-HAMP cap and initial FHA-2LP
                                                                                                                  9/30/2010       $13,100,000     $695,570,000
                                                                                                                                                                  cap

                                                      Financial                                                   9/30/2010       ($8,006,457)    $687,563,543    Updated portfolio data from servicer
            EMC Mortgage Corporation,                 Instrument for                                             10/15/2010        ($100,000)     $687,463,543    Transfer of cap due to servicing transfer
7/31/2009                               Purchase                       $707,380,000           N/A         14                                                                                                    $7,569,459    $11,592,937     $16,279,383           $35,441,779
            Lewisville, TX                            Home Loan
                                                      Modifications                                              12/15/2010       ($4,400,000)    $683,063,543    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($802)    $683,062,741    Updated portfolio data from servicer
                                                                                                                  2/16/2011        ($900,000)     $682,162,741    Transfer of cap due to servicing transfer
                                                                                                                  3/16/2011       ($4,000,000)    $678,162,741    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($925)    $678,161,816
                                                                                                                                                                  reallocation
                                                                                                                  5/13/2011    ($122,900,000)     $555,261,816    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($8,728)    $555,253,088
                                                                                                                                                                  reallocation
                                                                                                                  7/14/2011        ($600,000)     $554,653,088    Transfer of cap due to servicing transfer
                                                                                                                 10/19/2011    ($519,211,309)      $35,441,779    Termination of SPA
                                                                                                                                                                                                                                                                                    TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    259
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)                                                                                                                                                                          260
            Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date       Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $180,000        $600,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009       ($350,000)        $250,000
                                                                                                                                                                HAFA initial cap
                                                      Financial
                                                      Instrument for                                              3/26/2010          $20,000        $270,000    Updated portfolio data from servicer
8/5/2009   Lake City Bank, Warsaw, IN   Purchase                       $420,000               N/A                                                                                                              $2,176       $2,451          $7,673               $12,299
                                                      Home Loan
                                                      Modifications                                               7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010          $90,111        $290,111    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($3)       $290,108
                                                                                                                                                                reallocation
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009         $290,000        $430,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009         $210,000        $640,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010         $170,000        $810,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010         ($10,000)       $800,000    Updated portfolio data from servicer
                                                      Financial
           Oakland Municipal Credit                   Instrument for                                              9/30/2010         ($74,722)       $725,278    Updated portfolio data from servicer
8/5/2009                                Purchase                       $140,000               N/A         12                                                                                                      $—        $3,568          $6,500               $10,068
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




           Union, Oakland, CA                         Home Loan                                                    1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($1)       $725,276
                                                                                                                                                                reallocation
                                                                                                                  4/13/2011       ($200,000)        $525,276    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($7)       $525,269
                                                                                                                                                                reallocation
                                                                                                                  7/22/2011       ($515,201)         $10,068    Termination of SPA
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                  9/30/2009   ($121,190,000)    $552,810,000
                                                                                                                                                                HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009     ($36,290,000)   $516,520,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010    $199,320,000     $715,840,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($189,040,000)    $526,800,000    Updated portfolio data from servicer

                                                      Financial                                                   9/30/2010      $38,626,728    $565,426,728    Updated portfolio data from servicer
           HomEq Servicing, North                     Instrument for
8/5/2009                                Purchase                       $674,000,000           N/A                10/15/2010   ($170,800,000)    $394,626,728    Transfer of cap due to servicing transfer         $—     $3,036,319     $5,272,500            $8,308,819
           Highlands, CA                              Home Loan
                                                      Modifications                                              12/15/2010     ($22,200,000)   $372,426,728    Updated portfolio data from servicer
                                                                                                                   1/6/2011            ($549)   $372,426,179    Updated portfolio data from servicer
                                                                                                                  2/16/2011       ($900,000)    $371,526,179    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011            ($653)   $371,525,526
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011          ($6,168)   $371,519,358
                                                                                                                                                                reallocation

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                         TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  9/30/2009    $313,050,000     $1,087,950,000
                                                                                                                                                                 HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                 12/30/2009    $275,370,000     $1,363,320,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                  3/26/2010    $278,910,000     $1,642,230,000   Updated portfolio data from servicer
                                                                                                                  7/14/2010   ($474,730,000)    $1,167,500,000   Updated portfolio data from servicer
                                                                                                                                                                 Transfer of cap to due to servicing
                                                                                                                  8/13/2010       ($700,000)    $1,166,800,000
                                                                                                                                                                 transfer
                                                                                                                                                                 Transfer of cap to due to servicing
                                                                                                                  9/15/2010      ($1,000,000)   $1,165,800,000
                                                                                                                                                                 transfer
                                                                                                                  9/30/2010   ($115,017,236)    $1,050,782,764   Updated portfolio data from servicer
                                                                                                                 10/15/2010       ($800,000)    $1,049,982,764   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2010        $800,000     $1,050,782,764   Updated portfolio data from servicer
                                                      Financial
            Litton Loan Servicing LP,                 Instrument for                                               1/6/2011          ($1,286)   $1,050,781,478   Updated portfolio data from servicer
8/12/2009                               Purchase                       $774,900,000           N/A                                                                                                            $13,440,220   $35,346,386    $27,529,414           $76,316,020
            Houston, TX                               Home Loan
                                                                                                                  3/16/2011       $8,800,000    $1,059,581,478   Transfer of cap due to servicing transfer
                                                      Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011          ($1,470)   $1,059,580,008
                                                                                                                                                                 reallocation
                                                                                                                  4/13/2011      ($3,300,000)   $1,056,280,008   Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011       ($300,000)    $1,055,980,008   Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011       ($700,000)    $1,055,280,008   Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011         ($13,097)   $1,055,266,911
                                                                                                                                                                 reallocation
                                                                                                                  7/14/2011       ($200,000)    $1,055,066,911   Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011      ($2,900,000)   $1,052,166,911   Transfer of cap due to servicing transfer
                                                                                                                 10/14/2011       ($300,000)    $1,051,866,911   Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011       ($500,000)    $1,051,366,911   Transfer of cap due to servicing transfer
                                                                                                                 12/15/2011      ($2,600,000)   $1,048,766,911   Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                261
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                             (CONTINUED)                                                                                                                                                                          262
             Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                       TARP Incentive Payments
                                                                     Cap of Investment
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                      Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution       Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                                                              Updated portfolio data from servicer &
                                                                                                                9/30/2009      ($1,200,000)     $5,010,000
                                                                                                                                                              HPDP initial cap
                                                                                                                                                              Updated portfolio data from servicer &
                                                                                                               12/30/2009      $30,800,000     $35,810,000
                                                                                                                                                              HAFA initial cap
                                                                                                                3/26/2010      $23,200,000     $59,010,000    Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from CitiMortgage, Inc.
                                                                                                                6/16/2010       $2,710,000     $61,720,000
                                                                                                                                                              due to servicing transfer
                                                                                                                7/14/2010     ($18,020,000)    $43,700,000    Updated portfolio data from servicer
                                                                                                                                                              Transfer of cap from CitiMortgage, Inc.
                                                                                                                7/16/2010       $6,680,000     $50,380,000
                                                                                                                                                              due to servicing transfer
                                                                                                                                                              Transfer of cap to due to servicing
                                                                                                                8/13/2010       $2,600,000     $52,980,000
                                                                                                                                                              transfer
                                                                                                                                                              Transfer of cap to due to servicing
                                                                                                                9/15/2010       ($100,000)     $52,880,000
                                                                                                                                                              transfer
                                                                                                                9/30/2010         $200,000     $53,080,000    Initial FHA-HAMP cap and 2MP initial cap
                                                                                                                9/30/2010      ($1,423,197)    $51,656,803    Updated portfolio data from servicer
                                                                                                               11/16/2010       $1,400,000     $53,056,803    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                           APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                    Financial
            PennyMac Loan Services,                 Instrument for                                             12/15/2010       ($100,000)     $52,956,803    Updated portfolio data from servicer
8/12/2009                             Purchase                       $6,210,000             N/A                                                                                                           $1,502,537   $1,821,888     $2,101,682            $5,426,107
            LLC, Calasbasa, CA                      Home Loan
                                                    Modifications                                                1/6/2011             ($72)    $52,956,731    Updated portfolio data from servicer
                                                                                                                1/13/2011       $4,100,000     $57,056,731    Transfer of cap due to servicing transfer
                                                                                                                2/16/2011       ($100,000)     $56,956,731    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011       $4,000,000     $60,956,731    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($94)    $60,956,637
                                                                                                                                                              reallocation
                                                                                                                4/13/2011       ($100,000)     $60,856,637    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011       $5,800,000     $66,656,637    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011         $600,000     $67,256,637    Transfer of cap due to servicing transfer
                                                                                                                                                              Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($812)    $67,255,825
                                                                                                                                                              reallocation
                                                                                                                7/14/2011       $2,500,000     $69,755,825    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011       $2,800,000     $72,555,825    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011         $300,000     $72,855,825    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $900,000     $73,755,825    Transfer of cap due to servicing transfer
                                                                                                               12/15/2011         $800,000     $74,555,825    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                 Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                             (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                              Adjustment Details                                                         TARP Incentive Payments
                                                                     Cap of Investment
                                                                     Payments on Behalf
                                                                     of Borrowers and to                                                                                                                                    Lenders/                           Total TARP
                                      Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                  Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution       Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount      Adjusted Cap    Reason for Adjustment                        Incentives     Incentives     Incentives            Payments
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                                9/30/2009     ($25,510,000)      $4,220,000
                                                                                                                                                               HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                               12/30/2009         $520,000       $4,740,000
                                                                                                                                                               HAFA initial cap
                                                                                                                3/26/2010       $4,330,000       $9,070,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap from CitiMortgage, Inc.
                                                                                                                4/19/2010         $230,000       $9,300,000
                                                                                                                                                               due to servicing transfer
                                                                                                                5/19/2010         $850,000      $10,150,000    Initial 2MP cap
                                                                                                                7/14/2010       ($850,000)       $9,300,000    Updated portfolio data from servicer
                                                                                                                                                               Transfer of cap to due to servicing
                                                                                                                9/15/2010         $100,000       $9,400,000
                                                                                                                                                               transfer
                                                                                                                9/30/2010         $100,000       $9,500,000    Initial FHA-HAMP cap
                                                                                                                9/30/2010      $16,755,064      $26,255,064    Updated portfolio data from servicer
                                                                                                               10/15/2010         $100,000      $26,355,064    Transfer of cap due to servicing transfer
                                                                                                               12/15/2010         $100,000      $26,455,064    Updated portfolio data from servicer
                                                    Financial
            Servis One, Inc.,                       Instrument for                                               1/6/2011             ($40)     $26,455,024    Updated portfolio data from servicer
8/12/2009                             Purchase                       $29,730,000            N/A                                                                                                               $21,557       $67,980         $69,307              $158,843
            Titusville, PA                          Home Loan
                                                                                                                1/13/2011         $300,000      $26,755,024    Transfer of cap due to servicing transfer
                                                    Modifications
                                                                                                                2/16/2011         $100,000      $26,855,024    Transfer of cap due to servicing transfer
                                                                                                                3/16/2011       $2,200,000      $29,055,024    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                3/30/2011             ($52)     $29,054,972
                                                                                                                                                               reallocation
                                                                                                                4/13/2011       $1,500,000      $30,554,972    Transfer of cap due to servicing transfer
                                                                                                                5/13/2011       $1,000,000      $31,554,972    Transfer of cap due to servicing transfer
                                                                                                                6/16/2011         $100,000      $31,654,972    Transfer of cap due to servicing transfer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                6/29/2011            ($534)     $31,654,438
                                                                                                                                                               reallocation
                                                                                                                8/16/2011         $700,000      $32,354,438    Transfer of cap due to servicing transfer
                                                                                                                9/15/2011       ($600,000)      $31,754,438    Transfer of cap due to servicing transfer
                                                                                                               10/14/2011       $4,000,000      $35,754,438    Transfer of cap due to servicing transfer
                                                                                                               11/16/2011         $600,000      $36,354,438    Transfer of cap due to servicing transfer
                                                                                                               12/15/2011         $200,000      $36,554,438    Transfer of cap due to servicing transfer
                                                                                                                10/2/2009    $145,800,000      $814,240,000    HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                               12/30/2009   $1,355,930,000    $2,170,170,000
                                                                                                                                                               HAFA initial cap
                                                                                                                3/26/2010    $121,180,000     $2,291,350,000   Updated portfolio data from servicer
                                                                                                                7/14/2010   ($408,850,000)    $1,882,500,000   Updated portfolio data from servicer
                                                    Financial
            OneWest Bank,                           Instrument for                                              9/30/2010       $5,500,000    $1,888,000,000   2MP initial cap
8/28/2009                             Purchase                       $668,440,000           N/A                                                                                                            $16,611,572   $60,996,250    $34,779,231         $112,387,053
            Pasadena, CA                            Home Loan
                                                    Modifications                                               9/30/2010     ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer
                                                                                                                 1/6/2011          ($2,282)   $1,836,256,555   Updated portfolio data from servicer
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                3/30/2011          ($2,674)   $1,836,253,881
                                                                                                                                                               reallocation
                                                                                                                                                               Updated due to quarterly assessment and
                                                                                                                6/29/2011         ($24,616)   $1,836,229,265
                                                                                                                                                               reallocation
                                                                                                                10/2/2009          $70,000         $370,000    HPDP initial cap
                                                                                                                                                               Updated portfolio data from servicer &
                                                                                                               12/30/2009       $2,680,000       $3,050,000
                                                                                                                                                               HAFA initial cap
                                                    Financial
            Stanford Federal Credit                 Instrument for                                              3/26/2010         $350,000       $3,400,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




8/28/2009                             Purchase                       $300,000               N/A                                                                                                                   $—             $—             $—                     $—
            Union, Palo Alto, CA                    Home Loan
                                                    Modifications                                               7/14/2010      ($1,900,000)      $1,500,000    Updated portfolio data from servicer
                                                                                                                9/30/2010      ($1,209,889)        $290,111    Updated portfolio data from servicer
                                                                                                                3/23/2010       ($290,111)               $—    Termination of SPA

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              263
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                          264
                Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date          Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                    10/2/2009        $130,000         $700,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009       ($310,000)        $390,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010       $2,110,000      $2,500,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       $8,300,000     $10,800,000    Updated portfolio data from servicer
                                                        Financial                                                   9/30/2010       $5,301,172     $16,101,172    Updated portfolio data from servicer
              RoundPoint Mortgage
                                                        Instrument for
8/28/2009     Servicing Corporation,      Purchase                       $570,000               N/A                  1/6/2011             ($22)    $16,101,150    Updated portfolio data from servicer          $60,039    $168,311         $157,496              $385,846
                                                        Home Loan
              Charlotte, NC
                                                        Modifications
                                                                                                                    3/16/2011       ($400,000)     $15,701,150    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($25)    $15,701,125
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011              $—      $15,701,125    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($232)    $15,700,893
                                                                                                                                                                  reallocation
                                                                                                                    10/2/2009        $130,000         $690,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009       $1,040,000      $1,730,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                    3/26/2010      ($1,680,000)        $50,000    Updated portfolio data from servicer
                                                        Financial
                                                        Instrument for                                              5/12/2010       $1,260,000      $1,310,000    Updated portfolio data from servicer
9/2/2009      Horicon Bank, Horicon, WI   Purchase                       $560,000               N/A                                                                                                              $2,515       $7,599          $5,570               $15,684
                                                        Home Loan                                                   7/14/2010      ($1,110,000)       $200,000    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                    9/30/2010        $100,000         $300,000    Initial RD-HAMP
                                                                                                                    9/30/2010          ($9,889)       $290,111    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($3)       $290,108
                                                                                                                                                                  reallocation
                                                                                                                    10/2/2009       $1,310,000      $7,310,000    HPDP initial cap
                                                                                                                                                                  Updated portfolio data from servicer &
                                                                                                                   12/30/2009      ($3,390,000)     $3,920,000
                                                                                                                                                                  HAFA initial cap
                                                                                                                    3/26/2010        $410,000       $4,330,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($730,000)      $3,600,000    Updated portfolio data from servicer
                                                                                                                    9/15/2010       $4,700,000      $8,300,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $117,764       $8,417,764    Updated portfolio data from servicer
                                                                                                                   11/16/2010        $800,000       $9,217,764    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2010       $2,700,000     $11,917,764    Updated portfolio data from servicer
                                                        Financial
9/2/2009 as   Vantium Capital, Inc.dba
                                                        Instrument for                                               1/6/2011             ($17)    $11,917,747    Updated portfolio data from servicer
amended on    Acqura Loan Services,       Purchase                       $6,000,000             N/A         10                                                                                                 $104,865    $201,018         $144,166              $450,049
                                                        Home Loan
8/27/2010     Plano, TX                                                                                             1/13/2011        $700,000      $12,617,747    Transfer of cap due to servicing transfer
                                                        Modifications
                                                                                                                    2/16/2011       $1,800,000     $14,417,747    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($19)    $14,417,728
                                                                                                                                                                  reallocation
                                                                                                                    4/13/2011        $300,000      $14,717,728    Transfer of cap due to servicing transfer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($189)    $14,717,539
                                                                                                                                                                  reallocation
                                                                                                                    8/16/2011        $300,000      $15,017,539    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2011        $100,000      $15,117,539    Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011        $100,000      $15,217,539    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                      TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                           Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s      Investors      Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives     Incentives     Incentives            Payments
                                                                                                                   10/2/2009         $280,000      $1,530,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       ($750,000)        $780,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010         $120,000        $900,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010       ($300,000)        $600,000    Updated portfolio data from servicer
            Central Florida Educators
                                                       Instrument for
9/9/2009    Federal Credit Union, Lake   Purchase                       $1,250,000             N/A                 9/30/2010         $270,334        $870,334    Updated portfolio data from servicer        $27,154       $54,800         $68,113              $150,066
                                                       Home Loan
            Mary, FL
                                                       Modifications
                                                                                                                    1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $870,332
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($5)       $870,327
                                                                                                                                                                 reallocation
                                                                                                                   10/2/2009      $24,920,000    $139,140,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      $49,410,000    $188,550,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010      $41,830,000    $230,380,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010     ($85,780,000)   $144,600,000    Updated portfolio data from servicer
            U.S. Bank National                         Instrument for
9/9/2009                                 Purchase                       $114,220,000           N/A                 9/30/2010      $36,574,444    $181,174,444    Updated portfolio data from servicer      $3,774,646   $12,028,896    $10,053,275           $25,856,817
            Association, Owensboro, KY                 Home Loan
                                                       Modifications
                                                                                                                    1/6/2011            ($160)   $181,174,284    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011            ($172)   $181,174,112
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011          ($1,431)   $181,172,681
                                                                                                                                                                 reallocation
                                                                                                                   10/2/2009         $950,000      $5,300,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $5,700,000     $11,000,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010         $740,000     $11,740,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010      ($1,440,000)    $10,300,000    Updated portfolio data from servicer
            CUC Mortgage Corporation,                  Instrument for
9/9/2009                                 Purchase                       $4,350,000             N/A                 9/30/2010      ($6,673,610)     $3,626,390    Updated portfolio data from servicer        $19,880       $55,236         $52,205              $127,320
            Albany, NY                                 Home Loan
                                                       Modifications
                                                                                                                    1/6/2011              ($5)     $3,626,385    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($6)     $3,626,379
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($52)     $3,626,327
                                                                                                                                                                 reallocation
                                                                                                                   10/2/2009         $460,000      $2,530,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $2,730,000      $5,260,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010      $13,280,000     $18,540,000    Updated portfolio data from servicer
                                                       Financial                                                   7/14/2010     ($13,540,000)     $5,000,000    Updated portfolio data from servicer
            ORNL Federal Credit Union,                 Instrument for
9/11/2009                                Purchase                       $2,070,000             N/A                 9/30/2010       $1,817,613      $6,817,613    Updated portfolio data from servicer         $2,000         $2,661         $6,000               $10,661
            Oak Ridge, TN                              Home Loan
                                                       Modifications
                                                                                                                    1/6/2011             ($10)     $6,817,603    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($12)     $6,817,591
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($115)     $6,817,476
                                                                                                                                                                 reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                             265
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)                                                                                                                                                                          266
              Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                     10/2/2009          $60,000        $310,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         ($80,000)       $230,000
                                                                                                                                                                   HAFA initial cap
                                                         Financial
            Allstate Mortgage Loans &                    Instrument for                                              3/26/2010         $280,000        $510,000    Updated portfolio data from servicer
9/11/2009                                  Purchase                       $250,000               N/A                                                                                                              $3,329       $6,380          $6,329               $16,039
            Investments, Inc., Ocala, FL                 Home Loan                                                   7/14/2010       ($410,000)        $100,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($1)       $145,055
                                                                                                                                                                   reallocation
                                                                                                                     10/2/2009          $70,000        $350,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009         $620,000        $970,000
                                                                                                                                                                   HAFA initial cap
                                                         Financial                                                   3/26/2010         $100,000      $1,070,000    Updated portfolio data from servicer
            Metropolitan National Bank,                  Instrument for
9/11/2009                                  Purchase                       $280,000               N/A                                                                                                                 $—           $—              $—                     $—
            Littlerock, AR                               Home Loan                                                   7/14/2010       ($670,000)        $400,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     9/30/2010          $35,167        $435,167    Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($1)       $435,166    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                     1/26/2011       ($435,166)              $—    Termination of SPA
                                                                                                                     10/2/2009       $6,010,000     $33,520,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009     ($19,750,000)    $13,770,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010      ($4,780,000)     $8,990,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010      ($2,390,000)     $6,600,000    Updated portfolio data from servicer
                                                         Financial                                                   9/30/2010       $2,973,670      $9,573,670    Updated portfolio data from servicer
            Franklin Credit Management                   Instrument for
9/11/2009                                  Purchase                       $27,510,000            N/A                  1/6/2011              ($3)     $9,573,667    Updated portfolio data from servicer         $186,211    $396,340         $519,810            $1,102,360
            Corporation, Jersey City, NJ                 Home Loan
                                                         Modifications
                                                                                                                     2/16/2011      ($1,800,000)     $7,773,667    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($6)     $7,773,661
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($61)     $7,773,600
                                                                                                                                                                   reallocation
                                                                                                                    10/14/2011       ($100,000)      $7,673,600    Transfer of cap due to servicing transfer
                                                                                                                     10/2/2009          $90,000        $500,000    HPDP initial cap
                                                                                                                                                                   Updated portfolio data from servicer &
                                                                                                                    12/30/2009       $1,460,000      $1,960,000
                                                                                                                                                                   HAFA initial cap
                                                                                                                     3/26/2010         $160,000      $2,120,000    Updated portfolio data from servicer
                                                         Financial                                                   7/14/2010       ($120,000)      $2,000,000    Updated portfolio data from servicer
            Bay Federal Credit Union,                    Instrument for
9/16/2009                                  Purchase                       $410,000               N/A                 9/30/2010      ($1,419,778)       $580,222    Updated portfolio data from servicer              $—           $—              $—                     $—
            Capitola, CA                                 Home Loan
                                                         Modifications
                                                                                                                      1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($1)       $580,220
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($8)       $580,212
                                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                               (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                       Cap of Investment
                                                                       Payments on Behalf
                                                                       of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                        Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                  10/2/2009        $960,000       $5,350,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009      ($3,090,000)     $2,260,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010        $230,000       $2,490,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       $5,310,000      $7,800,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $323,114       $8,123,114    Updated portfolio data from servicer
                                                                                                                   1/6/2011             ($12)     $8,123,102    Updated portfolio data from servicer
                                                      Financial
            AMS Servicing, LLC,                       Instrument for                                              3/16/2011        $600,000       $8,723,102    Transfer of cap due to servicing transfer
9/23/2009                               Purchase                       $4,390,000             N/A                                                                                                                 $—           $—              $—                     $—
            Buffalo, NY                               Home Loan
                                                      Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                  3/30/2011             ($16)     $8,723,086
                                                                                                                                                                reallocation
                                                                                                                  4/13/2011        $200,000       $8,923,086    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011        $100,000       $9,023,086    Transfer of cap due to servicing transfer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011            ($153)     $9,022,933
                                                                                                                                                                reallocation
                                                                                                                  9/15/2011        $100,000       $9,122,933    Transfer of cap due to servicing transfer
                                                                                                                 11/16/2011        $100,000       $9,222,933    Transfer of cap due to servicing transfer
                                                                                                                  10/2/2009          $90,000        $480,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $940,000       $1,420,000
                                                                                                                                                                HAFA initial cap
                                                                                                                  3/26/2010       ($980,000)        $440,000    Updated portfolio data from servicer
                                                      Financial                                                   7/14/2010       ($140,000)        $300,000    Updated portfolio data from servicer
            Schools Financial Credit                  Instrument for
9/23/2009                               Purchase                       $390,000               N/A                 9/30/2010       $1,150,556      $1,450,556    Updated portfolio data from servicer           $5,833     $28,267          $18,500               $52,601
            Union, Sacramento, CA                     Home Loan
                                                      Modifications
                                                                                                                   1/6/2011              ($2)     $1,450,554    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  3/30/2011              ($2)     $1,450,552
                                                                                                                                                                reallocation
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($22)     $1,450,530
                                                                                                                                                                reallocation
                                                                                                                  10/2/2009          $60,000        $290,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009         ($10,000)       $280,000
                                                                                                                                                                HAFA initial cap
                                                      Financial
            Glass City Federal Credit                 Instrument for                                              3/26/2010        $130,000         $410,000    Updated portfolio data from servicer
9/23/2009                               Purchase                       $230,000               N/A                                                                                                              $3,000       $2,086          $5,000               $10,086
            Union, Maumee, OH                         Home Loan                                                   7/14/2010       ($110,000)        $300,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                  9/30/2010          ($9,889)       $290,111    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($3)       $290,108
                                                                                                                                                                reallocation
                                                                                                                  10/2/2009          $10,000         $40,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $120,000         $160,000
                                                                                                                                                                HAFA initial cap
                                                      Financial
            Central Jersey Federal
                                                      Instrument for                                              3/26/2010          $10,000        $170,000    Updated portfolio data from servicer
9/23/2009   Credit Union, Woodbridge,   Purchase                       $30,000                N/A                                                                                                                 $—           $—              $—                     $—
                                                      Home Loan
            VA                                                                                                    7/14/2010         ($70,000)       $100,000    Updated portfolio data from servicer
                                                      Modifications
                                                                                                                  9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                 10/29/2010       ($145,056)              $—    Termination of SPA
                                                                                                                  10/2/2009          $60,000        $300,000    HPDP initial cap
                                                                                                                                                                Updated portfolio data from servicer &
                                                                                                                 12/30/2009        $350,000         $650,000
                                                                                                                                                                HAFA initial cap

                                                      Financial                                                   3/26/2010       $1,360,000      $2,010,000    Updated portfolio data from servicer
            Yadkin Valley Bank,                       Instrument for
9/23/2009                               Purchase                       $240,000               N/A                 7/14/2010      ($1,810,000)       $200,000    Updated portfolio data from servicer           $6,885       $7,985         $21,885               $36,755
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




            Elkin, NC                                 Home Loan
                                                      Modifications                                               9/30/2010        $235,167         $435,167    Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($1)       $435,166    Updated portfolio data from servicer
                                                                                                                                                                Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($4)       $435,162
                                                                                                                                                                reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             267
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                          268
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                   10/2/2009         $100,000        $540,000    HPDP initial cap
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009          $20,000        $560,000
                                                                                                                                                                 HAFA initial cap
                                                       Financial
                                                       Instrument for                                              3/26/2010       ($290,000)        $270,000    Updated portfolio data from servicer
9/25/2009    SEFCU, Albany, NY           Purchase                       $440,000               N/A                                                                                                                 $—           $—              $—                     $—
                                                       Home Loan                                                   7/14/2010         ($70,000)       $200,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                   9/30/2010         ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($1)       $145,055
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009       $1,030,000      $1,600,000
                                                                                                                                                                 HAFA initial cap
                                                                                                                   3/26/2010       ($880,000)        $720,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($320,000)        $400,000    Updated portfolio data from servicer
                                                       Financial
             Great Lakes Credit Union,                 Instrument for                                              9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
10/14/2009                               Purchase                       $570,000               N/A                                                                                                              $4,917       $6,047          $5,500               $16,464
             North Chicago, IL                         Home Loan
                                                       Modifications                                                1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)       $580,212
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated portfolio data from servicer &
                                                                                                                  12/30/2009      ($2,900,000)     $1,960,000
                                                                                                                                                                 HAFA initial cap
                                                       Financial                                                   3/26/2010      ($1,600,000)       $360,000    Updated portfolio data from servicer
             Mortgage Clearing                         Instrument for
10/14/2009                               Purchase                       $4,860,000             N/A                                                                                                                 $—           $—              $—                     $—
             Corporation, Tulsa, OK                    Home Loan                                                   7/14/2010       ($260,000)        $100,000    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                    3/9/2011       ($145,056)              $—    Termination of SPA
                                                                                                                   1/22/2010          $20,000        $430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010         $400,000        $830,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($430,000)        $400,000    Updated portfolio data from servicer
                                                       Financial
             United Bank Mortgage                                                                                  9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
                                                       Instrument for
10/21/2009   Corporation, Grand          Purchase                       $410,000               N/A                                                                                                             $18,122      $37,600         $37,994               $93,716
                                                       Home Loan                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
             Rapids, MI
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011              ($1)       $580,220
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($5)       $580,215
                                                                                                                                                                 reallocation
                                                                                                                   1/22/2010       $4,370,000     $98,030,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010      $23,880,000    $121,910,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010     ($16,610,000)   $105,300,000    Updated portfolio data from servicer

                                                       Financial                                                   9/30/2010       $1,751,033    $107,051,033    Updated portfolio data from servicer
             Bank United, Miami                        Instrument for                                               1/6/2011             ($77)   $107,050,956    Updated portfolio data from servicer
10/23/2009                               Purchase                       $93,660,000            N/A                                                                                                           $2,265,059   $7,737,503     $5,440,533           $15,443,095
             Lakes, FL                                 Home Loan
                                                       Modifications                                               3/16/2011      ($9,900,000)    $97,150,956    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($88)    $97,150,868
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($773)    $97,150,095
                                                                                                                                                                 reallocation

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                               Adjustment Details                                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution         Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                  1/22/2010           $40,000        $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        ($760,000)         $40,000    Updated portfolio data from servicer
                                                                                                                  5/12/2010        $2,630,000      $2,670,000    Updated portfolio data from servicer

                                                       Financial                                                  7/14/2010        ($770,000)      $1,900,000    Updated portfolio data from servicer
             IC Federal Credit Union,                  Instrument for                                             9/30/2010         $565,945       $2,465,945    Updated portfolio data from servicer
10/23/2009                               Purchase                       $760,000               N/A                                                                                                              $5,000     $12,890          $13,000               $30,890
             Fitchburg, MA                             Home Loan
                                                       Modifications                                               1/6/2011               ($4)     $2,465,941    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)     $2,465,937
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($40)     $2,465,897
                                                                                                                                                                 reallocation
                                                       Financial
             Harleysville National
                                                       Instrument for
10/28/2009   Bank & Trust Company,       Purchase                       $1,070,000             N/A                4/21/2010       ($1,070,000)             $—    Termination of SPA                                $—           $—              $—                     $—
                                                       Home Loan
             Harleysville, PA
                                                       Modifications
                                                       Financial
             Members Mortgage                          Instrument for
10/28/2009                               Purchase                       $510,000               N/A                4/21/2010        ($510,000)              $—    Termination of SPA                                $—           $—              $—                     $—
             Company, Inc, Woburn, MA                  Home Loan
                                                       Modifications
                                                                                                                  1/22/2010           $10,000         $80,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           $10,000         $90,000    Updated portfolio data from servicer
                                                       Financial
             DuPage Credit Union,                      Instrument for                                             7/14/2010           $10,000        $100,000    Updated portfolio data from servicer
10/30/2009                               Purchase                       $70,000                N/A                                                                                                              $2,000     $12,930           $4,500               $19,430
             Naperville, IL                            Home Loan
                                                       Modifications                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011               ($1)       $145,055
                                                                                                                                                                 reallocation
                                                                                                                  1/22/2010           $40,000        $740,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010           $50,000        $790,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010        $1,310,000      $2,100,000    Updated portfolio data from servicer
                                                       Financial
                                                                                                                  9/30/2010           $75,834      $2,175,834    Updated portfolio data from servicer
             Los Alamos National Bank,                 Instrument for
11/6/2009                                Purchase                       $700,000               N/A                                                                                                              $5,538       $8,177         $15,793               $29,508
             Los Alamos, NM                            Home Loan                                                   1/6/2011               ($3)     $2,175,831    Updated portfolio data from servicer
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  3/30/2011               ($4)     $2,175,827
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($35)     $2,175,792
                                                                                                                                                                 reallocation
                                                                                                                  1/22/2010         $890,000      $19,850,000    Updated HPDP cap & HAFA initial cap
                                                                                                                  3/26/2010        $3,840,000     $23,690,000    Updated portfolio data from servicer
                                                                                                                  7/14/2010       ($2,890,000)    $20,800,000    Updated portfolio data from servicer
                                                                                                                  9/30/2010        $9,661,676     $30,461,676    Updated portfolio data from servicer
                                                                                                                   1/6/2011              ($46)    $30,461,630    Updated portfolio data from servicer
                                                                                                                  1/13/2011        $1,600,000     $32,061,630    Transfer of cap due to servicing transfer
                                                                                                                  2/16/2011        $1,400,000     $33,461,630    Transfer of cap due to servicing transfer
                                                       Financial
                                                                                                                                                                 Updated due to quarterly assessment and
             Quantum Servicing                         Instrument for                                             3/30/2011              ($58)    $33,461,572
11/18/2009                               Purchase                       $18,960,000            N/A                                                               reallocation                                  $68,881    $199,174         $109,340              $377,395
             Corporation, Tampa, FL                    Home Loan
                                                       Modifications                                              4/13/2011         $100,000      $33,561,572    Transfer of cap due to servicing transfer
                                                                                                                  5/13/2011         $100,000      $33,661,572    Transfer of cap due to servicing transfer
                                                                                                                  6/16/2011         $800,000      $34,461,572    Transfer of cap due to servicing transfer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011             ($559)    $34,461,013
                                                                                                                                                                 reallocation
                                                                                                                  7/14/2011         $300,000      $34,761,013    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                              TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                                                                  8/16/2011         $200,000      $34,961,013    Transfer of cap due to servicing transfer
                                                                                                                  9/15/2011         $100,000      $35,061,013    Transfer of cap due to servicing transfer

                                                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                                                              269
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)                                                                                                                                                                          270
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                    1/22/2010           $80,000      $1,750,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          $330,000      $2,080,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,080,000)     $1,000,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010          $160,445      $1,160,445    Updated portfolio data from servicer
             Hillsdale County National                   Instrument for
11/18/2009                                 Purchase                       $1,670,000             N/A                                                                                                              $8,976     $14,710          $25,705               $49,391
             Bank, Hillsdale, MI                         Home Loan                                                   1/6/2011               ($1)     $1,160,444    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($2)     $1,160,442
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($16)     $1,160,426
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010               $—          $20,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          ($10,000)        $10,000    Updated portfolio data from servicer
                                                         Financial
             QLending, Inc., Coral                       Instrument for                                             7/14/2010           $90,000        $100,000    Updated portfolio data from servicer
11/18/2009                                 Purchase                       $20,000                N/A                                                                                                                 $—           $—              $—                     $—
             Gables, FL                                  Home Loan
                                                         Modifications                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011               ($1)       $145,055
                                                                                                                                                                   reallocation
                                                                                                                                                                                                                                                                                APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                    1/22/2010          $950,000     $21,310,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010      ($17,880,000)     $3,430,000    Updated portfolio data from servicer
                                                                                                                                                                   Transfer of cap from CitiMortgage, Inc.
                                                                                                                    6/16/2010        $1,030,000      $4,460,000
                                                                                                                                                                   due to servicing transfer
                                                                                                                    7/14/2010       ($1,160,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                    8/13/2010          $800,000      $4,100,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010          $200,000      $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP
                                                                                                                    9/30/2010        $1,357,168      $5,657,168    Updated portfolio data from servicer
                                                         Financial                                                   1/6/2011               ($1)     $5,657,167    Updated portfolio data from servicer
             Marix Servicing, LLC,                       Instrument for
11/25/2009                                 Purchase                       $20,360,000            N/A                3/16/2011        $5,700,000     $11,357,167    Transfer of cap due to servicing transfer    $273,068    $768,052         $673,926            $1,715,046
             Phoenix, AZ                                 Home Loan
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($6)    $11,357,161
                                                                                                                                                                   reallocation
                                                                                                                    4/13/2011        $7,300,000     $18,657,161    Transfer of cap due to servicing transfer
                                                                                                                    5/13/2011          $300,000     $18,957,161    Transfer of cap due to servicing transfer
                                                                                                                    6/16/2011          $900,000     $19,857,161    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($154)    $19,857,007
                                                                                                                                                                   reallocation
                                                                                                                    7/14/2011          $100,000     $19,957,007    Transfer of cap due to servicing transfer
                                                                                                                    8/16/2011          $300,000     $20,257,007    Transfer of cap due to servicing transfer
                                                         Financial
             Home Financing Center, Inc,                 Instrument for
11/25/2009                                 Purchase                       $230,000               N/A                4/21/2010        ($230,000)              $—    Termination of SPA                                $—           $—              $—                     $—
             Coral Gables, FL                            Home Loan
                                                         Modifications
                                                                                                                    1/22/2010           $50,000      $1,330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $1,020,000      $2,350,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($950,000)      $1,400,000    Updated portfolio data from servicer
                                                                                                                    9/30/2010           $50,556      $1,450,556    Updated portfolio data from servicer
                                                         Financial
                                                                                                                     1/6/2011               ($2)     $1,450,554    Updated portfolio data from servicer
             First Keystone Bank,                        Instrument for
11/25/2009                                 Purchase                       $1,280,000             N/A         12                                                                                                   $2,776       $3,423          $8,718               $14,917
             Media, PA                                   Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                              3/30/2011               ($2)     $1,450,552
                                                                                                                                                                   reallocation
                                                                                                                    6/16/2011        ($100,000)      $1,350,552    Transfer of cap due to servicing transfer
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($21)     $1,350,531
                                                                                                                                                                   reallocation
                                                                                                                    7/22/2011       ($1,335,614)        $14,917    Termination of SPA

                                                                                                                                                                                                                                                      Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                     TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                                                                                   1/22/2010           $10,000        $390,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          $520,000        $910,000    Updated portfolio data from servicer
                                                        Financial
            Community Bank &
                                                        Instrument for                                             7/14/2010        ($810,000)        $100,000    Updated portfolio data from servicer
12/4/2009   Trust Company, Clarks         Purchase                       $380,000               N/A                                                                                                               $—           $—              $—                     $—
                                                        Home Loan
            Summit, PA                                                                                             9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($1)       $145,055
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010          $440,000      $9,870,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010       $14,480,000     $24,350,000    Updated portfolio data from servicer
                                                        Financial                                                  5/26/2010      ($24,200,000)       $150,000    Updated portfolio data from servicer
            Idaho Housing and Finance                   Instrument for
12/4/2009                                 Purchase                       $9,430,000             N/A                7/14/2010          $150,000        $300,000    Updated portfolio data from servicer         $9,330       $9,493         $16,330               $35,154
            Association, Boise, ID                      Home Loan
                                                        Modifications
                                                                                                                   9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011               ($3)       $290,108
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010           $10,000        $370,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010          $850,000      $1,220,000    Updated portfolio data from servicer

                                                        Financial                                                  7/14/2010        ($120,000)      $1,100,000    Updated portfolio data from servicer
            Spirit of Alaska Federal                    Instrument for
12/9/2009                                 Purchase                       $360,000               N/A                9/30/2010          $100,000      $1,200,000    Initial FHA-HAMP cap                            $—           $—              $—                     $—
            Credit Union, Fairbanks, AK                 Home Loan
                                                        Modifications                                              9/30/2010          $105,500      $1,305,500    Updated portfolio data from servicer
                                                                                                                    1/6/2011               ($2)     $1,305,498    Updated portfolio data from servicer
                                                                                                                   2/17/2011       ($1,305,498)             $—    Termination of SPA
                                                                                                                   1/22/2010           $70,000      $1,660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        ($290,000)      $1,370,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010        ($570,000)        $800,000    Updated portfolio data from servicer
                                                        Financial
            American Eagle Federal                                                                                 9/30/2010           $70,334        $870,334    Updated portfolio data from servicer
                                                        Instrument for
12/9/2009   Credit Union, East            Purchase                       $1,590,000             N/A                                                                                                               $—           $—              $—                     $—
                                                        Home Loan                                                   1/6/2011               ($1)       $870,333    Updated portfolio data from servicer
            Hartford, CT
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($1)       $870,332
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($13)       $870,319
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010           $90,000      $1,970,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $1,110,000      $3,080,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,180,000)     $1,900,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                   9/30/2010          $275,834      $2,175,834    Updated portfolio data from servicer
            Silver State Schools Credit                 Instrument for
12/9/2009                                 Purchase                       $1,880,000             N/A                                                                                                           $12,678     $70,927          $39,845              $123,450
            Union, Las Vegas, NV                        Home Loan                                                   1/6/2011               ($2)     $2,175,832    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($3)     $2,175,829
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($26)     $2,175,803
                                                                                                                                                                  reallocation
                                                                                                                   1/22/2010          $140,000      $3,080,000    Updated HPDP cap & HAFA initial cap
                                                                                                                   3/26/2010        $6,300,000      $9,380,000    Updated portfolio data from servicer
                                                                                                                   7/14/2010       ($1,980,000)     $7,400,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                   9/30/2010       ($6,384,611)     $1,015,389    Updated portfolio data from servicer
            Fidelity Homestead Savings                  Instrument for
12/9/2009                                 Purchase                       $2,940,000             N/A                                                                                                               $—           $—              $—                     $—
            Bank, New Orleans, LA                       Home Loan                                                   1/6/2011               ($1)     $1,015,388    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                   3/30/2011               ($2)     $1,015,386
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                             TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                                                                   6/29/2011              ($16)     $1,015,370
                                                                                                                                                                  reallocation

                                                                                                                                                                                                                                                   Continued on next page.
                                                                                                                                                                                                                                                                             271
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                        272
               Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                     TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                                                                                    1/22/2010          $10,000        $240,000    Updated HPDP cap & HAFA initial cap

                                                        Financial                                                   3/26/2010        $440,000         $680,000    Updated portfolio data from servicer
             Bay Gulf Credit Union,                     Instrument for
12/9/2009                                 Purchase                       $230,000               N/A                 7/14/2010         ($80,000)       $600,000    Updated portfolio data from servicer            $—           $—              $—                     $—
             Tampa, FL                                  Home Loan
                                                        Modifications                                               9/30/2010         ($19,778)       $580,222    Updated portfolio data from servicer
                                                                                                                   10/15/2010       ($580,222)              $—    Termination of SPA
                                                                                                                    1/22/2010        $290,000       $6,450,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010          $40,000      $6,490,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010      ($2,890,000)     $3,600,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010        $606,612       $4,206,612    Updated portfolio data from servicer
             The Golden 1 Credit Union,                 Instrument for
12/9/2009                                 Purchase                       $6,160,000             N/A                                                                                                           $64,408    $296,399         $207,825              $568,632
             Sacramento, CA                             Home Loan                                                    1/6/2011              ($4)     $4,206,608    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($4)     $4,206,604
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($35)     $4,206,569
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010        $100,000       $2,350,000    Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                                                             APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                    3/26/2010       ($740,000)      $1,610,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($710,000)        $900,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010        $550,556       $1,450,556    Updated portfolio data from servicer
             Sterling Savings Bank,                     Instrument for
12/9/2009                                 Purchase                       $2,250,000             N/A                                                                                                           $25,879     $80,129          $85,910              $191,918
             Spokane, WA                                Home Loan                                                    1/6/2011              ($1)     $1,450,555    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($1)     $1,450,554
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($11)     $1,450,543
                                                                                                                                                                  reallocation
                                                                                                                    1/22/2010          $20,000        $330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $820,000       $1,150,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($350,000)        $800,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010          $70,334        $870,334    Updated portfolio data from servicer
             HomeStar Bank & Financial                  Instrument for
12/11/2009                                Purchase                       $310,000               N/A                                                                                                            $1,333       $4,437          $4,833               $10,604
             Services, Manteno, IL                      Home Loan                                                    1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($1)       $870,332
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($13)       $870,319
                                                                                                                                                                  reallocation

                                                        Financial                                                   1/22/2010          $20,000        $390,000    Updated HPDP cap & HAFA initial cap
             Glenview State Bank,                       Instrument for
12/11/2009                                Purchase                       $370,000               N/A                 3/26/2010       $1,250,000      $1,640,000    Updated portfolio data from servicer            $—           $—              $—                     $—
             Glenview, IL                               Home Loan
                                                        Modifications                                               5/26/2010      ($1,640,000)             $—    Termination of SPA
                                                                                                                    1/22/2010          $30,000        $630,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $400,000       $1,030,000    Updated portfolio data from servicer
                                                        Financial
             Verity Credit Union,                       Instrument for                                              7/14/2010       ($330,000)        $700,000    Updated portfolio data from servicer
12/11/2009                                Purchase                       $600,000               N/A                                                                                                               $—           $—              $—                     $—
             Seattle, WA                                Home Loan                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                     1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
                                                                                                                    2/17/2011       ($725,277)              $—    Termination of SPA
                                                                                                                    1/22/2010          $30,000        $660,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $800,000       $1,460,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($360,000)      $1,100,000    Updated portfolio data from servicer
                                                        Financial
                                                                                                                    9/30/2010          $60,445      $1,160,445    Updated portfolio data from servicer
             Hartford Savings Bank,                     Instrument for
12/11/2009                                Purchase                       $630,000               N/A                                                                                                               $—           $—              $—                     $—
             Hartford, WI                               Home Loan                                                    1/6/2011              ($2)     $1,160,443    Updated portfolio data from servicer
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011              ($2)     $1,160,441
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011             ($18)     $1,160,423
                                                                                                                                                                  reallocation

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                         Financial                                                  4/21/2010        ($150,000)              $—    Termination of SPA
             The Bryn Mawr Trust Co.,                    Instrument for
12/11/2009                                 Purchase                       $150,000               N/A         9                                                                                                    $3,718       $5,559          $3,718               $12,995
             Bryn Mawr, PA                               Home Loan                                                  6/16/2011         $100,000         $100,000    Transfer of cap due to servicing transfer
                                                         Modifications
                                                                                                                    1/22/2010           $30,000        $650,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        ($580,000)         $70,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        $1,430,000      $1,500,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010           $95,612      $1,595,612    Updated portfolio data from servicer
             Citizens 1st National Bank,                 Instrument for
12/16/2009                                 Purchase                       $620,000               N/A                                                                                                              $3,750     $14,818          $13,917               $32,485
             Spring Valley, IL                           Home Loan                                                   1/6/2011               ($2)     $1,595,610    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($3)     $1,595,607
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($24)     $1,595,583
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010           $10,000        $180,000    Updated HPDP cap & HAFA initial cap

                                                         Financial                                                  3/26/2010           $30,000        $210,000    Updated portfolio data from servicer
             Golden Plains Credit Union,                 Instrument for
12/16/2009                                 Purchase                       $170,000               N/A                7/14/2010          ($10,000)       $200,000    Updated portfolio data from servicer              $—           $—              $—                     $—
             Garden City, KS                             Home Loan
                                                         Modifications                                              9/30/2010           $90,111        $290,111    Updated portfolio data from servicer
                                                                                                                    2/17/2011        ($290,111)              $—    Termination of SPA
                                                         Financial                                                  1/22/2010         $160,000       $3,620,000    Updated HPDP cap & HAFA initial cap
             First Federal Savings
                                                         Instrument for
12/16/2009   and Loan Association of       Purchase                       $3,460,000             N/A                                                                                                                 $—           $—              $—                     $—
                                                         Home Loan                                                  4/21/2010       ($3,620,000)             $—    Termination of SPA
             Lakewood, Lakewood, OH
                                                         Modifications
                                                                                                                    1/22/2010           $20,000        $460,000    Updated HPDP cap & HAFA initial cap
                                                         Financial
             Sound Community Bank,                       Instrument for                                             3/26/2010        $1,430,000      $1,890,000    Updated portfolio data from servicer
12/16/2009                                 Purchase                       $440,000               N/A                                                                                                                 $—           $—              $—                     $—
             Seattle, WA                                 Home Loan                                                  7/14/2010        ($390,000)      $1,500,000    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                     9/8/2010       ($1,500,000)             $—    Termination of SPA
                                                                                                                    1/22/2010           $30,000        $730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010        $1,740,000      $2,470,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010       ($1,870,000)       $600,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010         $850,556       $1,450,556    Updated portfolio data from servicer
             Horizon Bank, NA, Michigan                  Instrument for
12/16/2009                                 Purchase                       $700,000               N/A                                                                                                                 $—           $—              $—                     $—
             City, IN                                    Home Loan                                                   1/6/2011               ($2)     $1,450,554    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($2)     $1,450,552
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($23)     $1,450,529
                                                                                                                                                                   reallocation
                                                                                                                    1/22/2010           $40,000        $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                    3/26/2010         $140,000         $940,000    Updated portfolio data from servicer
                                                                                                                    7/14/2010        ($140,000)        $800,000    Updated portfolio data from servicer
                                                         Financial
                                                                                                                    9/30/2010           $70,334        $870,334    Updated portfolio data from servicer
             Park View Federal Savings                   Instrument for
12/16/2009                                 Purchase                       $760,000               N/A                                                                                                              $5,000     $19,317          $13,000               $37,317
             Bank, Solon, OH                             Home Loan                                                   1/6/2011               ($1)       $870,333    Updated portfolio data from servicer
                                                         Modifications
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    3/30/2011               ($1)       $870,332
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($12)       $870,320
                                                                                                                                                                   reallocation

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                                                                273
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)                                                                                                                                                                          274
               Servicer Modifying Borrowers’ Loans                                                                                                  Adjustment Details                                                       TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution            Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                     1/22/2010         $200,000       $4,430,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010       ($1,470,000)     $2,960,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010       ($1,560,000)     $1,400,000    Updated portfolio data from servicer
                                                          Financial                                                  9/30/2010        $5,852,780      $7,252,780    Updated portfolio data from servicer
                                                          Instrument for
12/23/2009   Iberiabank, Sarasota, FL       Purchase                       $4,230,000             N/A         12      1/6/2011              ($11)     $7,252,769    Updated portfolio data from servicer              $—      $10,502          $15,000               $25,502
                                                          Home Loan
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     3/30/2011              ($13)     $7,252,756
                                                                                                                                                                    reallocation
                                                                                                                     4/13/2011        ($300,000)      $6,952,756    Transfer of cap due to servicing transfer
                                                                                                                      6/3/2011       ($6,927,254)        $25,502    Termination of SPA
                                                                                                                     1/22/2010           $20,000        $360,000    Updated HPDP cap & HAFA initial cap
                                                                                                                     3/26/2010        ($320,000)         $40,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010         $760,000         $800,000    Updated portfolio data from servicer
                                                          Financial
                                                                                                                     9/30/2010          ($74,722)       $725,278    Updated portfolio data from servicer
             Grafton Suburban Credit                      Instrument for
12/23/2009                                  Purchase                       $340,000               N/A                                                                                                                 $—           $—              $—                     $—
             Union, North Garden, MA                      Home Loan                                                   1/6/2011               ($1)       $725,277    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                 APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                                                                                     3/30/2011               ($1)       $725,276
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($11)       $725,265
                                                                                                                                                                    reallocation
                                                                                                                     1/22/2010               $—          $60,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                  3/26/2010           $90,000        $150,000    Updated portfolio data from servicer
             Eaton National Bank & Trust                  Instrument for
12/23/2009                                  Purchase                       $60,000                N/A                7/14/2010           $50,000        $200,000    Updated portfolio data from servicer              $—           $—              $—                     $—
             Company, Eaton, OH                           Home Loan
                                                          Modifications                                              9/30/2010          ($54,944)       $145,056    Updated portfolio data from servicer
                                                                                                                     5/20/2011        ($145,056)              $—    Termination of SPA
                                                                                                                     1/22/2010               $—         $110,000    Updated HPDP cap & HAFA initial cap

                                                          Financial                                                  3/26/2010          ($20,000)        $90,000    Updated portfolio data from servicer
             Tempe Schools Credit                         Instrument for
12/23/2009                                  Purchase                       $110,000               N/A                7/14/2010           $10,000        $100,000    Updated portfolio data from servicer              $—           $—              $—                     $—
             Union, Tempe, AZ                             Home Loan
                                                          Modifications                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
                                                                                                                     12/8/2010        ($145,056)              $—    Termination of SPA
                                                                                                                     3/26/2010         $480,000         $740,000    Updated portfolio data from servicer
                                                                                                                     7/14/2010        ($140,000)        $600,000    Updated portfolio data from servicer

                                                          Financial                                                  9/30/2010          ($19,778)       $580,222    Updated portfolio data from servicer
             Fresno County Federal                        Instrument for                                              1/6/2011               ($1)       $580,221    Updated portfolio data from servicer
1/13/2010                                   Purchase                       $260,000               N/A                                                                                                              $2,917       $8,886          $6,917               $18,720
             Credit Union, Fresno, CA                     Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                     3/30/2011               ($1)       $580,220
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                     6/29/2011               ($8)       $580,212
                                                                                                                                                                    reallocation
                                                                                                                     3/26/2010         $610,000         $850,000    Updated portfolio data from servicer

                                                          Financial                                                  7/14/2010           $50,000        $900,000    Updated portfolio data from servicer
                                                          Instrument for
1/13/2010    Roebling Bank, Roebling, NJ    Purchase                       $240,000               N/A                9/30/2010          ($29,666)       $870,334    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                          Home Loan
                                                          Modifications                                               1/6/2011               ($1)       $870,333    Updated portfolio data from servicer
                                                                                                                     3/23/2011        ($870,333)              $—    Termination of SPA
                                                                                                                     3/26/2010         $150,000         $290,000    Updated portfolio data from servicer
                                                          Financial
             First National Bank of Grant                 Instrument for                                             7/14/2010           $10,000        $300,000    Updated portfolio data from servicer
1/13/2010                                   Purchase                       $140,000               N/A                                                                                                                 $—           $—              $—                     $—
             Park, Grant Park, IL                         Home Loan                                                  9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                     1/26/2011        ($290,111)              $—    Termination of SPA

                                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                       TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                      3/26/2010     ($51,240,000)    $12,910,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      5/14/2010       $3,000,000     $15,910,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      6/16/2010       $4,860,000     $20,770,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                      7/14/2010       $3,630,000     $24,400,000    Updated portfolio data from servicer
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      7/16/2010         $330,000     $24,730,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                      8/13/2010         $700,000     $25,430,000    Transfer of cap due to servicing transfer
                                                                                                                      9/15/2010         $200,000     $25,630,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($1,695,826)    $23,934,174    Updated portfolio data from servicer
                                                                                                                     11/16/2010         $200,000     $24,134,174    Transfer of cap due to servicing transfer
                                                          Financial                                                    1/6/2011             ($32)    $24,134,142    Updated portfolio data from servicer
            Specialized Loan Servicing,                   Instrument for
1/13/2010                                   Purchase                       $64,150,000            N/A                                                                                                            $613,222    $1,662,861     $1,283,102            $3,559,185
            LLC, Highlands Ranch, CO                      Home Loan                                                   1/13/2011       $1,500,000     $25,634,142    Transfer of cap due to servicing transfer
                                                          Modifications
                                                                                                                      3/16/2011       $7,100,000     $32,734,142    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011             ($36)    $32,734,106
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011       $1,000,000     $33,734,106    Transfer of cap due to servicing transfer
                                                                                                                      5/13/2011         $100,000     $33,834,106    Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011         $300,000     $34,134,106    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($332)    $34,133,774
                                                                                                                                                                    reallocation
                                                                                                                      8/16/2011         $100,000     $34,233,774    Transfer of cap due to servicing transfer
                                                                                                                      9/15/2011         $300,000     $34,533,774    Transfer of cap due to servicing transfer
                                                                                                                     10/14/2011         $300,000     $34,833,774    Transfer of cap due to servicing transfer
                                                                                                                     12/15/2011      ($1,700,000)    $33,133,774    Transfer of cap due to servicing transfer
                                                                                                                      3/26/2010       $8,680,000      $9,450,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010      ($8,750,000)       $700,000    Updated portfolio data from servicer

                                                          Financial                                                   9/30/2010         $170,334        $870,334    Updated portfolio data from servicer
            Greater Nevada Mortgage                       Instrument for                                               1/6/2011              ($1)       $870,333    Updated portfolio data from servicer
1/13/2010                                   Purchase                       $770,000               N/A                                                                                                             $20,417      $57,160         $45,750              $123,326
            Services, Carson City, NV                     Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($1)       $870,332
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($8)       $870,324
                                                                                                                                                                    reallocation
                                                          Financial                                                   3/26/2010      $12,190,000     $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit Union,                 Instrument for
1/15/2010                                   Purchase                       $3,050,000             N/A                                                                                                                 $—           $—              $—                     $—
            Marlborough, MA                               Home Loan                                                   5/14/2010     ($15,240,000)             $—    Termination of SPA
                                                          Modifications
                                                                                                                      3/26/2010       ($730,000)        $230,000    Updated portfolio data from servicer
                                                                                                                      7/14/2010         $370,000        $600,000    Updated portfolio data from servicer
                                                                                                                      9/30/2010         $200,000        $800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                          Financial                                                   9/30/2010       ($364,833)        $435,167    Updated portfolio data from servicer
            iServe Residential Lending,                   Instrument for                                             11/16/2010         $100,000        $535,167    Transfer of cap due to servicing transfer
1/29/2010                                   Purchase                       $960,000               N/A                                                                                                                 $—           $—              $—                     $—
            LLC, San Diego, CA                            Home Loan
                                                          Modifications                                                1/6/2011              ($1)       $535,166    Updated portfolio data from servicer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      3/30/2011              ($1)       $535,165
                                                                                                                                                                    reallocation
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($7)       $535,158
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                                                                                                                    reallocation

                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 275
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                          276
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                       TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                   3/26/2010         $160,000        $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                       Financial
                                                                                                                    1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
                                                       Instrument for
1/29/2010   United Bank, Griffin, GA     Purchase                       $540,000               N/A                                                                                                                 $—          $384          $2,000                $2,384
                                                       Home Loan                                                                                                 Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011              ($1)       $725,276
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($11)       $725,265
                                                                                                                                                                 reallocation
                                                       Financial                                                   7/14/2010       $4,440,000      $5,500,000    Updated portfolio data from servicer
            Urban Trust Bank, Lake                     Instrument for
3/3/2010                                 Purchase                       $1,060,000             N/A                                                                                                                 $—           $—              $—                     $—
            Mary, FL                                   Home Loan                                                   9/24/2010      ($5,500,000)             $—    Termination of SPA
                                                       Modifications
                                                                                                                   5/26/2010         $120,000     $28,160,000    Initial 2MP cap
                                                                                                                   7/14/2010     ($12,660,000)    $15,500,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         $100,000     $15,600,000    Initial FHA-HAMP cap

                                                       Financial                                                   9/30/2010      ($3,125,218)    $12,474,782    Updated portfolio data from servicer
            iServe Servicing, Inc.,                    Instrument for                                             11/16/2010         $800,000     $13,274,782    Transfer of cap due to servicing transfer
3/5/2010                                 Purchase                       $28,040,000            N/A                                                                                                                 $—           $—              $—                     $—
            Irving, TX                                 Home Loan
                                                                                                                                                                                                                                                                              APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                       Modifications                                                1/6/2011             ($20)    $13,274,762    Updated portfolio data from servicer
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   3/30/2011             ($24)    $13,274,738
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($221)    $13,274,517
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2010     ($44,880,000)    $15,900,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010       $1,071,505     $16,971,505    Updated portfolio data from servicer
                                                       Financial
                                                                                                                    1/6/2011             ($23)    $16,971,482    Updated portfolio data from servicer
            Navy Federal Credit Union,                 Instrument for
3/10/2010                                Purchase                       $60,780,000            N/A                                                                                                             $58,469    $259,940         $220,469              $538,877
            Vienna, VA                                 Home Loan                                                                                                 Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011             ($26)    $16,971,456
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011            ($238)    $16,971,218
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2010         $400,000        $700,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010          $25,278        $725,278    Updated portfolio data from servicer
                                                       Financial
                                                                                                                    1/6/2011              ($1)       $725,277    Updated portfolio data from servicer
            Vist Financial Corp,                       Instrument for
3/10/2010                                Purchase                       $300,000               N/A                                                                                                                 $—           $—              $—                     $—
            Wyomissing, PA                             Home Loan                                                                                                 Updated due to quarterly assessment and
                                                       Modifications                                               3/30/2011              ($1)       $725,276
                                                                                                                                                                 reallocation
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011             ($11)       $725,265
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2010         $300,000        $600,000    Updated portfolio data from servicer
                                                                                                                   9/30/2010         ($19,778)       $580,222    Updated portfolio data from servicer

                                                       Financial                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
            Midwest Bank and Trust                     Instrument for                                                                                            Updated due to quarterly assessment and
4/14/2010                                Purchase                       $300,000               N/A                 3/30/2011              ($1)       $580,220                                                      $—          $636          $1,000                $1,636
            Co., Elmwood Park, IL                      Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                   6/29/2011              ($8)       $580,212
                                                                                                                                                                 reallocation
                                                                                                                   7/14/2011       ($580,212)              $—    Termination of SPA

                                                                                                                                                                                                                                                    Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                   Adjustment Details                                                       TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                      7/14/2010       ($150,000)      $6,400,000    Updated portfolio data from servicer
                                                                                                                      9/15/2010       $1,600,000      $8,000,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010      ($4,352,173)     $3,647,827    Updated portfolio data from servicer
                                                          Financial
                                                                                                                       1/6/2011              ($5)     $3,647,822    Updated portfolio data from servicer
            Wealthbridge Mortgage                         Instrument for
4/14/2010                                   Purchase                       $6,550,000             N/A                                                                                                                 $—           $—              $—                     $—
            Corp, Beaverton, OR                           Home Loan                                                                                                 Updated due to quarterly assessment and
                                                          Modifications                                               3/30/2011              ($6)     $3,647,816
                                                                                                                                                                    reallocation
                                                                                                                      4/13/2011      ($3,000,000)       $647,816    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011              ($9)       $647,807
                                                                                                                                                                    reallocation
                                                                                                                      5/26/2010          $30,000         $40,000    Updated FHA-HAMP cap
                                                          Financial
            Aurora Financial Group, Inc.,                 Instrument for                                              9/30/2010        $250,111         $290,111    Updated portfolio data from servicer
5/21/2010                                   Purchase                       $10,000                N/A         4, 8                                                                                                $13,462          $—          $14,455               $27,917
            Marlton, NJ                                   Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      6/29/2011          $59,889        $350,000
                                                                                                                                                                    reallocation
                                                                                                                                                                    Transfer of cap from CitiMortgage, Inc.
                                                                                                                      6/16/2010       $3,680,000      $3,680,000
                                                                                                                                                                    due to servicing transfer
                                                                                                                      8/13/2010       $3,300,000      $6,980,000    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010       $3,043,831     $10,023,831    Updated portfolio data from servicer
                                                                                                                     10/15/2010       $1,400,000     $11,423,831    Transfer of cap due to servicing transfer
                                                                                                                       1/6/2011             ($17)    $11,423,814    Updated portfolio data from servicer
                                                          Financial                                                   3/16/2011       $2,100,000     $13,523,814    Transfer of cap due to servicing transfer
            Selene Finance LP,                            Instrument for
6/16/2010                                   Purchase                       $—                     N/A         9                                                     Updated due to quarterly assessment and        $8,333     $19,759           $8,500               $36,592
            Houston, TX                                   Home Loan                                                   3/30/2011             ($24)    $13,523,790
                                                          Modifications                                                                                             reallocation
                                                                                                                      4/13/2011       $2,900,000     $16,423,790    Transfer of cap due to servicing transfer
                                                                                                                      6/16/2011       ($200,000)     $16,223,790    Transfer of cap due to servicing transfer
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011            ($273)    $16,223,517
                                                                                                                                                                    reallocation
                                                                                                                     10/14/2011        $100,000      $16,323,517    Transfer of cap due to servicing transfer
                                                                                                                     11/16/2011       $1,100,000     $17,423,517    Transfer of cap due to servicing transfer
                                                                                                                      9/30/2010       $1,585,945      $2,465,945    Updated portfolio data from servicer

                                                          Financial                                                    1/6/2011              ($4)     $2,465,941    Updated portfolio data from servicer
            Suburban Mortgage
                                                          Instrument for                                                                                            Updated due to quarterly assessment and
8/4/2010    Company of New Mexico,          Purchase                       $880,000               N/A                 3/30/2011              ($4)     $2,465,937                                                      $—           $—              $—                     $—
                                                          Home Loan                                                                                                 reallocation
            Albequerque, NM
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($40)     $2,465,897
                                                                                                                                                                    reallocation
                                                                                                                      9/30/2010       $1,040,667      $1,740,667    Updated portfolio data from servicer
                                                                                                                       1/6/2011              ($2)     $1,740,665    Updated portfolio data from servicer
                                                          Financial
                                                                                                                                                                    Updated due to quarterly assessment and
            Bramble Savings Bank,                         Instrument for
8/20/2010                                   Purchase                       $700,000               N/A                 3/30/2011              ($3)     $1,740,662    reallocation                                      $—           $—              $—                     $—
            Cincinnati, OH                                Home Loan
                                                          Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($28)     $1,740,634    reallocation
                                                                                                                      8/10/2011      ($1,740,634)             $—    Termination of SPA
                                                                                                                      9/30/2010       $2,181,334      $3,481,334    Updated portfolio data from servicer

                                                          Financial                                                    1/6/2011              ($5)     $3,481,329    Updated portfolio data from servicer
            Pathfinder Bank, Oswego,                      Instrument for                                                                                            Updated due to quarterly assessment and
8/25/2010                                   Purchase                       $1,300,000             N/A                 3/30/2011              ($6)     $3,481,323                                                     $917       $1,470          $1,917                $4,303
            NY                                            Home Loan                                                                                                 reallocation
                                                          Modifications
                                                                                                                                                                    Updated due to quarterly assessment and
                                                                                                                      6/29/2011             ($58)     $3,481,265
                                                                                                                                                                    reallocation
                                                                                                                                                                                                                                                                                 TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                                                                                                                                                                                                       Continued on next page.
                                                                                                                                                                                                                                                                                 277
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                 (CONTINUED)                                                                                                                                                                          278
              Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                         Cap of Investment
                                                                         Payments on Behalf
                                                                         of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                          Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                                                                                    9/30/2010       $7,014,337     $11,314,337    Updated portfolio data from servicer

                                                        Financial                                                    1/6/2011             ($17)    $11,314,320    Updated portfolio data from servicer
            First Financial Bank, N.A.,                 Instrument for                                                                                            Updated due to quarterly assessment and
8/27/2010                                 Purchase                       $4,300,000             N/A                 3/30/2011             ($20)    $11,314,300                                                      $—           $—              $—                     $—
            Terre Haute, ID                             Home Loan                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($192)    $11,314,108
                                                                                                                                                                  reallocation
                                                                                                                    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer

                                                        Financial                                                    1/6/2011          $34,944        $180,000    Updated portfolio data from servicer
            RBC Bank (USA), Raleigh,                    Instrument for                                                                                            Updated due to quarterly assessment and
9/1/2010                                  Purchase                       $100,000               N/A         4, 8    3/30/2011          $40,000        $220,000                                                  $16,888          $—          $17,222               $34,110
            NC                                          Home Loan                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011          $50,000        $270,000
                                                                                                                                                                  reallocation
                                                                                                                    9/30/2010       $5,168,169      $8,268,169    Updated portfolio data from servicer
                                                                                                                     1/6/2011             ($12)     $8,268,157    Updated portfolio data from servicer
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    3/30/2011             ($15)     $8,268,142
                                                                                                                                                                  reallocation
                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                        Financial                                                   4/13/2011        $400,000       $8,668,142    Transfer of cap due to servicing transfer
            Fay Servicing, LLC,                         Instrument for
9/3/2010                                  Purchase                       $3,100,000             N/A                                                               Updated due to quarterly assessment and       $25,833     $69,594          $26,667              $122,094
            Chicago, IL                                 Home Loan                                                   6/29/2011            ($143)     $8,667,999
                                                                                                                                                                  reallocation
                                                        Modifications
                                                                                                                    9/15/2011        $700,000       $9,367,999    Transfer of cap due to servicing transfer
                                                                                                                   10/14/2011        $100,000       $9,467,999    Transfer of cap due to servicing transfer
                                                                                                                   11/16/2011        $200,000       $9,667,999    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $1,700,000     $11,367,999    Transfer of cap due to servicing transfer
                                                                                                                    9/15/2010       $1,000,000      $1,000,000    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $450,556       $1,450,556    Updated portfolio data from servicer
                                                                                                                     1/6/2011              ($2)     $1,450,554    Updated portfolio data from servicer
                                                                                                                    2/16/2011       $3,000,000      $4,450,554    Transfer of cap due to servicing transfer
                                                        Financial
                                                                                                                    3/16/2011      $10,200,000     $14,650,554    Transfer of cap due to servicing transfer
            Vericrest Financial, Inc.,                  Instrument for
9/15/2010                                 Purchase                       $—                     N/A         9                                                                                                   $83,926    $263,567         $331,060              $678,553
            Oklahoma City, OK                           Home Loan                                                                                                 Updated due to quarterly assessment and
                                                        Modifications                                               3/30/2011             ($24)    $14,650,530
                                                                                                                                                                  reallocation
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011            ($227)    $14,650,303
                                                                                                                                                                  reallocation
                                                                                                                    7/14/2011      $12,000,000     $26,650,303    Transfer of cap due to servicing transfer
                                                                                                                   12/15/2011       $4,100,000     $30,750,303    Transfer of cap due to servicing transfer
                                                                                                                    9/30/2010        $180,222         $580,222    Updated portfolio data from servicer

                                                        Financial                                                    1/6/2011              ($1)       $580,221    Updated portfolio data from servicer
            Midwest Community Bank,                     Instrument for                                                                                            Updated due to quarterly assessment and
9/15/2010                                 Purchase                       $400,000               N/A                 3/30/2011              ($1)       $580,220                                                      $—           $—              $—                     $—
            Freeport, IL                                Home Loan                                                                                                 reallocation
                                                        Modifications
                                                                                                                                                                  Updated due to quarterly assessment and
                                                                                                                    6/29/2011              ($8)       $580,212
                                                                                                                                                                  reallocation
                                                        Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            American Finance House                      Instrument for
9/24/2010                                 Purchase                       $100,000               N/A                                                                                                                 $—           $—              $—                     $—
            LARIBA, Pasadena, CA                        Home Loan                                                    2/2/2011       ($145,056)              $—    Termination of SPA
                                                        Modifications

                                                        Financial                                                   9/30/2010        $856,056       $2,756,056    Updated portfolio data from servicer
                                                        Instrument for
9/24/2010   Centrue Bank, Ottawa, IL      Purchase                       $1,900,000             N/A                  1/6/2011              ($4)     $2,756,052    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                        Home Loan
                                                        Modifications                                                3/9/2011      ($2,756,052)             $—    Termination of SPA
                                                        Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            AgFirst Farm Credit Bank,                   Instrument for
9/30/2010                                 Purchase                       $100,000               N/A                                                                                                                 $—           $—              $—                     $—
            Columbia, SC                                Home Loan                                                   3/23/2011       ($145,056)              $—    Termination of SPA
                                                        Modifications

                                                                                                                                                                                                                                                     Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                   (CONTINUED)
              Servicer Modifying Borrowers’ Loans                                                                                                      Adjustment Details                                                     TARP Incentive Payments
                                                                           Cap of Investment
                                                                           Payments on Behalf
                                                                           of Borrowers and to                                                                                                                                 Lenders/                            Total TARP
                                            Transaction   Investment       Servicers & Lenders/   Pricing               Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution             Type          Description      Investors (Cap)1       Mechanism   Note            Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            Amarillo National Bank,                       Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Amarillo, TX                                  Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            American Financial
                                                          Instrument for
9/30/2010   Resources Inc., Parsippany,     Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
                                                          Home Loan                                                     6/29/2011               ($1)       $145,055
            NJ                                                                                                                                                         reallocation
                                                          Modifications
                                                                                                                        9/30/2010         $765,945       $2,465,945    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($3)     $2,465,942    Updated portfolio data from servicer
            Banco Popular de Puerto                       Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $1,700,000             N/A         4, 5, 8   3/30/2011               ($4)     $2,465,938                                                    $—           $—              $—                     $—
            Rico, San Juan, PR                            Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($36)     $2,465,902
                                                                                                                                                                       reallocation
                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            Capital International
                                                          Instrument for
9/30/2010   Financial, Inc., Coral          Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
                                                          Home Loan                                                     6/29/2011               ($1)       $145,055
            Gables, FL                                                                                                                                                 reallocation
                                                          Modifications

                                                          Financial                                                     9/30/2010         $360,445       $1,160,445    Updated portfolio data from servicer
            Citizens Community Bank,                      Instrument for
9/24/2010                                   Purchase                       $800,000               N/A                    1/6/2011               ($2)     $1,160,443    Updated portfolio data from servicer            $—           $—              $—                     $—
            Freeburg, IL                                  Home Loan
                                                          Modifications                                                 3/23/2011       ($1,160,443)             $—    Termination of SPA
                                                                                                                        9/30/2010         $901,112       $2,901,112    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($4)     $2,901,108    Updated portfolio data from servicer
            Community Credit Union of                     Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $2,000,000             N/A         6         3/30/2011               ($5)     $2,901,103                                                    $—           $—              $—                     $—
            Florida, Rockledge, FL                        Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($48)     $2,901,055
                                                                                                                                                                       reallocation
                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            CU Mortgage Services,                         Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Inc., New Brighton, MN                        Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            First Federal Bank of                         Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Florida, Lake City, FL                        Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010           $45,056        $145,056    Updated portfolio data from servicer
            First Mortgage Coporation,                    Instrument for
9/30/2010                                   Purchase                       $100,000               N/A         4, 8                                                     Updated due to quarterly assessment and         $—           $—              $—                     $—
            Diamond Bar, CA                               Home Loan                                                     6/29/2011               ($1)       $145,055
                                                          Modifications                                                                                                reallocation

                                                          Financial                                                     9/30/2010         $180,222         $580,222    Updated portfolio data from servicer
                                                          Instrument for
9/30/2010   First Safety Bank, Cincinnati   Purchase                       $400,000               N/A                    1/6/2011               ($1)       $580,221    Updated portfolio data from servicer            $—           $—              $—                     $—
                                                          Home Loan
                                                          Modifications                                                 3/23/2011        ($580,221)              $—    Termination of SPA
                                                                                                                        9/30/2010         $360,445       $1,160,445    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($2)     $1,160,443    Updated portfolio data from servicer
            Flagstar Capital Markets                      Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $800,000               N/A         7, 8      3/30/2011               ($2)     $1,160,441                                                    $—           $—              $—                     $—
            Corporation, Troy, MI                         Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                        6/29/2011              ($18)     $1,160,423
                                                                                                                                                                       reallocation
                                                                                                                        9/30/2010         $765,945       $2,465,945    Updated portfolio data from servicer

                                                          Financial                                                      1/6/2011               ($4)     $2,465,941    Updated portfolio data from servicer
            Franklin Savings, Cincinnati,                 Instrument for                                                                                               Updated due to quarterly assessment and
9/30/2010                                   Purchase                       $1,700,000             N/A         4         3/30/2011               ($4)     $2,465,937                                                    $—          $503          $1,000                $1,503
            OH                                            Home Loan                                                                                                    reallocation
                                                          Modifications
                                                                                                                                                                       Updated due to quarterly assessment and
                                                                                                                                                                                                                                                                                  TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




                                                                                                                        6/29/2011              ($40)     $2,465,897
                                                                                                                                                                       reallocation

                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                  279
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                (CONTINUED)                                                                                                                                                                        280
              Servicer Modifying Borrowers’ Loans                                                                                                Adjustment Details                                                     TARP Incentive Payments
                                                                        Cap of Investment
                                                                        Payments on Behalf
                                                                        of Borrowers and to                                                                                                                              Lenders/                            Total TARP
                                         Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                              Borrower’s    Investors       Servicers             Incentive
Date        Name of Institution          Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                     Incentives   Incentives      Incentives            Payments
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Gateway Mortgage Group,                    Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and         $—           $—              $—                     $—
            LLC, Tulsa, OK                             Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation

                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            GFA Federal Credit Union,                  Instrument for
9/30/2010                                Purchase                       $100,000               N/A                                                                                                               $—           $—              $—                     $—
            Gardner, MA                                Home Loan                                                  3/23/2011        ($145,056)              $—    Termination of SPA
                                                       Modifications
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Guaranty Bank, Saint                       Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and        $917          $—           $1,000                $1,917
            Paul, MN                                   Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation

                                                                                                                  9/30/2010         $135,167         $435,167    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011               ($1)       $435,166    Updated portfolio data from servicer
            James B. Nutter &                          Instrument for                                                                                            Updated due to quarterly assessment and
9/24/2010                                Purchase                       $300,000               N/A         4, 8   3/30/2011               ($1)       $435,165                                                   $750          $—           $1,000                $1,750
            Company, Kansas City, MO                   Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011               ($6)       $435,159
                                                                                                                                                                 reallocation
                                                                                                                  9/30/2010         $450,556       $1,450,556    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




                                                       Financial                                                   1/6/2011               ($2)     $1,450,554    Updated portfolio data from servicer
            Liberty Bank and Trust Co,                 Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                Purchase                       $1,000,000             N/A                3/30/2011               ($2)     $1,450,552                                                    $—           $—              $—                     $—
            New Orleans, LA                            Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($23)     $1,450,529
                                                                                                                                                                 reallocation
                                                                                                                  9/30/2010         $315,389       $1,015,389    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011               ($1)     $1,015,388    Updated portfolio data from servicer
                                                       Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010   M&T Bank, Buffalo, NY        Purchase                       $700,000               N/A         4, 8   3/30/2011               ($1)     $1,015,387                                                $20,402          $—          $21,319               $41,721
                                                       Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($11)     $1,015,376
                                                                                                                                                                 reallocation
                                                                                                                  9/30/2010         $630,778       $2,030,778    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011               ($3)     $2,030,775    Updated portfolio data from servicer
            Magna Bank, Germantown,                    Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                Purchase                       $1,400,000             N/A         5      3/30/2011               ($3)     $2,030,772                                                    $—           $—              $—                     $—
            TN                                         Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011              ($33)     $2,030,739
                                                                                                                                                                 reallocation

                                                       Financial                                                  9/30/2010         $225,278         $725,278    Updated portfolio data from servicer
            Mainstreet Credit Union,                   Instrument for
9/30/2010                                Purchase                       $500,000               N/A                 1/6/2011               ($1)       $725,277    Updated portfolio data from servicer            $—           $—              $—                     $—
            Lexena, KS                                 Home Loan
                                                       Modifications                                               3/9/2011        ($725,277)              $—    Termination of SPA
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Marsh Associates, Inc.,                    Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and        $198                         $238                  $436
            Charlotte, NC                              Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation

                                                                                                                  9/30/2010       $49,915,806     $93,415,806    Updated portfolio data from servicer

                                                       Financial                                                   1/6/2011            ($125)     $93,415,681    Updated portfolio data from servicer
            Midland Mortgage                           Instrument for                                                                                            Updated due to quarterly assessment and
9/30/2010                                Purchase                       $43,500,000            N/A         4, 5   3/30/2011            ($139)     $93,415,542                                               $803,685     $56,660         $976,019            $1,836,365
            Company, Oklahoma, OK                      Home Loan                                                                                                 reallocation
                                                       Modifications
                                                                                                                                                                 Updated due to quarterly assessment and
                                                                                                                  6/29/2011           ($1,223)    $93,414,319
                                                                                                                                                                 reallocation
                                                       Financial                                                  9/30/2010          $45,056         $145,056    Updated portfolio data from servicer
            Schmidt Mortgage                           Instrument for
9/30/2010                                Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and         $—           $—              $—                     $—
            Company, Rocky River, OH                   Home Loan                                                  6/29/2011               ($1)       $145,055
                                                       Modifications                                                                                             reallocation


                                                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                  (CONTINUED)
               Servicer Modifying Borrowers’ Loans                                                                                                 Adjustment Details                                                       TARP Incentive Payments
                                                                          Cap of Investment
                                                                          Payments on Behalf
                                                                          of Borrowers and to                                                                                                                                Lenders/                            Total TARP
                                           Transaction   Investment       Servicers & Lenders/   Pricing            Adjustment   Cap Adjustment                                                                Borrower’s    Investors       Servicers             Incentive
Date         Name of Institution           Type          Description      Investors (Cap)1       Mechanism   Note         Date          Amount     Adjusted Cap    Reason for Adjustment                       Incentives   Incentives      Incentives            Payments
                                                         Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
             Stockman Bank of Montana,                   Instrument for
9/30/2010                                  Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and           $—           $—              $—                     $—
             Miles City, MT                              Home Loan                                                   6/29/2011              ($1)       $145,055
                                                         Modifications                                                                                             reallocation

                                                         Financial                                                   9/30/2010        $270,334         $870,334    Updated portfolio data from servicer
             University First Federal
                                                         Instrument for
9/30/2010    Credit Union, Salt Lake       Purchase                       $600,000               N/A                  1/6/2011              ($1)       $870,333    Updated portfolio data from servicer              $—           $—              $—                     $—
                                                         Home Loan
             City, UT
                                                         Modifications                                               2/17/2011       ($870,333)              $—    Termination of SPA
                                                         Financial                                                   9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
             Weststar Mortgage, Inc.,                    Instrument for
9/30/2010                                  Purchase                       $100,000               N/A         4, 8                                                  Updated due to quarterly assessment and           $—           $—              $—                     $—
             Woodbridge, VA                              Home Loan                                                   6/29/2011              ($1)       $145,055
                                                         Modifications                                                                                             reallocation

                                                                                                                    12/15/2010       $5,000,000      $5,000,000    Updated portfolio data from servicer
                                                                                                                      1/6/2011              ($7)     $4,999,993    Updated portfolio data from servicer
                                                                                                                     2/16/2011        $500,000       $5,499,993    Transfer of cap due to servicing transfer
                                                         Financial
                                                                                                                     3/16/2011        $100,000       $5,599,993    Transfer of cap due to servicing transfer
             Statebridge Company, LLC,                   Instrument for
12/15/2010                                 Purchase                       $—                     N/A         9                                                                                                       $—           $—              $—                     $—
             Denver, CO                                  Home Loan                                                                                                 Updated due to quarterly assessment and
                                                         Modifications                                               3/30/2011              ($9)     $5,599,984
                                                                                                                                                                   reallocation
                                                                                                                                                                   Updated due to quarterly assessment and
                                                                                                                     6/29/2011             ($85)     $5,599,899
                                                                                                                                                                   reallocation
                                                                                                                    11/16/2011      ($2,500,000)     $3,099,899    Transfer of cap due to servicing transfer
                                                                                                                    12/15/2010       $4,300,000      $4,300,000    Updated portfolio data from servicer
                                                         Financial
             Scotiabank de Puerto Rico,                  Instrument for                                               1/6/2011              ($4)     $4,299,996    Updated portfolio data from servicer
12/15/2010                                 Purchase                       $—                     N/A         9                                                                                                  $184,416    $251,733         $217,029              $653,178
             San Juan, PR                                Home Loan
                                                         Modifications                                                                                             Updated due to quarterly assessment and
                                                                                                                     6/29/2011              ($5)     $4,299,991
                                                                                                                                                                   reallocation
                                                                                                                     4/13/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                     5/13/2011        $100,000         $300,000    Transfer of cap due to servicing transfer
                                                         Financial
             AmTrust Bank, A Division of
                                                         Instrument for                                              6/16/2011        $300,000         $600,000    Transfer of cap due to servicing transfer
4/13/2011    New York Community Bank,      Purchase                       $—                     N/A         9                                                                                                    $6,000     $23,505          $13,000               $42,505
                                                         Home Loan
             Cleveland, OH                                                                                                                                         Updated due to quarterly assessment and
                                                         Modifications                                               6/29/2011              ($9)       $599,991
                                                                                                                                                                   reallocation
                                                                                                                     8/16/2011        $200,000         $799,991    Transfer of cap due to servicing transfer
                                                         Financial
                                                         Instrument for
4/13/2011    SunTrust Mortgage, Inc.       Purchase                       $—                     N/A         9       4/13/2011        $100,000         $100,000    Transfer of cap due to servicing transfer         $—           $—              $—                     $—
                                                         Home Loan
                                                         Modifications
                                                                                                                     4/13/2011       $1,000,000      $1,000,000    Transfer of cap due to servicing transfer
                                                         Financial
             Urban Partnership Bank,                     Instrument for                                                                                            Updated due to quarterly assessment and
4/13/2011                                  Purchase                       $—                     N/A         9       6/29/2011        $233,268       $1,233,268                                                  $53,755    $121,594          $55,831              $231,180
             Chicago, IL                                 Home Loan                                                                                                 reallocation
                                                         Modifications
                                                                                                                    11/16/2011        $100,000       $1,333,268    Transfer of cap due to servicing transfer
                                                         Financial                                                   4/13/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
             Western Federal Credit                      Instrument for
4/13/2011                                  Purchase                       $—                     N/A         9                                                     Updated due to quarterly assessment and        $5,500     $15,790           $8,917               $30,206
             Union, Hawthorne, CA                        Home Loan                                                   6/29/2011          $17,687        $217,687
                                                         Modifications                                                                                             reallocation

                                                                                                                     5/13/2011        $500,000         $500,000    Transfer of cap due to servicing transfer
                                                                                                                     6/16/2011        $100,000         $600,000    Transfer of cap due to servicing transfer
                                                         Financial                                                                                                 Updated due to quarterly assessment and
             FCI Lender Services, Inc.,                  Instrument for                                              6/29/2011              ($9)       $599,991
5/13/2011                                  Purchase                       $—                     N/A         9                                                     reallocation                                   $6,109     $11,869           $6,300               $24,278
             Anaheim Hills, CA                           Home Loan
                                                         Modifications                                               7/14/2011        $200,000         $799,991    Transfer of cap due to servicing transfer
                                                                                                                     9/15/2011        $100,000         $899,991    Transfer of cap due to servicing transfer
                                                                                                                    11/16/2011       $2,500,000      $3,399,991    Transfer of cap due to servicing transfer
                                                         Financial                                                   7/14/2011        $200,000         $200,000    Transfer of cap due to servicing transfer
                                                                                                                                                                                                                                                                                TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012




             Gregory Funding, LLC,                       Instrument for
7/14/2011                                  Purchase                       $—                     N/A         9                                                                                                   $24,160     $51,601          $25,391              $101,152
             Beaverton, OR                               Home Loan                                                  11/16/2011        $900,000       $1,100,000    Transfer of cap due to servicing transfer
                                                         Modifications

                                                                                                                                                                                                                                                      Continued on next page.
                                                                                                                                                                                                                                                                                281
HAMP TRANSACTION DETAIL, AS OF 12/31/2011                                                          (CONTINUED)                                                                                                                                                                                                                 282
                 Servicer Modifying Borrowers’ Loans                                                                                                                     Adjustment Details                                                                           TARP Incentive Payments
                                                                                Cap of Investment
                                                                                Payments on Behalf
                                                                                of Borrowers and to                                                                                                                                                                    Lenders/                                  Total TARP
                                              Transaction     Investment        Servicers & Lenders/      Pricing                  Adjustment       Cap Adjustment                                                                                Borrower’s           Investors           Servicers               Incentive
Date           Name of Institution            Type            Description       Investors (Cap)1          Mechanism       Note           Date              Amount         Adjusted Cap      Reason for Adjustment                                 Incentives          Incentives          Incentives              Payments
                                                              Financial
                                                              Instrument for
9/15/2011      Bangor Savings Bank            Purchase                          $—                        N/A             9         9/15/2011               $100,000           $100,000     Transfer of cap due to servicing transfer                   $—                    $—                  $—                     $—
                                                              Home Loan
                                                              Modifications
                                                              Financial
                                                              Instrument for
9/15/2011      PHH Mortgage Corporation       Purchase                          $—                         N/A            9         9/15/2011            $1,300,000          $1,300,000     Transfer of cap due to servicing transfer                   $—                    $—                  $—                     $—
                                                              Home Loan
                                                              Modifications
                                                              Financial
               Rushmore Loan                                  Instrument for
12/15/2011                                    Purchase                          $—                         N/A            9        12/15/2011               $200,000           $200,000     Transfer of cap due to servicing transfer                   $—                    $—                  $—                     $—
               Management Services LLC                        Home Loan
                                                              Modifications
                                                            Total Initial Cap        $23,831,570,000                    Total Cap Adjustment       $6,052,054,458                                                                   Totals   $416,715,227      $1,076,094,323        $763,471,955         $2,256,281,504
                                                                                             Total Cap                                           $29,883,624,458

Note: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken verbatim from Treasury’s 12/27/2011, Transacations Report-Housing Programs.

1
 	The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and
   individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
2
 	 On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
3
                                                                                                                                                                                                                                                                                                                               APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012




 	 Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
4
 	 Initial cap amount includes FHA-HAMP.
5
 	 Initial cap amount includes RD-HAMP.
6
 	 Initial cap amount includes 2MP.
7
 	 Initial cap amount includes FHA-2LP.
8
 	 Initial cap does not include HAMP.
9
 	 This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
10
  	The amendment reflects a change in the legal name of the institution.
11
  	MorEquity, Inc executed a subservicing agreement with Nationstar Mortgage, LLC, that took effect 2/01/2011. All mortgage loans including all HAMP loans were transferred to Nationstar. The remaining Adjusted Cap stated above represents the amount previously paid to MorEquity, Inc. prior to such agreement.  
12
  	The remaining Adjusted Cap stated above represents the amount paid to servicer prior to SPA termination.  
13
  	Home Loan Services, Inc. and Wilshire Credit Corporation were merged into BAC Home Loans Servicing, Inc. and the remaining Adjusted Cap stated above represents the amount previously paid to each servicer prior prior to such merger.  
14
  	In April 2011, EMC Mortgage, an indirect subsidiary of JP Morgan Chase & Co, transferred the servicing of all loans to JP Morgan Chase Bank, NA. The remaining Adjusted Cap stated above represents the amount previously paid to EMC Mortgage prior to such transfer.  

As used in this table:
“HAFA” means the Home Affordable Foreclosure Alternatives program.
“HPDP” means the Home Price Decline Protection program.
“2MP” means the Second Lien Modification Program.
“RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
“FHA-2LP” means the FHA Second Lien Program

Source: Treasury, Transactions Report-Housing Programs, 12/27/2011



TABLE D.13

HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011
                      Seller

                                                                                                    Transaction                                              Initial Investment     Additional Investment             Investment Pricing
Note    Trade Date    Name of Institution                                                           Type             Investment Description                   Amount                              Amount                 Amount1 Mechanism
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $102,800,000                                 —                        N/A
2       9/23/2010     Nevada Affordable Housing Assistance Corporation, Reno, NV                    Purchase         Financial Instrument for HHF Program    —                                $34,056,581          $194,026,240 N/A
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                                $57,169,659                          N/A
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $699,600,000                                 —                        N/A
2       9/23/2010     CalHFA Mortgage Assistance Corporation, Sacramento, CA                        Purchase         Financial Instrument for HHF Program    —                               $476,257,070       $1,975,334,096 N/A
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                               $799,477,026                          N/A
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $418,000,000                                 —                        N/A
2       9/23/2010     Florida Housing Finance Corporation, Tallahassee, FL                          Purchase         Financial Instrument for HHF Program    —                               $238,864,755       $1,057,839,136 N/A
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                               $400,974,381                          N/A
        6/23/2010                                                                                                    Financial Instrument for HHF Program    $125,100,000                                 —                        N/A
                      Arizona (Home) Foreclosure Prevention Funding Corporation, Phoenix, AZ        Purchase                                                                                                       $267,766,006
3       9/29/2010                                                                                                    Financial Instrument for HHF Program    —                               $142,666,006                          N/A

                                                                                                                                                                                                                         continued on next page
HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 12/31/2011                                                                                               (CONTINUED)

                         Seller
                                                                                                       Transaction                                            Initial Investment   Additional Investment        Investment Pricing
Note       Trade Date    Name of Institution                                                           Type            Investment Description                  Amount                            Amount            Amount1 Mechanism
           6/23/2010                                                                                                   Financial Instrument for HHF Program   $154,500,000                           —                       N/A
2          9/23/2010     Michigan Homeowner Assistance Nonprofit Housing Corporation, Lansing, MI      Purchase        Financial Instrument for HHF Program   —                           $128,461,559        $498,605,738 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $215,644,179                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $159,000,000                           —                       N/A
2          9/23/2010     North Carolina Housing Finance Agency, Raleigh, NC                            Purchase        Financial Instrument for HHF Program   —                           $120,874,221        $482,781,786 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $202,907,565                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $172,000,000                           —                       N/A
2          9/23/2010     Ohio Homeowner Assistance LLC, Columbus, OH                                   Purchase        Financial Instrument for HHF Program   —                           $148,728,864        $570,395,099 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $249,666,235                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $88,000,000                            —                       N/A
2          9/23/2010     Oregon Affordable Housing Assistance Corporation, Salem, OR                   Purchase        Financial Instrument for HHF Program   —                            $49,294,215        $220,042,786 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $82,748,571                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $43,000,000                            —                       N/A
2          9/23/2010     Rhode Island Housing and Mortgage Finance Corporation, Providence, RI         Purchase        Financial Instrument for HHF Program   —                            $13,570,770         $79,351,573 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $22,780,803                       N/A
           8/3/2010                                                                                                    Financial Instrument for HHF Program   $138,000,000                           —                       N/A
2          9/23/2010     SC Housing Corp, Columbia, SC                                                 Purchase        Financial Instrument for HHF Program   —                            $58,772,347        $295,431,547 N/A
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $98,659,200                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $60,672,471                            —                       N/A
                         Alabama Housing Finance Authority, Montgomery, AL                             Purchase                                                                                               $162,521,345
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $101,848,874                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $55,588,050                            —                       N/A
                         Kentucky Housing Corporation, Frankfort, KY                                   Purchase                                                                                               $148,901,875
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $93,313,825                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $38,036,950                            —                       N/A
                         Mississippi Home Corporation, Jackson, MS                                     Purchase                                                                                               $101,888,323
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $63,851,373                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $126,650,987                           —                       N/A
                         GHFA Affordable Housing, Inc., Atlanta, GA                                    Purchase                                                                                               $339,255,819
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $212,604,832                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $82,762,859                            —                       N/A
                         Indiana Housing and Community Development Authority, Indianapolis, IN         Purchase                                                                                               $221,694,139
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $138,931,280                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $166,352,726                           —                       N/A
                         Illinois Housing Development Authority, Chicago, IL                           Purchase                                                                                               $445,603,557
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $279,250,831                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $112,200,637                           —                       N/A
                         New Jersey Housing and Mortgage Finance Agency, Trenton, NJ                   Purchase                                                                                               $300,548,144
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $188,347,507                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $7,726,678                             —                       N/A
                         District of Columbia Housing Finance Agency, Washington, DC                   Purchase                                                                                                $20,697,198
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                            $12,970,520                       N/A
           9/23/2010                                                                                                   Financial Instrument for HHF Program   $81,128,260                            —                       N/A
                         Tennessee Housing Development Agency, Nashville, TN                           Purchase                                                                                               $217,315,593
3          9/29/2010                                                                                                   Financial Instrument for HHF Program   —                           $136,187,333                       N/A
                                                                                                                                                              Total Investment Amount                      $7,600,000,000

Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken directly from Treasury’s 12/27/2011 Transactions Report-Housing Programs.

1
    The purchase will be incrementally funded up to the investment amount.
2
    On 9/23/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.
3
    On 9/29/2010, Treasury provided additonal investment to this HFA and substituted its investment for an amended and restated Financial Instrument.

Source: Treasury, Transactions Report-Housing Programs, 12/27/2011.
                                                                                                                                                                                                                                       TRANSACTION DETAIL I APPENDIX D I JANUARY 26, 2012
                                                                                                                                                                                                                                       283
TABLE D.14                                                                                                                                                                                                                                                                             284

FHA SHORT REFINANCE PROGRAM, AS OF 12/31/2011
                                     Seller
Note           Trade Date            Name                      Transaction Type          Investment Description                                                                                                               Investment Amount        Pricing Mechanism
                                     Citigroup, Inc., New                                Facility Purchase Agreement, dated as of September 3, 2010, between the U.S. Department of the Treasury and
1              9/3/2010                                        Purchase                                                                                                                                                            $8,117,000,000      N/A
                                     York, NY                                            Citibank, N.A
                                                                                                                                                                                        TOTAL INVESTMENT                         $8,117,000,000

 Notes: Numbers affected by rounding. Data as of 12/31/2011. Numbered notes are taken verbatim from Treasury’s 12/27/2011, Transactions Report-Housing Programs.

 1
      n September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the ‘L/C Facility Agreement”), which allowed Treasury to demand from Citigroup the issuance of an up to $8 billion, 10-year letter of credit (the
     O
     “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the
     then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the availability and usage of the L/C up to a maximum amount of $117 million.

 Source: Treasury, Transactions Report-Housing Programs, 12/27/2011.
                                                                                                                                                                                                                                                                                       APPENDIX D I TRANSACTION DETAIL I JANUARY 26, 2012
